<html>
<title> - VETERANS' EMPLOYMENT AND TRAINING SERVICE'S BUDGET AND STATE GRANT PROGRAM</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





  VETERANS' EMPLOYMENT AND TRAINING SERVICE'S BUDGET AND STATE GRANT 
                                PROGRAM

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 3, 2011

                               __________

                            Serial No. 112-3

                               __________

       Printed for the use of the Committee on Veterans' Affairs




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






                  U.S. GOVERNMENT PRINTING OFFICE
65-869                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001









                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

GUS M. BILIRAKIS, Florida            BOB FILNER, California, Ranking
CLIFF STEARNS, Florida               CORRINE BROWN, Florida
DOUG LAMBORN, Colorado               SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
DAN BENISHEK, Michigan               LINDA T. SANCHEZ, California
ANN MARIE BUERKLE, New York          BRUCE L. BRALEY, Iowa
JEFF DENHAM, California              JERRY McNERNEY, California
BILL FLORES, Texas                   JOE DONNELLY, Indiana
TIM HUELSKAMP, Kansas                TIMOTHY J. WALZ, Minnesota
BILL JOHNSON, Ohio                   JOHN BARROW, Georgia
JON RUNYAN, New Jersey               RUSS CARNAHAN, Missouri
MARLIN A. STUTZMAN, Indiana
Vacancy
Vacancy

            Helen W. Tolar, Staff Director and Chief Counsel

                                 ______

                  SUBCOMMITTEE ON ECONOMIC OPPORTUNITY

                 MARLIN A. STUTZMAN, Indiana, Chairman

GUS M. BILIRAKIS, Florida            BRUCE L. BRALEY, Iowa, Ranking
BILL JOHNSON, Ohio                   LINDA T. SANCHEZ, California
TIM HUELSKAMP, Kansas                TIMOTHY J. WALZ, Minnesota
JEFF DENHAM, California

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.










                            C O N T E N T S

                               __________

                             March 3, 2011

                                                                   Page
Veterans' Employment and Training Service's Budget and State 
  Grant
  Program........................................................     1

                           OPENING STATEMENTS

Chairman Marlin A. Stutzman......................................     1
    Prepared statement of Chairman Stutzman......................    49
Hon. Bruce L. Braley, Ranking Democratic Member..................     2
    Prepared statement of Congressman Braley.....................    50

                               WITNESSES

U.S. Department of Labor, Hon. Raymond M. Jefferson, Assistant 
  Secretary, Veterans' Employment and Training Service...........     4
    Prepared statement of Mr. Jefferson..........................    50

                                 ______

American Legion, Robert W. Madden, Assistant Director, National 
  Economic Commission............................................    35
    Prepared statement of Mr. Madden.............................    75
Disabled American Veterans, John L. Wilson, Assistant National 
  Legislative Director...........................................    32
    Prepared statement of Mr. Wilson.............................    68
National Association of State Workforce Agencies, Bonnie Elsey, 
  President-Elect, and Senior Administrative Officer, Minnesota 
  Department of Employment and Economic Development..............    23
    Prepared statement of Ms. Elsey..............................    57
Veterans of Foreign Wars of the United States, Raymond C. Kelley, 
  Director, National Legislative Service.........................    33
    Prepared statement of Mr. Kelley.............................    72
Vietnam Veterans of America, Richard F. Weidman, Executive 
  Director for Policy and Government Affairs.....................    36
    Prepared statement of Mr. Weidman............................    78

                       SUBMISSION FOR THE RECORD

American Veterans (AMVETS), Christina M. Roof, National Acting 
  Legislative Director, statement................................    80

                   MATERIAL SUBMITTED FOR THE RECORD

Post-Hearing Questions and Responses for the Record:
    Hon. Bruce L. Braley, Ranking Democratic Member, Subcommittee 
      on Economic Opportunity, Committee on Veterans' Affairs, to 
      Hon. Raymond M. Jefferson, Assistant Secretary, Veterans' 
      Employment and Training Service, U.S. Department of Labor, 
      letter dated March 7, 2011, and DoL's responses............    85
    Hon. Bruce L. Braley, Ranking Democratic Member, Subcommittee 
      on Economic Opportunity, Committee on Veterans' Affairs, to 
      Bonnie Elsey, President-Elect, National Association of 
      State Workforce Agencies, and Senior Administrative 
      Officer, Minnesota Department of Employment and Economic 
      Development, letter dated March 7, 2011, and NASWA's 
      responses..................................................    88
    Hon. Bruce L. Braley, Ranking Democratic Member, Subcommittee 
      on Economic Opportunity, Committee on Veterans' Affairs, to 
      John L. Wilson, Assistant National Legislative Director, 
      Disabled American Veterans, letter dated March 7, 2011, and 
      DAV's responses............................................    90
    Hon. Bruce L. Braley, Ranking Democratic Member, Subcommittee 
      on Economic Opportunity, Committee on Veterans' Affairs, to 
      Raymond C. Kelley, Director, National Legislative Service, 
      Veterans of Foreign Wars of the United States, letter dated 
      March 7, 2011, and VFW responses...........................    94
    Hon. Bruce L. Braley, Ranking Democratic Member, Subcommittee 
      on Economic Opportunity, Committee on Veterans' Affairs, to 
      Robert W. Madden, Assistant Director, National Economic 
      Commission, American Legion, letter dated March 7, 2011, 
      and American Legion's responses............................    95
    Hon. Bruce L. Braley, Ranking Democratic Member, Subcommittee 
      on Economic Opportunity, Committee on Veterans' Affairs, to 
      Richard F. Weidman, Executive Director for Policy and 
      Government Affairs, Vietnam Veterans of America, letter 
      dated March 7, 2011. [NO RESPONSE WAS RECEIVED]............    97

 
                   VETERANS' EMPLOYMENT AND TRAINING
                       SERVICE'S BUDGET AND STATE
                             GRANT PROGRAM

                              ----------                              


                        THURSDAY, MARCH 3, 2011

             U.S. House of Representatives,
                    Committee on Veterans' Affairs,
                      Subcommittee on Economic Opportunity,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:02 a.m., in 
Room 334, Cannon House Office Building, Hon. Marlin A. Stutzman 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Stutzman, Bilirakis, Johnson, 
Huelskamp, Denham, Braley, and Walz.

             OPENING STATEMENT OF CHAIRMAN STUTZMAN

    Mr. Stutzman. Good morning. Thanks to everybody for being 
here this morning and I am looking forward to our first hearing 
of the Subcommittee on Economic Opportunity of the Veterans' 
Affairs Committee.
    I am Marlin Stutzman. It is a privilege to be chairing this 
Committee this morning and I am also looking forward to working 
with Mr. Braley as well as other Committee Members.
    I think we will just go ahead and get started and so we can 
get right into the testimony.
    So we are here today to examine the fiscal year 2012 budget 
for the U.S. Department of Labor's (DoL's) Veterans' Employment 
and Training Service, better know in the veteran's community as 
VETS.
    It is no secret that veterans are facing difficult times 
finding and retaining good-paying jobs. Unemployment rates for 
veterans in some age groups significantly exceed the rates for 
nonveterans of the same age. I just do not believe that is 
right.
    I am confident that the distinguished Ranking Member shares 
that view and I intend to work with Mr. Braley in a bipartisan 
manner to improve employment opportunities for veterans.
    Interestingly, job vacancies posted online rose by 438,000 
in January to nearly 4.3 million according to the Conference 
Board, so there are literally millions of jobs looking for 
qualified workers. So that begs me to ask whether veterans have 
the right skills for today's job market and the answer to that 
may be the key to reducing veteran unemployment rates.
    The media focuses on the 15.2 percent unemployment rate 
among veterans returning home from Iraq and Afghanistan, but in 
terms of sheer numbers, older veterans are facing rates of 
unemployment that often exceeds their nonveteran peers.
    For example, the Bureau of Labor Statistics' (BLS) latest 
data shows that 725,000 or 63 percent of the 1,135,000 
unemployed vets are 35 to 64 years old. Unfortunately, those 
veterans have little or no access to veterans' education, 
training, or retraining programs. They are also the group that 
tends to have the highest financial obligations like mortgages 
and paying for their children's education.
    We are all aware of the financial crisis facing this 
Nation, which means we must redouble our efforts to make best 
use of the funds available to us. That means that what is the 
best use of the $261 million the President has requested for 
the Veterans' Employment and Training Service in fiscal year 
2012.
    How do we increase the skills unemployed veterans can offer 
to the job market and then what is the best way to match 
veteran qualified job seekers with the right job?
    The VETS' budget submission is refreshingly frank in 
addressing the State Grant Program. I quote, ``The program 
clearly was not fulfilling its mandated role,'' end quote. And 
I am eager to hear how VETS proposes to fix their largest 
program whereas a veteran in Indiana should be able to receive 
the same level of services that a veteran in New York and it is 
clear that this is not currently happening.
    I would also recognize President Obama's initiative to 
increase the number of veterans employed by the Federal 
Government. Today veterans are approximately 25 percent of the 
Federal workforce, but, unfortunately, outside of the VA and 
the U.S. Department of Defense (DoD), most agencies fall far 
short of employing a significant number of veterans.
    I wish the President every success in this program and I am 
sure each of the Members here will call upon the entire Federal 
Government to place greater emphasis on hiring veterans.
    But I would also note that the private sector offers far 
more employment opportunities as evidenced by the Conference 
Board's data.
    Finally, I welcome today's witnesses, and I yield to the 
distinguished Ranking Member, Mr. Braley, after which we will 
hear from the first panel.
    [The prepared statement of Chairman Stutzman appears on p. 4
9.]

              OPENING STATEMENT OF BRUCE L. BRALEY

    Mr. Braley. Mr. Chairman, I want to first begin by 
congratulating you on your Chairmanship and holding your first 
hearing on a topic that should be near and dear to the heart of 
every American. And I look forward to working with you because 
we all know that when it comes to taking care of our veterans, 
there is no such thing as partisanship. And I think this is 
going to be a wonderful opportunity for us to talk about the 
important economic issues that face our veterans.
    I was reminded of that a week ago, which was the 61st 
anniversary of when my father landed on Iwo Jima as a young 18-
year-old Marine from Iowa. And if we could address the 
challenges of that massive demobilization and all of the 
economic issues we faced after World War II, I am confident 
that if we work together in a nonpartisan way, we can do a lot 
with this Committee to expand economic opportunities for 
veterans.
    As you all know, we are working hard in Congress to try to 
balance our budget and reduce the deficit, at the same time 
providing much needed services and employment opportunities for 
veterans. And this hearing is going to provide us with an 
opportunity to review the U.S. Department of Labor VETS' budget 
request for fiscal year 2012 and funding for the Disabled 
Veterans' Outreach Program (DVOP) and Local Veterans' 
Employment Representatives (LVER) Program through State Grant 
programs.
    VETS oversees six major employment related initiatives for 
veterans including Jobs for Veterans State Grants, Transition 
Assistance Program, Homeless Veterans' Reintegration Program 
(HVRP), Veterans' Workforce Investment Program (VWIP), National 
Veterans' Employment and Training Services Institute, and the 
Federal Management.
    And I look forward to learning more about how these 
programs will remain fully operational and effective with the 
new budget request. I am also interested in learning more about 
the Transition Assistance Program (TAP) and the Homeless 
Veterans' Reintegration Program initiatives as these two had a 
budget request increase for fiscal year 2012.
    I know that our distinguished panelists will highlight some 
of the deficiencies of the Disabled Veterans' Outreach Program 
Specialists and the Local Veterans' Employment Representatives 
Program. And I also look forward to hearing their 
recommendations on how we can improve these services while 
still keeping a good budget.
    The main purpose of DVOPs and LVERs is to provide 
employment services to veterans to help relieve the high 
unemployment rate among veterans. We should do everything we 
can to ease the transition of veterans from the military to the 
civilian world and this hearing is not just about those 
problems, but about assessing the effectiveness of these 
programs.
    And I thank you for your time and your willingness to come 
share your thoughts and ideas with us.
    And I yield back.
    [The prepared statement of Congressman Braley appears on p. 
50.]
    Mr. Stutzman. Thank you, Mr. Braley.
    And I should say this. If you do come to see either one, 
Mr. Braley or myself, in our offices, you will not have to walk 
very far since we are next door to each other. And so I am 
delighted to work with him.
    First of all, I would like to welcome our Assistant 
Secretary of Labor for the Veterans' Employment and Training 
(ASVET), the Honorable Ray Jefferson. Secretary Jefferson's 
biography is one of service to the Nation and its veterans. And 
in his current capacity as the ASVET, I believe he brings with 
him new thinking and a forward-looking approach to solving the 
problems facing our unemployed veterans.
    Mr. Secretary, it was good to visit with you yesterday, and 
the floor is yours for 5 minutes.

 STATEMENT OF HON. RAYMOND M. JEFFERSON, ASSISTANT SECRETARY, 
 VETERANS' EMPLOYMENT AND TRAINING SERVICE, U.S. DEPARTMENT OF 
                             LABOR

    Mr. Jefferson. All right, sir. Thank you very much, sir.
    Chairman Stutzman, Ranking Member Braley, Members of the 
Committee, thank you very much for giving us this opportunity 
to testify about what we are doing at VETS and specifically 
with the Jobs for Veterans' State Grant Program and the 
President's fiscal year 2012 budget request.
    I do ask that my full written testimony be included as part 
of the record.
    VETS proudly serves veterans and transitioning 
servicemembers. We do three primary responsibilities. One, 
preparing them for meaningful and successful careers; two, 
providing access to those careers; and, three, protecting their 
employment rights.
    As an agency, we have five overarching goals.
    The first is to serve as a national focal point for 
veterans' employment.
    The second is to increase engagement with employers and 
particularly the private sector.
    The third is to help servicemembers transition seamlessly.
    The fourth is to boost the impact of Uniformed Services 
Employment and Reemployment Rights Act (USERRA).
    And the fifth is to invest in our team members so that they 
can maximize their performance into a potential.
    Let me now turn to the Jobs for Veterans State Grants 
(JVSG) Program or the State Grants Program. You asked me a 
series of questions. All of those are in my written testimony, 
but let me give you a succinct overview of what I see as five 
primary ways to improve the State Grants Program.
    Number one, we want to rapidly obtain pertinent feedback 
from the people delivering services. This program was created 
in its current form in 2002 and there has not been a single 
internal assessment since then.
    So all of my State directors are meeting with all of the 
State veterans' coordinators to get feedback on eight specific 
areas.
    One, what is working well.
    Two, how would you rate the program's current level of 
success.
    Three, how would you rate the support you receive from the 
one-stops.
    Four, what are the areas for the improvement.
    Five, what policy changes would you recommend.
    Six, how can VETS assist the State in achieving better 
outcomes.
    Seven, how would you rate the LVERs' overall effectiveness 
in doing outreach.
    And, eight, how helpful would it be for VETS to assist 
LVERs in increasing the employment opportunities that they have 
to provide to veterans.
    The second major opportunity for improvement is a community 
of practice. This is a best practice to get practitioners to 
maximize their performance and their impact. A great example is 
the U.S. Army's http://companycommand.com that was created out 
of Iraq and Afghanistan. This will allow DVOPs and LVERs to 
post questions and topics they need help with and also to share 
best practices.
    Today there is no way for a DVOP in Iowa to share best 
practices with a DVOP in Indiana or Illinois nor a DVOP in 
Florida with a DVOP in Hawaii. So we need to fix that.
    Number three, getting DVOPs and LVERs trained within 
prescribed time periods. Now, under the old time frame of 3 
years, 99 percent of the individuals have been trained on time. 
I am looking forward to the new time frame of 18 months to get 
people trained up as quickly as possible.
    We presently have 1 percent of all DVOPs and LVERs who have 
not been trained on time. That is 24 individuals, and we are 
going to deep dive into what are the specific circumstances in 
those 24 cases.
    Opportunity number four, analyzing the root causes of the 
administrative overhead. Over 50 States have admin overhead in 
excess of 30 percent. We want to determine the root causes and 
work with them with the goal of reducing that admin overhead.
    And, finally, integrating the LVERs into our new employer 
outreach initiatives with the Society for Human Resource 
Management and the U.S. Chamber of Commerce.
    Turning now to the President's fiscal year 2012 budget 
request, we have requested approximately $261 million, an 
increase of $5 million over fiscal year 2010. This supports 
increased participation tapped by the Guard and Reserve as well 
as additional employment service grants for homeless veterans 
and Homeless Veterans' Reintegration Program.
    We have six specific budget activities. I will take them 
one at a time.
    In terms of JVSG, we have the same level of effort. We 
expect this to support 1,146 DVOPs, 971 LVERs, and to serve 
624,000 veterans. Last year, the JVSG Program bottom line 
helped 200,000 veterans find jobs.
    TAP, we have an increase of $2 million. This reflects the 
increase in demand in services by the Guard and Reserve, 
especially the retiring active Guard and Reserve members, as 
well as participation in the Yellow Ribbon programs.
    In HVRP, we have an increase of $3 million. This is for 11 
grants that will serve an additional 1,700 veterans.
    At VWIP, our Green Jobs Training Program, we are going to 
maintain the same level of effort. We will also maintain the 
same level of effort for the National Veterans' Training 
Institute (NVTI), which does the training for Federal staff, 
DVOPs, LVERs, and also for Federal management and maintain the 
same level of effort.
    As I move to conclusion, I will say a priority for us this 
year is to refocus the DVOP and LVER Programs. Veterans have 
priority of service in all Labor Department employment training 
and programs. Of course, the one-stops are included in that.
    However, over time, DVOPs and LVERs have merged their 
duties. We want DVOPs to focus exclusively on providing 
intensive case management and intensive services to disabled 
veterans and LVERs to do the same in terms of focusing on 
employer outreach. And we want to engage them with our State 
directors to increase the employment opportunities they have.
    We are working with urgency and innovation. We look forward 
to working with all Members of the Committee and I stand ready 
for your questions.
    [The prepared statement of Mr. Jefferson appears on p. 50.]
    Mr. Stutzman. Thank you, Mr. Secretary.
    I will begin the questioning and then we will recognize the 
Ranking Member and our other Members alternating in order of 
arrival.
    First of all, in your budget submission, you state that you 
believe that the Jobs for Veterans State Grant Program is 
clearly not fulfilling its mandated role.
    What steps are you going to undertake in fiscal year 2012 
to address this issue and do you intend legislation from 
Congress to rectify the situation?
    Mr. Jefferson. Yes. So I believe that for the programs, we 
are approaching them with a lens towards how can they be 
improved, what are the best practices, and how we benchmark.
    So the first thing we are doing right now is to get timely, 
accurate feedback. There has not been an internal assessment 
done. So I want to make some information database decisions as 
to how to improve the program. So that is the outline 
structured conversations, which are happening right now.
    We have also proposed a new rule, which it is a performance 
threshold and that performance threshold will be the average of 
the previous year's entered employment rate. And so any State 
that does not meet 90 percent of that performance metric, we 
will engage with them in a conversation leading potentially to 
a corrective action plan to get that performance improved.
    So we are developing new metrics. We are getting data and 
then we are also going to implement a community of practices I 
spoke about, work to reduce the administrative overhead, and 
engage the LVERs in our effective employer outreach 
initiatives. We used to just serve one employer at a time. Now 
I am meeting with hundreds of employers at a time through our 
new partnerships.
    Mr. Stutzman. Do you foresee then that sharing best 
practices between States, is that part of the objective here 
for you and what plan do you have to meet that goal?
    Mr. Jefferson. Yes, sir. Sir, that is absolutely a key part 
of our strategy going forward. The U.S. Army has prototyped a 
best practice, something called the community of practice. It 
was a Harvard business review, a breakthrough idea of 2006, the 
U.S. Army's http://companycommand.com. We are going to model 
our online community of practice on that.
    Bottom line, if there is best practices happening in 
Florida or Indiana or Iowa or California, all DVOPs and LVERs 
should know those and be implementing them. And that is not 
happening now. And so we need to get that fixed.
    Mr. Stutzman. Okay. What are the new metrics? You had 
mentioned new metrics. What are those?
    Mr. Jefferson. Yes, sir. So we have a regulation that we 
are proposing and that regulation is going to look at all the 
performance of all of the States, territories as well, for the 
last year. It takes the average. And then that will be the 
metric by which all States are required to meet or exceed that 
average. So it is a beginning.
    If the State does not meet 90 percent of that, we then 
begin working with them to determine the root causes and then 
what are the actions that we should take, whether it is 
training, whether it is sharing best practices, whether it is a 
corrective action plan, to get them to exceed.
    And that is something that we have just, I believe, 
communicated that to Congress. So that was a late-breaking 
development that we have out of VETS, that new metric.
    Mr. Stutzman. And do you foresee Congress needing to craft 
legislation anywhere for giving you----
    Mr. Jefferson. Right now, sir, we have tremendous support. 
I think you will hear from the veterans service organizations 
(VSOs) that they also are in favor of increased metrics and 
standards. So I believe that this is one where this is strong 
alignment. We are just trying to move as urgently as possible.
    Mr. Stutzman. Okay. Then finally, what are your thoughts on 
taking the $165 million requested for the State Grant Program 
and using this funding for a program to fund direct training 
services for unemployment veterans?
    Mr. Jefferson. Sir, I believe that the way that we are 
going to best serve veterans, the way that we are going to make 
sure that over 200,000 veterans continue to find jobs every 
year is by taking the program, which right now is, you know, 
over 8-years old and bringing innovation into it.
    You know, working with disabled veterans one on one is 
something that we know they find incredibly valuable, but we 
want to bring more best practices to how we do that, more 
employment opportunities that we can offer them. And I believe 
innovating within the current program is how we are going to 
best serve veterans, not taking all of that money and applying 
it in an entirely new context.
    Mr. Stutzman. Okay. All right. Thank you.
    Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman.
    Mr. Secretary, I have a question for you about the best 
practices.
    Mr. Jefferson. Yes, sir.
    Mr. Braley. My experience is that human nature being what 
it is, most people believe their practice----
    Mr. Jefferson. Yes.
    Mr. Braley [continuing]. Is the best practice.
    Mr. Jefferson. Yes.
    Mr. Braley. So who makes the determination of what 
constitutes a best practice for the purpose of being shared 
through this system that other people can model their behavior 
on?
    Mr. Jefferson. Yes. Sir, great question. And we are aware 
that people often feel the way that they are approaching things 
is oftentimes the best, but that is not the reality.
    So we are going to look at the performance of every State, 
current performance, historical performance, and look at where 
we are getting the absolute best results and then root cause 
and deep dive into that. And then those will be what we pool. 
It is best practices proven by results in veterans' lives.
    Mr. Braley. And then will there be built into that process 
a follow-up mechanism to make sure that that remains the best 
practice going forward?
    Mr. Jefferson. Yes, sir. We want to be a continually 
learning organization. And when we had the privilege of 
meeting, I spoke about that as our new culture. So assessing, 
innovating, implementing, and then continuing that continual 
learning and improvement loop.
    Mr. Braley. Great. I want to talk about one of the items 
you mentioned in the budget request that was part of the 
justification for the increase.
    Mr. Jefferson. Yes, sir.
    Mr. Braley. And that was support of the DoD's goal of 
increased participation in the National Guard and Reserve 
component.
    Mr. Jefferson. Yes.
    Mr. Braley. And we talked about that yesterday and the fact 
that there are currently 3,500 members of the Iowa National 
Guard on active duty in Afghanistan.
    Mr. Jefferson. Yes, sir.
    Mr. Braley. And one of the things we know is that in an era 
of high unemployment, the pressure on those employers to even 
stay in existence let alone keep----
    Mr. Jefferson. Yes.
    Mr. Braley [continuing]. Positions open for Guard and 
Reserve members is intensive. So can you tell us a little bit 
more about why that additional budget request is so important 
at this time?
    Mr. Jefferson. Sure. Sir, I believe the answer relates to 
what was within your question, which is that the Guard and 
Reserve members and their commanders are realizing that in this 
economic condition, you know, now more than in recent years--or 
I would say we are at a reflection point where preparation is 
vitally important.
    So we are doing three things right now to better serve 
Guard and Reserve members. One, we have taken the TAP Program. 
We have broken it down to modules. And we have told Guard and 
Reserve commanders that we are committed to providing at any 
time and anywhere that you want us to to meet demobilization 
schedules.
    And there is going to be always three core components, 
labor market information, USERRA information, and one-stop 
career information.
    Number two, we are working closely with the Yellow Ribbon 
Program. We have also made the commitment to provide this at 
30-, 60-, and 90-day Yellow Ribbon programs any time, anywhere 
Guard and Reserve commanders request it.
    Third, our DVOPs are always participating in demobilization 
planning with the rear echelon units, the stay behind units or 
demobilizing units.
    And I will also say that we have a tremendous relationship 
with the Executive Director of the Guard and Reserve, Ron 
Young, and we are looking at how we can take his 4,700 
volunteers and connect them to a greater extent to our State 
directors and the DVOPs and LVERs.
    Mr. Braley. One of the concerns that we frequently have to 
deal with is the practice of erecting silos in Federal 
agencies.
    Mr. Jefferson. Yes, sir.
    Mr. Braley. And there is a lot of common interest between 
your department and the Small Business Administration (SBA)----
    Mr. Jefferson. Yes.
    Mr. Braley [continuing]. Which has veterans' assistance in 
establishing small businesses, which is also part of economic 
development.
    Mr. Jefferson. Yes.
    Mr. Braley. Can you tell us what your agency is doing to 
try to break down some of those barriers, eliminate duplication 
of services, and use the combined resources of those two 
agencies----
    Mr. Jefferson. Yes.
    Mr. Braley [continuing]. To help veterans who want to look 
at self-employment----
    Mr. Jefferson. Yes.
    Mr. Braley [continuing]. As an opportunity?
    Mr. Jefferson. Yes. Sir, what you are talking about is one 
of our five aspirations serving as a national focal point for 
veterans' employment.
    We literally go around to DoD, VA, SBA, Commerce and figure 
out what is everyone doing and how could we do it better 
together more synergistically and eliminate redundancy.
    Specifically, we are working with Marie Johns, the Deputy 
for SBA, as part of the Small Business Task Force. I have a 
personal appreciation for the importance of entrepreneurship. 
We are creating a new module for entrepreneurship in TAP. There 
will be a primary point of access to entrepreneurship of 
services, resources, support, and I will also use the word 
inspiration.
    So we are bringing that into TAP. And then the new online 
TAP platform that we spoke about, component five, is something 
that entrepreneurs can use to retool, retrain, and up-skill 
their team members at no charge if they are a veteran.
    Mr. Braley. And before my time runs out, Mr. Secretary, 
does your department have available resources so that when 
there are veterans' conferences in individual districts, you 
have people who can come out into the field and be part of 
explaining the services that are provided and serve as a 
gateway to getting more people 
aware of what can be accomplished through the use of your agency
?
    Mr. Jefferson. Sir, absolutely. We have State directors in 
every State. We have roughly 200 and, you know, 30 teams 
members. And one of the things which we are very passionate 
about doing is getting into the community, being at events, and 
communicating what we do, the value of hiring veterans and how 
to find and hire veterans and access our programs.
    Mr. Braley. Thank you.
    All right. Thank you, sir.
    Mr. Stutzman. Thank you, Mr. Braley.
    Mr. Huelskamp.
    Mr. Huelskamp. Thank you, Mr. Chairman. It is a pleasure to 
be here this morning.
    And thank you, Mr. Secretary, for joining us. I had a 
couple areas of questions I would be interested in.
    Mr. Jefferson. Yes, sir.
    Mr. Huelskamp. First of all, are there any particular job 
sectors where veterans are having a tougher time than others in 
finding employment?
    Mr. Jefferson. Sure. Sir, we are creating a body of work 
that will be part of our new Transition Assistance Program 
called Where the Jobs are Now. And as a part of that, we will 
be providing current information, not just on where the jobs 
are now, but where the trends have increased and where the 
trends have decreased.
    So there is not a specific industry that I would quote 
right now, but we are creating a body of work that all veterans 
and transitioning service will have access to that will give 
them that information.
    Mr. Huelskamp. Is that not available elsewhere in the 
Department of Labor?
    Mr. Jefferson. There is information, but there is not a 
venue right now to bring that information easily to veterans. 
We do have labor market information in the current TAP Program, 
but we believe that the manner in which that information is 
communicated and the content can be increased which is why as 
we have our new statement of objectives, one of them is a much 
more detailed, much more comprehensive look at what the future 
trends are because, as you know, many of the veterans, they 
develop a career plan, they are executing the plan, they get to 
the end of it, and those jobs are no longer there which is one 
of the reasons we are emphasizing green economy jobs.
    Mr. Huelskamp. A followup on that. So the information is 
available to nonveterans or to nobody at all as far as----
    Mr. Jefferson. No, sir. There is labor market information 
that is part of the TAP Program right now, but we want to 
improve that information as we re-engineer the TAP Program.
    Mr. Huelskamp. My question is, in the Department of Labor--
--
    Mr. Jefferson. Yes.
    Mr. Huelskamp [continuing]. Is the information more 
available to nonveterans?
    Mr. Jefferson. Yes, sir. Yes, sir. Yes, there is labor 
market information available at the Department of Labor.
    Mr. Huelskamp. Okay. Again, particularly for veterans 
versus nonveterans----
    Mr. Jefferson. Yes.
    Mr. Huelskamp [continuing]. Are we providing as good as 
information to nonveterans and veterans equally or do we----
    Mr. Jefferson. Yes, sir.
    Mr. Huelskamp [continuing]. Still have a problem with 
veterans?
    Mr. Jefferson. Yes, sir. We are providing information to 
veterans and nonveterans equally. Veterans also have priority 
of service into one-stops. So all the information that we have 
is provided equally. I apologize for misunderstanding the 
question.
    Mr. Huelskamp. No. Probably the questioner was----
    Mr. Jefferson. No.
    Mr. Huelskamp [continuing]. The problem here. Second 
question would be rural veterans----
    Mr. Jefferson. Yes, sir.
    Mr. Huelskamp [continuing]. In particular. You do mention 
it in your testimony.
    Mr. Jefferson. Yes.
    Mr. Huelskamp. In a couple words, tell me what is happening 
there and what your initiatives are.
    Mr. Jefferson. Yes, sir. Well, sir, 17 percent of all 
Americans live in rural America. When we start looking at rural 
veterans, that number goes up to 37 percent. So we realize that 
veterans in rural America are under-served.
    We have launched a pilot program in Washington State where 
we are able to contact all rural veterans, ask them if they 
need employment services or information on health services or 
education. We have a 98 percent participation rate. This is a 
real success we are very excited about. And so it is a pilot 
where we are doing best practices and doing proof of concept on 
that pilot.
    Mr. Huelskamp. And how are you providing the services?
    Mr. Jefferson. Very innovatively. We have a small group 
that has trained a large group of veteran volunteers. Then we 
access the veteran contact information data that the State 
government has. We call or e-mail veterans. If we have wrong 
contact information, we get the correct information, ask them 
if they would like one-on-one service and we can literally get 
boots on the ground at their door for the first time. But we 
leverage volunteers in an innovative model of a train-the-
trainer approach.
    Mr. Huelskamp. And how far do folks go to provide the 
services?
    Mr. Jefferson. We actually go right to their door, sir. 
This is a success. We are getting tremendous feedback. It has 
exceeded the expectations that we have for it.
    Mr. Huelskamp. Okay. I appreciate that. I come from rural 
western Kansas and trying to find trainers is----
    Mr. Jefferson. Yes, sir.
    Mr. Huelskamp [continuing]. A little bit of a difficulty. 
How far are trainers going then or the folks that are meeting 
at the door?
    Mr. Jefferson. Wherever the veterans in rural America are, 
sir. We are leveraging veteran volunteers in rural America. So 
they are either in or around the communities.
    Mr. Huelskamp. Are you using any technology then or you 
actually go to the door?
    Mr. Jefferson. Well, I would have to re-look if we are 
leveraging technology to the greatest extent. But the simple 
model is we are contacting them by phone or e-mail. If we do 
not have contact information, we look at that local area to see 
how we can get information.
    Ninety-eight percent are saying, yes, I want a meeting and 
then we have our volunteers actually there working with them 
one on one. Here is how you access employment services. Here is 
what you are eligible for. Oh, you need health, not employment, 
here is how you access the health services, working with the VA 
on that and the other State government resources.
    Mr. Huelskamp. Thank you, Mr. Secretary. My office would 
appreciate some more information on the pilot program----
    Mr. Jefferson. Yes, sir.
    Mr. Huelskamp [continuing]. In Washington State.
    Mr. Jefferson. And it was a severe shock that nothing like 
that existed when we came in. So we had realized a gap and we 
stepped into it with a solution.
    Mr. Huelskamp. Okay. Thank you, Mr. Chairman.
    [The DoL subsequently had a conference call with 
Congressman Huelskamp's staff on March 7, 2011, and provided 
staff everything they had on the pilot program in Washington 
State.]
    Mr. Stutzman. Thank you.
    I have a quick question.
    Mr. Jefferson. Yes, sir.
    Mr. Stutzman. If a veteran goes in to file unemployment, is 
there any way that we can identify or notify that veteran of 
your programs or what is available to them or do they just kind 
of fall into the----
    Mr. Jefferson. We are trying to do that, sir. The idea that 
we had was a veteran files unemployment. When he or she gets 
the unemployment check, can we have information right there, 
you know, when they receive that hard copy check talking about 
like our Job Corps pilot for the youngest veterans.
    I do not have an answer yet. It is a question that we are 
trying to work and see if we can get an answer to. You know, is 
it possible, we are looking into that.
    Mr. Stutzman. Okay. All right. Very good. I think that 
would be an excellent way----
    Mr. Jefferson. Yes, sir. It is a great delivery mechanism.
    Mr. Stutzman. Absolutely. All right. Thank you.
    Mr. Walz.
    Mr. Walz. Well, thank you, Mr. Chairman, and I do want to 
congratulate on assuming the Chairmanship. Of all the 
Committees you could have chosen to serve on, you picked here 
for a reason. It says a lot about you.
    And, Mr. Ranking Member, I know your commitment to veterans 
and your family's history of sacrifice to this country. I am 
very proud to have you there.
    So thank you both for that.
    And, Assistant Secretary Jefferson, there is no one else I 
would rather have in this job than you. Your service to this 
country and your selfless service to your own colleagues at a 
time of danger is well-known. And I am glad to have you there.
    I think you are working incredibly hard to make sure that 
these programs are there. I think the question I want to get at 
and I am sure my friends across the aisle here agree with me, 
government is not the solution to all this. It is the 
employers----
    Mr. Jefferson. Yes.
    Mr. Walz [continuing]. To a certain degree.
    Mr. Jefferson. Yes.
    Mr. Walz. And we are talking about all the things that we 
can do----
    Mr. Jefferson. Yes.
    Mr. Walz [continuing]. Which I think are good at preparing 
them. But several weeks ago, we saw you can have the best laid 
plans and intentions, but the Servicemember Civil Relief Act 
(SCRA) fell through because the private-sector employers were 
not honoring it.
    Mr. Jefferson. Yes.
    Mr. Walz. So my question to you is, and I say this because 
I think our employers are doing a heroic job----
    Mr. Jefferson. Yes.
    Mr. Walz [continuing]. Of hiring veterans, making the 
sacrifice necessary, small employers especially. There are 
cases where they may lose two or three Guardsmen to a 
deployment or local police department is the same thing.
    So my question to you is, are we doing a good enough job 
educating on that side? Does USERRA work? Are we getting the 
information out? Are we bringing those folks in to work with us 
and say----
    Mr. Jefferson. Yes.
    Mr. Walz [continuing]. And say here is how you crosswalk--
--
    Mr. Jefferson. Yes.
    Mr. Walz [continuing]. Military experience into the private 
sector, here is what you can do for us so the minute they walk 
out the door, we are going to hire them at IBM, we are going to 
hire them wherever? Could you speak to that?
    Mr. Jefferson. Sir, I would love to because you are talking 
about a topic that I am very passionate about. And when I came 
on board, there was a huge opportunity for improvement.
    Let me break this down to three things. Let me first talk 
about engagement with employers. Let me talk about 
communicating the value of hiring, the message, and changing 
the cultural conversation, and then I will finish with USERRA.
    First of all, we were meeting with employers one at a time. 
One point one million veterans unemployed in January and we are 
meeting with them one at a time. That had to stop. We have two 
pilots which are going on right now, the first one with the 
U.S. Chamber of Commerce.
    We realized that there is tremendous alignment on serving 
veterans.
    Mr. Walz. Yes.
    Mr. Jefferson. It is a nonpartisan, bipartisan commitment. 
So we launched a pilot in July in 14 States. In just about 45 
days, my State directors who normally met one employer at a 
time, 10 State directors met about 1,500 employers, got the 
message, 300 follow-up meetings. So that is like a one to 30 
ratio whereas before it may be, you know, one to a negative 
ratio.
    We are now going to phase two with the top 100 chambers. We 
are going to do mega hiring fairs. We are prototyping that next 
month in March. We are also bringing the Society for Human 
Resource Management and a second pilot.
    So we are going to strengthen our engagement with 
employers. I want my State directors with DVOP and LVER on each 
side on the panel talking to hundreds of employers at a time.
    Number two, changing the cultural conversation in America. 
A veteran on the cover of Fortune for the first time in the 
magazine's history, I believe, last year. We are working with 
Fortune, Forbes, and Business Week. We have commitments for two 
sections in Business Week this year, one in Forbes, one in 
Fortune. Thirty million unique visitors will get the message 
when Business Week does something. We want the message to be 
hire a veteran and where to find a veteran.
    Finally, USERRA. I am bringing in best practices there. We 
have done a lean six sigma quality improvement process. It is 
very paper-centric right now. We are going to go to e-case 
management, automate that process, and bring best practices 
into that.
    So it is the marketing and it is also getting the employers 
engaged. They want to hire veterans. They do not know how to 
find them.
    Mr. Walz. Very good. Do things like the work opportunity 
tax credit help?
    Mr. Jefferson. Sir, they do. You know, a lot of employers 
say is there a tax credit. They are not aware that there is a 
work opportunity tax credit. So part of this is us getting out 
in front of them and giving them information. There has been a 
gap in that connectivity.
    Mr. Walz. We are trying to strengthen that to expand it 
into the National Guard. So one of the problems we have, and I 
think the Chairman was getting at this, one of the problems we 
have with our Guard members that you do not qualify to be able 
to take that to your employer. Educate our folks so when they 
go out and say, hey, if you hire me, not only are you going to 
get one of the best workers, most dedicated----
    Mr. Jefferson. Yes.
    Mr. Walz [continuing]. People of this country, I am also 
coming with a $4,000 tax credit.
    Mr. Jefferson. Yes.
    Mr. Walz. But one of the problems is to qualify for that, 
you have to be unemployed first. And some of these guys have 
not applied for unemployment. Why should we force them to apply 
for unemployment if they can first go out and get there, the 
way I understand it with National Guard; is that correct?
    Mr. Jefferson. Sir, I have to deep dive into that. That was 
not my understanding. So I do not want to guess.
    Mr. Walz. We have been having some trouble with the Guard, 
but I bring that up and----
    Mr. Jefferson. Let's take that as task for my team. We will 
go back and see if that is--that would certainly----
    Mr. Walz. And I say that because I do not think these 
employers--it is not bribing them to hire veterans at all.
    Mr. Jefferson. Yes.
    Mr. Walz. But this is an issue of the entire country should 
sacrifice for this if these folks are going to go out on the 
line, hire folks, train them with the understanding, especially 
Guardsmen, they may deploy again. I think we need to get that 
right. the
    And the Iraq and Afghanistan Veterans of America (IAVA) has 
called for recently a Pew type study of how do we do a better 
job of cross-walking certification----
    Mr. Jefferson. Yes.
    Mr. Walz [continuing]. Over into the private sector. Are 
you hearing that from employers that that would be helpful?
    Mr. Jefferson. Sir, I believe that making employers aware 
of how to translate the skill sets, the knowledge, the 
abilities that veterans gain into a value proposition is 
helpful. We are going to bring that into TAP.
    We are also meeting with IAVA either this afternoon or next 
week. We have a meeting with them to talk about how we align 
our efforts as well. We are working with all the veteran 
service organizations who are behind us right now. So this is a 
strong partnership. We are going to keep bringing it and just 
making it better and better.
    Mr. Walz. Well, I appreciate it. And I would also say this 
is a chronic issue. We hear it often. But I would echo again 
there is nobody else I would want in the job except you right 
there right now. So thank you.
    Mr. Jefferson. Sir, I appreciate your support. My team 
appreciates it. Thank you, sir.
    Mr. Stutzman. Thank you.
    I have a quick question on the work opportunity tax credit. 
That is a $12,000 tax credit?
    Mr. Jefferson. No, sir. I believe it is $2,400 for a 
veteran and $4,800 for a disabled veteran. Let me quickly turn 
to my career deputy who is my numbers expert. I got the numbers 
right? Is that the general ballpark?
    Okay. So that is the general ballpark. We actually have a 
memo on it that I can share with your office as well and the 
Committee members.
    Mr. Stutzman. Okay. Yeah, I would appreciate it.
    [Responding to the request of Mr. Walz and Chairman 
Stutzman, the DoL subsequently provided the following pamphlet 
entitled, ``The Work Opportunity Tax Credit Solution, Puts Tax 
Savings in the Palm of Your Hands,'' dated August 2009, U.S. 
Department of Labor, Employment and Training Administration.]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Jefferson. It is almost double. There is an increase if 
it is a disabled veteran.
    Mr. Walz. Mr. Chairman, if I could, we just introduced the 
extension of this that we did last year. We had great 
cooperation. Mr. Boozman was interested in this. It is over in 
the Senate side. There is a companion over there. Mr. Roe and 
myself put that out in the last few days, so it might be----
    Mr. Stutzman. Okay.
    Mr. Walz [continuing]. Of interest to try and update that 
and give them that tool.
    Mr. Jefferson. Thank you, sir.
    Mr. Stutzman. Absolutely. You said it was $2,400 for the--
--
    Mr. Walz. Yes, for a veteran and $4,800 for a disabled 
veteran. One of the things we strengthen on is expanding it to 
the Guard and Reserves.
    Mr. Jefferson. Thank you, sir.
    Mr. Stutzman. All right. Very good information. Thank you.
    Mr. Denham.
    Mr. Denham. Thank you.
    Mr. Jefferson, under the general operating expenses 
account, you have requested an additional $1.5 million, which 
is for other services. That is an increase over the 2010 
budget.
    What do you define as other services and what is the 
rationale for the increase?
    Mr. Jefferson. Sir, I believe that is relating to the TAP 
Program. Let me look at the actual budget item there. Budget 
object class 25.2, an increase of $1.6 million roughly.
    Two things. One, redesigning the Transition Assistance 
Program the first time in 19 years, so that is for procurement 
second year costs. And also we are going to improve the 
delivery system by going to an all contract facilitator force 
and that is the second reasoning for that increase.
    Mr. Denham. Thirteen point two overall in other services?
    Mr. Jefferson. I am sorry, sir?
    Mr. Denham. So you are expanding it to $1.5 million?
    Mr. Jefferson. Yes, sir. Yes, sir, $1.6 million.
    Mr. Denham. Okay. And you are currently doing a review of 
the Jobs for Veterans State Grants Program?
    Mr. Jefferson. Yes, sir.
    Mr. Denham. Where are you at on that right now?
    Mr. Jefferson. Our State directors are all having what I 
call a structured dialogue, meaning they have eight questions 
to get feedback on. Some of this is qualitative feedback. 
Others I am asking them to provide ratings.
    And so we are going to get that for every State to include 
the territories and then we are going to make information-based 
decisions on how to improve the program. But I first wanted to 
get a database and there has not been one done internally since 
the problem started in 2002.
    Mr. Denham. Why has it taken so long?
    Mr. Jefferson. Sir, I cannot comment on what has happened 
prior to me getting here. I can just tell you that if you look 
at our track record for the last 18 months, we have taken a 
transformation of almost every single program and doing it with 
the resources we have, TAP, employer outreach, engagement with 
the younger veterans, rural veterans, marketing.
    We are doing a whole host. I think we have about 22 
initiatives we have never done before. So I am trying to drive 
things as quickly as possible without redlining the engine and 
us burning out very candidly.
    Mr. Denham. Thank you.
    A couple months ago, we met with Secretary Gates and the 
question I had for him is will he have enough funding in this 
year's budget to address all of the needs for the returning 
veterans, including the job assessment and actually----
    Mr. Jefferson. Uh-huh.
    Mr. Denham [continuing]. Making sure that we are doing 
retraining for all of those veterans. And he had said at the 
time that he did have adequate funding. My concern is how do we 
not only address the needs but identify the individuals that 
have the need.
    Right now it is my understanding, well, especially without 
the review, that it is a request program. But if the veteran 
returns home and never understands that there is assistance out 
there or is not being connected, then we do not know that we 
are meeting that need in the first place. I know that you are 
working with some States.
    Mr. Jefferson. Yes.
    Mr. Denham. Like California, we have Operation Vet Connect. 
There is, I would say, an improved communication.
    Mr. Jefferson. Yes.
    Mr. Denham. But there is no reason we should not be 
communicating with every veteran that returns.
    Mr. Jefferson. Yes, sir, absolutely. So right now we have 
about 160,000 servicemembers who exit the military every year 
and 110,000 demobilizations. We serve 80 percent of them, so we 
are capturing 80 percent in the Transition Assistance Program. 
That week-long program provides them an overview of their 
benefits and services from VA, from DoD, and then also from the 
Labor Department.
    Mr. Denham. Why only 80 percent?
    Mr. Jefferson. Sir, no one knows the answer. Let me give 
you my belief. Eighty percent of the people are choosing to go 
with the program. This is just Assistant Secretary Jefferson 
talking. Because they see there is value in the program. Twenty 
percent do not perceive that there is value.
    Now, we are re-engineering this to national and global best 
practices. We are also working to engage with employers as 
advocates of the program. We are going to be having some 
meetings with the entertainment industry to see if we can raise 
awareness of the program among the younger veterans.
    My objective is for them to realize, one, there is a brand 
new program; two, it is better; and, three, you will have 
better employment outcomes by attending it and by doing that to 
increase the participation.
    I will also tell you for the first time, we are going to 
measure the performance of the program. One point seven million 
people have gone through it. There is not one performance 
metric in existence. I am creating performance metrics at three 
moments of assessment going forward.
    Mr. Denham. Thank you.
    And just to wrap up, 80 percent on Transition Assistance I 
would say is a good start. As a young airman myself when I 
left, I was probably in that 20 percent because I did not feel 
like I needed anything at the time.
    Mr. Jefferson. So was I, sir.
    Mr. Denham. But as you get down the road----
    Mr. Jefferson. Yes.
    Mr. Denham [continuing]. Whether it is Reserve duty or 
National Guard, you know, or you have just completely gone non-
active, at some point, you may decide that you need something.
    Mr. Jefferson. Yes.
    Mr. Denham. Maybe later in life, you know, we are seeing 
some of the Vietnam veterans that probably were in that 20 
percent. I am sure it was a much higher percentage back then. 
Then now find out that they have disabilities that result back 
from their time of service.
    My concern is that not just are we missing the 20 percent 
that have transitioned----
    Mr. Jefferson. Yes.
    Mr. Denham [continuing]. But it truly is a transition which 
I do not think anybody knows what the percentage is after that 
because we do not have the good communication with all of our 
States.
    Mr. Jefferson. Yes. So there are three things that we are 
doing that will specifically address what you are talking about 
which is we will call it older veterans or veterans who need 
employment services or training post the transitional phase.
    Number one, there are six components to the new TAP. One of 
those components is an online virtual TAP Program that every 
veteran, Guard, Reservist will have access to for the duration 
of his or her life. So if they need to retrain, refresh, or 
deep dive into resume, interview, networking, story telling, 
mental resiliency training, stress reduction techniques, career 
planning, transitioning to a new work environment, that will 
all be there for them, number one.
    Number two, they do have DVOPs and LVERs who can also 
assist them one on one with doing resume reviews, interview 
training, et cetera.
    And number three, I want to raise awareness of the first 
two through marketing, media, increased outreach.
    Mr. Denham. Thank you.
    And just to wrap up, my concern is not with marketing.
    Mr. Jefferson. Yes.
    Mr. Denham. I think that we are doing an improved job of 
marketing.
    Mr. Jefferson. All right, sir.
    Mr. Denham. My issue is every veteran should have the 
opportunity and we ought to be able to, I mean, through various 
government entities be able to outreach to them. My concern is, 
is after they get out of this transition phase, you get 
released from active duty in Texas, but you are a California 
resident, we are not having that interaction between California 
and the active-duty personnel to be able to say we are going to 
track them from here on out.
    So if somebody ends up homeless or they end up out of work 
or they need job training, but do not know that those 
assistance are out there, just like Mr. Walz had said with the 
unemployment issue, we should not wait until they go to 
unemployment.
    Mr. Jefferson. Yes.
    Mr. Denham. We ought to have a way to outreach to them 
because we know who they are and the States who are prepared to 
interact with them if they only had that information. So we 
have a real disconnect between States and Federal Government. 
And right now my concern is today we are going to have more 
veterans returning this year than we have had since Vietnam.
    Mr. Jefferson. Uh-huh.
    Mr. Denham. And I do not feel like we are prepared there to 
address not only the job aspect of this, but also we are going 
to have this huge opportunity to correct a big mistake and we 
are able to have that connection with them day in and day out 
year after year.
    And if we miss this opportunity, it is going to be just 
like the similar situations in the past where once they are off 
active duty, once they have missed that transition, then 20 
years down the road, they realize that they have an issue, but 
we have nobody that is doing that outreach.
    So just to say that we are going to do a TV commercial or 
put it into a magazine still does not get there to have that 
direct contact because you know who that individual is, you 
know where they live, you have their e-mail address, and you 
are able to pass that on to the State.
    Mr. Jefferson. Sir, we are solving that. I apologize for 
not communicating that effectively. As we go with our TAP 
transformation, we are working with DoD so that we can track 
the participants into other States, into their future core 
decisions, et cetera.
    So we create a safety net that provides a continuum of 
support. So that is what we are doing right now, which did not 
exist before. That is new. That is an innovation. That is 
happening.
    Now, for those servicemembers who do not attend TAP, that 
is where we want to, you know, engage them, make sure that they 
have information constantly coming to them so whenever in their 
life they want to access these resources, they know what they 
can get from Labor, what they can get from VA, what they can 
get from DoD.
    So we are working to solve that right now, but it was not 
part of the program in the past, but it will be going forward.
    Mr. Denham. All right. Thank you, sir.
    Mr. Stutzman. All right. Thank you.
    And just information for the Committee, we are also going 
to do a hearing in mid-April on TAP as well so we can be 
addressing some of those issues.
    Mr. Jefferson. Yes, sir. We are very excited about that.
    Mr. Stutzman. And then I guess out of respect, I want to 
make sure that we respect everybody's time, but this has been 
really good, helpful information, does anybody else have a 
follow-up question that they would like to ask? I would be 
willing to do that if the Committee is interested in doing 
that.
    Mr. Braley. Mr. Chairman, I just wanted to clarify 
something that Mr. Walz brought up so that everybody here has 
the correct information.
    In looking at the Department of Labor's Web site on the 
work opportunity tax credit, it appears that it will expire on 
September 1st of this year. The categories range from a maximum 
credit of $1,500 for veterans all the way up to $9,000 if the 
veteran is in a family that is currently receiving taxpayer 
assistance through the Temporary Assistance for Needy Families 
Program. So there is an incredible economic incentive. I think 
it has been very successful in achieving the objectives and 
giving employers greater incentives to hire unemployed workers.
    And you raised the point about going on unemployment first. 
It looks like the only criteria is it has to be a new employee. 
So they could not have worked for that employer before.
    Mr. Jefferson. Yes.
    Mr. Braley. I do not think it is tied directly to filing 
for unemployment, but it has to be someone who has not worked 
for that business in the past.
    Mr. Stutzman. Is that a one-
time credit for 1 year? Is that correct?
    Mr. Braley. Up to 2 years.
    Mr. Stutzman. Up to 2 years?
    Mr. Braley. Uh-huh.
    Mr. Stutzman. Okay. Thank you.
    Mr. Braley. You are welcome.
    Mr. Stutzman. Mr. Huelskamp, any further questions?
    Mr. Huelskamp. No.
    Mr. Stutzman. Mr. Walz?
    Mr. Walz. I am good.
    Mr. Stutzman. Okay. All right. Okay. Thank you very much. 
This has been very helpful information and I found a couple of 
new items that I am looking forward to working on in the 
future. So with that, on behalf of the Subcommittee, thank you 
for being here and thank you for your testimony. And we look 
forward to working with you in the future.
    Mr. Jefferson. Thank you, sir. We are very excited about 
that. I appreciate your support.
    Mr. Ranking Member, Members of the Committee, we are very 
excited and we are going to keep working with urgency and 
innovation to continue to make things better and better. Thank 
you.
    Mr. Stutzman. Thank you.
    I now welcome Ms. Bonnie Elsey to the witness table. Ms. 
Elsey is the President-Elect of the National Association of 
State Workforce Agencies (NASWA) and the Senior Administrative 
Officer of the Minnesota Department of Employment and Economic 
Development.
    And I would note that the gentleman and sergeant major from 
Minnesota, Mr. Walz, continues to serve veterans in so many 
different ways and is a Member of our Subcommittee.
    And we welcome you and recognize you for 5 minutes. Thank 
you for being here and thank you for the work that you do as 
well.

     STATEMENT OF BONNIE ELSEY, PRESIDENT-ELECT, NATIONAL 
      ASSOCIATION OF STATE WORKFORCE AGENCIES, AND SENIOR 
ADMINISTRATIVE OFFICER, MINNESOTA DEPARTMENT OF EMPLOYMENT AND 
                      ECONOMIC DEVELOPMENT

    Ms. Elsey. Thank you.
    Chairman Stutzman and Ranking Member Braley and Members of 
the Subcommittee, my name is Bonnie Elsey and I really thank 
you for the opportunity to testify before this Committee today.
    I am the Senior Administrative Officer for the Minnesota 
Department of Employment and Economic Development and 
President-Elect of the National Association of State Workforce 
Agencies, known as NASWA.
    I appreciate the opportunity to comment on the 
Administration's fiscal year 2012 budget and on the performance 
of the Disabled Veterans' Outreach Program specialists and 
Local Veterans' Employment Representatives otherwise known as 
DVOPs and LVERs respectfully.
    NASWA members are the State leaders of the publicly-funded 
employment system, which is vital to meeting the employment 
needs of veterans through DVOP, LVER, and Wager-Peyser 
programs.
    I especially commend your leadership on this very critical 
issue. With the non-seasonally adjusted unemployment rate of 
close to 10 percent for all veterans as of January 2011, we 
must do everything possible to ensure there is no ambiguity in 
our existing programs and sufficient funding is available to 
meet our highest priority, serving all veterans, especially our 
recently separated veterans and disabled veterans.
    While my written testimony addressed the specific questions 
in your invitation letter, I would like to discuss five issues 
of great importance.
    Number one, the budget. In an effort to improve the quality 
of services to veterans, especially disabled veterans, and 
their employment outcomes, the Jobs for Veterans Act of 2002 
clarified the roles and performance standards of DVOPs and 
LVERs, yet the Administration's fiscal year 2012 budget 
contends the DVOP and LVER programs are not fulfilling their 
mandated role of providing intensive services to all 
participants.
    As a result, the Administration is planning to operate the 
Jobs for Veterans State Grant Program differently from prior 
years. Although NASWA recognizes the VETS' refocused goals, we 
are concerned about the ability to increase the number of 
veterans receiving intensive services from DVOP specialists 
without additional funding.
    Intensive services are just that, intensive. They require 
more time and effort. Not all veterans need intensive services.
    Number two, performance outcomes. NASWA is concerned that 
performance outcomes by States posted on the VETS' Web site may 
lead to incorrect assumptions about a State's performance. A 
State's unemployment rate can impact outcomes and State 
measures should be adjusted to reflect these differences.
    Figure one in the appendix of my testimony illustrates this 
relationship. For example, the high unemployment States such as 
Michigan, Nevada, and North Carolina generally will have poorer 
performance than States like North Dakota, South Dakota, and 
Nebraska, all of which have unemployment rates under 5 percent.
    Number three, furloughs. NASWA recommends language to 
prohibit States from imposing furloughs and hiring freezes on 
staff funded by Jobs for Veterans State Grants. Since these are 
Federal funds, any dollars saved have no positive impact on a 
State's budget. Services to our Nation's veterans should not be 
negatively impacted because of State budget problems.
    Number four, enhance awareness of veterans' programs. NASWA 
recommends enhanced efforts to raise awareness of the DVOP and 
LVER programs to veterans and employers, including human 
resource managers.
    A June 2010 survey from the Society for Human Resource 
Management shows that human resources managers are largely 
unaware of U.S. DoL programs to help veterans find jobs. In 
addition, the survey shows that recently separated veterans 
have difficulty translating their military skills to civilian 
jobs.
    NASWA recommends VETS' and Jobs for Veterans State Grant 
funds be used to implement tools to translate military skills 
and improve licensing certification and credentialing systems 
to assist the military members to transition to civilian 
employment.
    Number five, labor exchange. NASWA urges the United States 
Department of Labor to use the National Labor Exchange, an 
online network connecting employers and State workforce 
agencies. The National Labor Exchange provides Federal 
contractor jobs for States to assist eligible veterans in 
finding employment through a service called Vet Central. The 
Vet Central service allows businesses to meet the compliance 
requirements of the Office of Federal Contractor Compliance and 
puts jobs in the hands of State and local staff that work for 
veterans on a daily basis.
    I greatly appreciate all the work by this Subcommittee on 
the Federal contractor job listing process, but NASWA member 
States still are unable to identify all Federal contractors and 
subcontractors and hope we can continue working with you and 
the U.S. Department of Labor to resolve this matter.
    I thank you for the opportunity to comment and we stand 
ready to work with the Subcommittee, United States Department 
of Labor, and all interested stakeholders.
    [The prepared statement of Ms. Elsey appears on p. 57.]
    Mr. Stutzman. Thank you, Ms. Elsey.
    Again, I will begin questioning and then we will recognize 
the Ranking Member and our other Members alternating between 
the two sides.
    First of all, what is your response to this quote on the 
Jobs for Veterans State Grant Program in the VETS' fiscal year 
2012 budget submission? ``The program clearly was not 
fulfilling its mandated role.'' How would you respond to that 
line?
    Ms. Elsey. Well, I know that they are responding to the 
fact that 17 percent of the veterans served received intensive 
services. And I just can speak for my own State of Minnesota. I 
think it is really important to have a screening process in a 
one-stop.
    What we do in Minnesota is when a person comes in and they 
state they are a veteran, we immediately ask them additional 
questions. And the types of questions that we ask help us 
identify whether or not they should be referred to a DVOP. And 
the kinds of questions have to do with do you have a chemical 
abuse problem, have you ever had a criminal record, what is 
your last residence.
    We are looking for the fact of do they have a residence, 
are they homeless, and are you a recently separated vet because 
then we try to have all the recently separated people from the 
Afghanistan and Iraqi War see a DVOP for initial screening.
    But that is what we do. And our DVOPs work mainly with 
people with chemical dependency issues, people that have 
criminal backgrounds, and then a lot of their work is really 
translating their military experience into skills that are 
needed by business.
    And there are tools out there that really help. I mean, 
last fall, the Department of Labor introduced the My Skills, My 
Future which is a transferability skill mapping system. And 
first you have to help the--they still are translating 
occupations in the military labor force to occupations in the 
civilian labor force, so you have to first work with the 
veteran to make sure that they can explain to you what they did 
in the military and then the DVOP can help them identify what 
kind of skill that would be in the civilian labor force so that 
they can better utilize some of these tools that have been 
implemented.
    Mr. Stutzman. The next question would be, do you have a 
position on having all TAP briefings currently conducted by 
DVOPs and LVERs transferred to contract instructors so that 
DVOP and LVERs can better focus on finding veteran job 
opportunities?
    Ms. Elsey. Well, I could just speak to what we have done in 
Minnesota again.
    Mr. Stutzman. Yes.
    Ms. Elsey. We have a program called Beyond the Yellow 
Ribbon. That is something that was actually started in 
Minnesota and we are very proud of. And what that really is is 
we go to the bases where the returning veterans land so that we 
are there when they get there. And it is not just the DVOPs and 
LVERs that go. We bring people from our community college 
system. We bring people from the Veterans Administration.
    And we want to make sure that they know that when they get 
back to Minnesota, we are there to help them. And we want to 
put a face to the people that they can work with. And so it is 
very important for us. We go to every single one and send these 
staff there. That way, we are having a lot better response for 
the veterans to come into our offices when they get back to 
Minnesota.
    Within 30 days, we also contact all these people again to 
see how are they transitioning, what are they doing. And I know 
TAP is when they are still on the base and in the services. We 
are doing this when they are being discharged from the base. 
Usually we are going to Fort McCoy because a lot of our people 
are going to Fort McCoy. And then we see them again when they 
come back to Minnesota. So we think that it is really important 
that they know us before they even come home.
    Mr. Stutzman. In your testimony, you reference a Society of 
Human Resource Management study that showed over 68 percent of 
employers were not aware of DVOP and LVER programs. That is a 
large number.
    Ms. Elsey. That is too large of a number.
    Mr. Stutzman. How do you and how will other member 
organizations address that particular issue?
    Ms. Elsey. Well, I think like it was stated in the last 
testimony, I think it is extremely important to get to groups 
of employers----
    Mr. Stutzman. Yes.
    Ms. Elsey [continuing]. Because there will never be enough 
LVERs to be able to contact all the businesses and make them 
understand what is available to them and the value of hiring 
veterans.
    Mr. Stutzman. Yes.
    Ms. Elsey. And so the Chamber of Commerce, but there is a 
lot of business organizations and we also work with like the 
Societies for--they have manufacturing associations and, you 
know, the different sector associations are very important to 
get to those organizations so they understand, you know, the 
skills of the returning veterans.
    Mr. Stutzman. Yes. Because I know as a small business 
owner, we are often looking for employees and information like 
this.
    And I know from where I come from in northeast Indiana, the 
employers there would be--you know, they are very patriotic and 
they would be more than happy to serve those veterans and put 
them at the front of the line if they are capable, they are 
willing, and trained to do those particular jobs.
    I think that is a wonderful opportunity not only for them, 
but we need to get that information to them because I would 
guess that most, it reflects in the numbers, that most folks do 
not even know about that.
    Ms. Elsey. That is correct. And we also have 35 staff that 
are paid for by Wagner-Peyser that are business services 
specialists. And they talk to employers about the veterans and, 
you know, the skills of the veterans. And once I think 
employers understand, they are very interested in seeing 
qualified vets.
    Mr. Stutzman. Yes. Yes. All right. Thank you.
    Mr. Braley.
    Mr. Braley. Does Princess Kay of the Milky Way take part in 
these demobilization programs?
    Ms. Elsey. Not that I know of.
    Mr. Braley. It is an inside joke in Minnesota.
    Ms. Elsey. Oh.
    Mr. Braley. My serious question for you is, do you think 
that the Governors of the individual States in general see 
these grants as additional funds to supplement their staff 
instead of for their original purpose, which is to assist 
veterans?
    Ms. Elsey. Okay. I cannot speak for the Governor. I do not 
know what they know about a lot of our programs. But I am the 
head of all of the workforce programs and I definitely know 
that these positions are specialized to serve veterans. And the 
DVOPs are to serve disabled veterans and veterans with a lot of 
barriers to employment.
    Mr. Braley. But in this era of constrained State budgets 
where there is heavy temptation to shift resources to address 
other economic problems, are you at all concerned about these 
funds being used within each State for their primary purpose to 
assist disabled veterans and veterans generally?
    Ms. Elsey. I am not concerned about that.
    Mr. Braley. Okay. The budget request for fiscal year 2012, 
which we talked about in our first panel, is it your 
understanding that that provides sufficient funding for the 
VETS Program?
    Ms. Elsey. No. I believe because of the fact that we need 
to do more of the intensive services that we would need 
additional resources if our expectation is to do more with the 
veterans.
    We are finding that the majority of the veterans that we 
are still working with are Vietnam era vets. And I truly 
believe that there was nothing there for them when they came 
back. And that is one of the issues that they are having all 
these years later.
    Mr. Braley. What would you consider an appropriate funding 
level for VETS to meet the demand for services?
    Ms. Elsey. I would have to get back with you on that.
    Mr. Braley. Will you do that----
    Ms. Elsey. Yes.
    [Ms. Elsey subsequently provided the following 
information:]

          In this time of severe budget shortages, NASWA appreciates 
        that the JVSG has received fairly level-funding for a number of 
        years. However, the increased need for intensive services and 
        the ever-growing number of recently-separated veterans, 
        especially disabled veterans, supports maintaining or 
        increasing the funding level for the JVSG.

          As indicated in our written testimony, the U.S. Military 
        services discharge approximately 160,000 active duty 
        servicemembers and 90,000 Reserve and National Guard members 
        annually. We can expect a greater demand for transition and 
        employment services for veterans over the next few years.

          NASWA does not have a position regarding the adequate level 
        of funding. Further analysis is recommended to determine an 
        appropriate funding level.

    Mr. Braley [continuing]. And provide that to the Committee? 
In your written testimony, you mentioned that NASWA is 
concerned about the number of veterans who would be able to 
receive intensive services from DVOP specialists.
    Do you have an estimate of the number of veterans who need 
those services currently?
    Ms. Elsey. I would have to ask my State director. I do not 
know that.
    Mr. Braley. And would you also provide that----
    Ms. Elsey. Yes.
    Mr. Braley [continuing]. To the Subcommittee?
    Ms. Elsey. I will.
    [Ms. Elsey subsequently provided the following 
information:]

          Due to VETS refocus on the roles and responsibilities of DVOP 
        specialists, especially to increase intensive services, NASWA 
        is concerned with the ability of DVOP specialists to handle the 
        increased volume. NASWA recommends VETS conduct a study to 
        ascertain the number of veterans needing intensive services and 
        the appropriate average caseload for a DVOP. NASWA is willing 
        to work with VETS on such a study.

    Mr. Braley. You also mentioned in your written testimony 
that there are several individuals who have not received 
training by the National Veterans' Training Institute.
    Are individuals unable to complete that training because 
NVTI does not have appropriate funding to provide the training 
or is there some other obstacle to achieving that goal?
    Ms. Elsey. Well, I know that in some of those who have not 
had training, the DVOP themselves are unable to travel because 
of their own disabilities. And so that probably would need to 
be brought to them which would cost more.
    I know in Minnesota, we just brought NVTI to us so that we 
could train more people at one time within our State. So I 
think you have to be flexible and look at different models. And 
any time you are going to do more things one on one, it is 
going to cost more money.
    Mr. Braley. Okay. Well, in the VA health care system, there 
is an increased reliance upon telemedicine to provide veterans, 
especially in rural areas, access not just to general health 
services but also to psychological and psychiatric counseling.
    Are you aware of any pilot programs or efforts to try to 
bridge this gap that you have just identified through the use 
of telecommunications so that we can eliminate those barriers?
    Ms. Elsey. No, I am not, but that is a very good idea.
    Mr. Braley. One of the things we rarely talk about is the 
issue of incarcerated veterans.
    Ms. Elsey. Uh-huh.
    Mr. Braley. And, yet, we know that there are a large number 
of incarcerated veterans who served their country honorably but 
have fallen on hard times.
    What is your sense of how they are doing as a population 
and what more can be done to make them more successful, 
especially when they are released from incarceration and face 
all of the problems that the normal prison population does in 
trying to readjust to life outside the walls?
    Ms. Elsey. Yeah. We have a program in Minnesota. We have a 
contract with the Department of Corrections where we go in the 
prisons and teach job seeking skills. And so this is not just 
for veterans, but it is really important. And it is really 
important to stay connected when they get out because if they 
do not get a job, they could likely get re-incarcerated again.
    And so we do have some pretty intensive services for those 
people. And if they are veterans, the DVOPs really make those 
people priorities. We have to make sure they have food and 
shelter and that they have some way to make a living. And it is 
really important to do special outreach to businesses to give 
these people a second chance. And it is difficult for vets. It 
is difficult for all incarcerated people.
    Mr. Braley. Thank you for your time.
    Ms. Elsey. Uh-huh.
    Mr. Stutzman. Thank you.
    Mr. Walz.
    Mr. Walz. Thank you, Mr. Chairman.
    Thank you for being there today. It is not summer. It just 
looks that way.
    Ms. Elsey. It is a lot better than when I left Minnesota.
    Mr. Walz. Well, Mr. Braley is very familiar and good with 
his geography, so he knows that all our children are above 
average in Minnesota.
    And the issue, though, at hand is there is something 
different. Not all States are necessarily created equal in 
this. And I say that not in a pejorative way or whatever. I am 
very proud of this Yellow Ribbon Project. It was an initiative 
by Governor Pawlenty and it was very bipartisan. I deployed and 
redeployed under Yellow Ribbon and I think there is good 
evidence, good data to support you are in much better shape in 
terms of getting medical care, getting employment assistance 
and all of that.
    We tried to take this on a national scale. We tried to get 
it upgraded, Representative Kline and myself and others who 
witnessed it.
    In your opinion, would that collaboration--because what the 
Yellow Ribbon really does is I think it avoids duplication. It 
brings services from different agencies together.
    Ms. Elsey. Right.
    Mr. Walz. And it stretches the efficiencies that the public 
is asking for, at the same time getting outcomes. In your 
opinion, is that something that would work to try and expand 
this?
    Ms. Elsey. I do not see how this would not benefit every 
State. It is really a great program.
    Mr. Walz. And it works and it----
    Ms. Elsey. And it works.
    Mr. Walz [continuing]. Is a strong collaboration with the 
private sector. We have been trying to push this I think now 
more than ever that emphasis needs to be on there again to get 
that right.
    Again, I would go back to as a broken record some of this 
is seamless transition from DoD that we have that problem. I 
wanted to ask and I know there are some folks out here, I keep 
coming back to this cross-walking skills and heard you talk 
about it to help employers understand this.
    Guys like Rick and Ray who have been out there every time I 
come up with this good idea, they said that is a wonderful 
idea. Twenty-two years ago, that is exactly what we put in for. 
So there was one where the Veteran Certification and Licensure 
Act of 2006 was supposed to do exactly what we are talking 
about here.
    Is that happening in your opinion?
    Ms. Elsey. The only thing that has been successful so far 
in Minnesota is truck driving. Anybody who has been in the 
military and had extensive experience in driving a truck does 
not have to take any behind-the-wheel training. They just have 
to take a written test.
    Mr. Walz. Okay. And that has been helpful, I assume. I hear 
this a lot. There is a frustration with people, you know, these 
red bulls. I drove 22 months in Iraq. I can surely drive to 
Fridley, you know, if that is what it takes and that is a 
frustration with them. That one is working.
    I hear a lot of our young medics and we certainly do not 
want to, you know, step on State requirements, safety 
requirements, but I will tell you that. Some of these folks 
have massive amounts of experience and they are having a 
difficult time. And then they go back into an expensive program 
to use services to come out with a certificate that they 
already had the skills to.
    Ms. Elsey. That is correct.
    Mr. Walz. So is there a need for another, like IAVA is 
calling for, a Pew type study on cross-walking these things 
over or is there, we are just not implementing? That is what I 
am trying to understand because I hate to get into this another 
study. There are folks out here behind you that have been 
involved in decades of studies and they get tired of them.
    Ms. Elsey. Well, I think there are a lot of tools that we 
can use. I really am not the expert to be able to answer 
whether we need another study or not.
    Mr. Walz. Okay. But if these are implemented, if there is 
the ability to get that certification, it is making a 
difference, it is getting people hired----
    Ms. Elsey. Yes.
    Mr. Walz [continuing]. And it is lowering the unemployment?
    Ms. Elsey. Yes. And community colleges are very important 
in this area. You know, they have to be flexible and willing to 
look at those skills also and be able to translate those 
military skills and assess those skills so that they do not 
have to go through a 1- or 2-year program to get what they 
already have.
    Mr. Walz. That is great. Well, I appreciate your service 
and your focus on this great resource for us. And I appreciate 
that.
    I yield back, Mr. Chairman.
    Mr. Stutzman. Thank you.
    What do you think the emphasis should be on? Should it be 
on retraining or training relevant skills to unemployed vets or 
placement services and right now where are the priorities at?
    Ms. Elsey. Well, I think it is important to note that 
business is requiring more and more skills of all workers all 
the time. And this is such an individualized thing based on 
what the skills are of the person that comes in.
    But the people that do need retraining, we make sure that 
they connect with our Workforce Investment Act (WIA) staff 
within our workforce centers. And we also connect them with our 
community college system because getting a job right away is 
important, but life-long learning is critical. And they are 
going to have to get some skill and continue to learn. And I 
think that is one of the things that our DVOPs really are good 
at. We have a lot of networking groups just for veterans.
    When it comes to job seeking skills and, you know, some of 
the how to write a resume and a lot of those things, they use a 
regular Wagner-Peyser WIA adult services to learn those things. 
But we have special networking groups that the DVOPs facilitate 
just on how to translate skills, how to talk about your 
military experience, you know, and how to sell that to an 
employer because you obviously know how to follow directions 
and there are, you know, a lot of the kinds of skills that 
businesses want.
    But when it comes to training, it really depends upon, you 
know, some of them went into the service with an education and 
it really depends upon the individual. But training is 
important for everybody and, yes, it is important for veterans. 
And it is not just when they first come out of the service. It 
is life long.
    Mr. Stutzman. What role do you or are employers taking in 
communicating what their needs are as far as trained employees? 
I mean, obviously not every veteran is going to have every 
skill and knowledge of the job that they are being placed in or 
seeking. I mean, there is obviously going to be some on-the-job 
training.
    I mean, what level are they looking for? I mean, there has 
to be just some basic priorities that every employer is saying 
this is what we are looking for and then we will kind of take 
it from there.
    Ms. Elsey. Well, every employer is looking for the soft 
skills, you know, will you show up on time.
    Mr. Stutzman. Right.
    Ms. Elsey. Will you come to work every day, you know, can 
you follow direction. And these are the things that I think a 
veteran has an easy time----
    Mr. Stutzman. Right.
    Ms. Elsey [continuing]. Talking about. And so we also do 
quite a bit of on-the-job training under our Workforce 
Investment Act programs. And, of course, veterans are a 
priority of service for that. So there are a lot of businesses 
that want those basic skills and will train themselves, you 
know, train their employees on the job.
    Mr. Stutzman. So would you say that right now then most of 
the priorities are on placement services or on training 
services?
    Ms. Elsey. I would have to ask my DVOPs, but I think it is 
both.
    Mr. Stutzman. Yes.
    Ms. Elsey. And it really depends also upon the individual 
if they have to have money and they have to have a job right 
away.
    So, I mean, one of the things that we have been pushing 
very hard in our State is more flexibility in the community 
college system. They are set up to educate people coming out of 
K through 12 and they are not set up for evenings, weekends, 
you know, for people who have to work and go to school at the 
same time.
    Mr. Stutzman. Yes.
    Ms. Elsey. And so we are pushing very hard that they do 
more and more of that kind of work because that will help 
everybody who has to work and learn at the same time.
    Mr. Stutzman. Okay. Thank you.
    Any followup?
    Mr. Braley. Just briefly, Mr. Chairman.
    One of the big problems that all businesses face, all 
agencies face is paperwork compliance.
    Ms. Elsey. Uh-huh.
    Mr. Braley. And my question for you is, does VETS have too 
many reports to do right now and are any unnecessary in your 
opinion?
    Ms. Elsey. I cannot speak to that because I do not do the 
veterans' reports, so I really do not have any idea what they 
have to do.
    Mr. Braley. All right. Thank you.
    Ms. Elsey. Uh-huh.
    Mr. Stutzman. Okay. Thank you very much and I appreciate 
you being here. And, again, your testimony has been very, very 
helpful and I hope you have a good trip home.
    Ms. Elsey. Thank you.
    Mr. Stutzman. All right. Thank you.
    Okay. Now I ask the members of our third panel to come to 
the table. Today we have AMVETS Acting Legislative Director, 
Mr. John Wilson? I am sorry. Oh, I am sorry. That was actually 
Christina Roof who was not able to be here today.
    So John Wilson, Assistant Legislative Director for the 
Disabled American Veteran (DAV). My apologies there. Mr. Ray 
Kelley, Director of the Veterans of Foreign Wars' (VFW's) 
National Legislative Service; Mr. Bob Madden, Assistant 
Director of the American Legion's National Economic Commission; 
and Mr. Rick Weidman, Executive Director for Policy and 
Government Affairs of the Vietnam Veterans of America (VVA).
    And I want to welcome each of you. Thank you for your 
service and what you do with each of your respective 
organizations. One of the great joys for me is to visit your 
organizations back home and what they do and the services that 
are provided and just the patriotism, the camaraderie that is 
there and the joys of sitting together and talking shop.
    So please feel free to make your statements according to 
how you would like to and then we will move forward with the 
questioning.

 STATEMENTS OF JOHN L. WILSON, ASSISTANT NATIONAL LEGISLATIVE 
   DIRECTOR, DISABLED AMERICAN VETERANS; RAYMOND C. KELLEY, 
  DIRECTOR, NATIONAL LEGISLATIVE SERVICE, VETERANS OF FOREIGN 
    WARS OF THE UNITED STATES; ROBERT W. MADDEN, ASSISTANT 
 DIRECTOR, NATIONAL ECONOMIC COMMISSION, AMERICAN LEGION; AND 
       RICHARD F. WEIDMAN, EXECUTIVE DIRECTOR FOR POLICY 
          AND GOVERNMENT AFFAIRS, VIETNAM VETERANS OF
                            AMERICA

                  STATEMENT OF JOHN L. WILSON

    Mr. Wilson. Mr. Chairman and Members of the Subcommittee, I 
am glad to be here this morning on behalf of the DAV to present 
our views on the President's fiscal year 2012 budget as it 
relates to the U.S. Department of Labor's Veterans' Employment 
and Training Service or VETS.
    In my oral remarks, I will address the Jobs for Veterans 
State Grants, then the National Veterans' Training Institute 
funding, and finally changes in various performance measures.
    First, Jobs for Veterans State Grants. VETS provides 
critical employment services for our Nation's veterans. Today's 
continued high unemployment rates underscore the need for a 
properly funded program and an effective and well-trained 
staff.
    Jobs are slowly returning, but population growth brings 
100,000 plus new job seekers into the workforce each month. We 
will only see unemployment rates for veterans and others 
decrease when jobs are created at a much higher rate.
    Veterans, especially those of the current conflicts, are 
well aware of the impact of the January 2011 unemployment rate 
of 15.2 percent.
    The funding of VETS ensures employment and training 
services are available for eligible veterans through the Jobs 
for Veterans State Grants Program which is allocated to State 
workforce agencies in direct proportion to the number of 
veterans seeking employment, with DVOPs and LVERs providing 
employment services to transitioning servicemembers, veterans 
and their spouses, as well as potential employers.
    In reviewing the fiscal year 2012 VETS State Grants' budget 
request of $165.4 million, we look to DoL to advise on the 
sufficiency of this budget to ensure enough staff are available 
to provide assistance to a growing population of unemployed 
veterans.
    Secondly, the National Veterans' Training Institute. NVTI 
provides specialized training and veterans' employment to new 
veterans' representatives from each State to further develop 
and enhance professional skills of State employment 
representatives which include DVOPs and LVERs.
    VETS also sends their staff to NVTI for training in the 
details of the Uniformed Services Employment and Reemployment 
Rights Act and the Transition Assistance Program. Because of 
inadequate funding, NVTI has had a staff shortage of at least 
two to three full-time staff members in Denver over the past 2 
years.
    Public Law 111-275, the Veterans' Benefits Improvement Act 
of 2010, now requires all DVOPs and LVERs to be trained within 
18 months of being hired as Assistant Secretary Jefferson 
indicated instead, of the prior 36 month standard.
    NVTI will not be able to meet this shortened training 
requirement without additional staff. We urge DoL to ensure 
funding of NVTI will be sufficient to meet this new 
Congressional mandate.
    Third, changes to performance measures. While we are 
interested in improvement of services through a refocused 
effort, we are concerned with the proposed reduction of 
performance standards for fiscal year 2012.
    What data was used to support a reduction in the 
performance measures? What are the objective findings to 
support reducing DVOP and LVER targets for performance measures 
one and four in 2012 to 45.2 percent and 42.1 percent 
respectively? What is the refocusing strategy to provide more 
intensive services to veterans above the current and rather low 
17 percent mark?
    Given our Nation's investment in training these veterans 
when they were on active duty and seeking to employ them now 
through the VETS State Grant Program, it would seem more 
reasonable to focus on increasing performance measures 
standards, not decreasing them.
    That concludes my statement, Mr. Chairman. I would be 
pleased to respond to any questions the Subcommittee may have.
    [The prepared statement of Mr. Wilson appears on p. 68.]
    Mr. Stutzman. Okay. All right. Thank you.
    Mr. Kelley.

                 STATEMENT OF RAYMOND C. KELLEY

    Mr. Kelley. Thank you, Mr. Chairman.
    On behalf of the 2.1 million members of the Veterans of 
Foreign Wars and its auxiliary, thank you for allowing me to 
testify today.
    Veterans' employment is one of our top priorities at VFW 
and having an opportunity to talk today about the front-line 
help that veterans should be receiving within their community 
through the DVOPs and LVERs is a great opportunity and a great 
place to start the discussion because if we cannot reach them 
when they are at home, we are not going to reach them.
    I would like to speak directly to the State Grants Program 
and then the Workforce Investment programs as well. We looked 
and found what we believe to be five deficiencies in the 
effectiveness of the DVOP and LVER Program.
    First is the funding mechanism that is used to determine 
how much money each one of the States gets. It looks like a 
reverse incentive to us that the States receive money based on 
a ratio of how many veterans are employed in the State. So if 
you do really, really good work in a State, it is a 
disincentive. You are going to receive less funding, therefore, 
be able to hire fewer DVOPs and LVERs.
    Second, the services that are provided by the DVOPs and 
LVERs is duplicative in nature. Over the years, other State 
programs and Federal-funded programs are providing similar or 
the same services in a lot of cases and we can look at the 
Wagner-Peyser Program that is funded. It is a very large 
program. It provides nearly the same services as the LVERs and 
has the same placement rate for veterans as the DVOPs and LVERs 
do. So there is obviously a duplication. They also provide 
priority for veteran service. So veterans get front-of-the-line 
service through this program.
    Also, ill-defined job descriptions of the DVOPs and LVERs 
is another issue. We have DVOPs doing LVER work and then LVERs 
doing work that is not necessarily in their scope. This can be 
seen in DVOPs 17 percent of the time providing what their core 
requirement is which is that intensive service.
    Also, performance measures are lacking. We do not know how 
to rate how well States are doing. There are no performance 
measures on what types of services they are providing to each 
one of these individuals. We do not know if they are just 
coming in to use the computer to apply for a job online or if 
they are really getting much more service than that.
    Also, outreach into the communities is very low. A 2007 
study done by VA found that only 21 percent of veterans who are 
seeking jobs go to a State workforce agency to help for 
assistance.
    I want to take about a minute to talk about the Workforce 
Investment programs. We contacted 17 of the grant recipients 
for this and the results were varied. And, again, I think it is 
based on having a lack of performance measures that we require 
back from them.
    There are organizations that are receiving relatively small 
amounts of money and helping a lot of veterans. And there is 
one particular over a 2-year period that has received $1.4 
million and in 2010, they helped 70 veterans. We need to 
understand where this money is going, what it is being used 
for.
    And I will turn it back. I will be happy to answer any 
questions regarding any of the rest of my written statement as 
well.
    [The prepared statement of Mr. Kelley appears on p. 72.]
    Mr. Stutzman. Okay. Thank you.
    How much money did you mention right there at the end?
    Mr. Kelley. It was $1.4 million. It was over a 2-year 
period and it encompasses not only the homeless grant but also 
the--I forget the name of the other grant off the top of my 
head, but the other grant program that is providing 
organizations money to help reintegrate veterans.
    Mr. Stutzman. Okay. How many placements again?
    Mr. Kelley. Seventy.
    Mr. Stutzman. Seventy?
    Mr. Kelley. Yes.
    Mr. Stutzman. Thank you.
    All right. Mr. Madden.

                 STATEMENT OF ROBERT W. MADDEN

    Mr. Madden. Thank you, Mr. Chairman, Ranking Member, and 
Members of the Subcommittee. I would like to thank you for 
allowing the American Legion to speak on the DoL VETS' Jobs for 
Veterans State Grant Program.
    Veterans of Iraq and Afghanistan wars face an unemployment 
rate of 15.2 percent, two-thirds higher than the national 
average, confirmed reports. These men and women are 
experiencing the worst recession in decades and are fighting 
against a competitive environment in the corporate workforce.
    They have sacrificed 4, 6, 10, and sometimes 20 years of 
military service for their country and should receive high-
quality services from individuals who are dedicated to disabled 
and other eligible veterans' prosperity.
    The essential role of DoL VETS' Program is to provide the 
veterans with the training and demonstrate to the employer the 
skills of the veteran and assist the veterans in exhibiting his 
or her unique background to the prospective employer.
    It is important to understand the role of DVOP and LVERs in 
the States that provide intense training and career guidance to 
disabled and other eligible veterans. The role that DoL VETS 
administers is one that cannot be taken lightly and should 
reflect constant success and job placement of veterans across 
the country.
    In our submitted testimony, we have highlighted two 
specific areas, the Jobs for Veterans State Grant Program and 
our recommendations. We understand that the Jobs for Veterans 
State Grant Program is currently funded by a Continuing 
Resolution and the President has recommended funding at $166 
million for fiscal year 2012.
    The American Legion supports the existing budget proposal, 
but questions if the existing implementation of the program 
adequately supports the ultimate goal of employing veterans as 
the unemployment situation for veterans grows more dire.
    The Jobs for Veterans State Grant Program is designed to 
provide advanced or intensive services to veterans seeking 
employment. These services are supposed to go beyond what 
nonveterans would receive when seeking employment through State 
employment centers, yet analysis of 2009 performance data 
indicated only 22 percent of veterans received these critical 
services.
    With the rising unemployment number for veterans, this 
calls into question the effectiveness of the State Grant 
Program. Are the American people really getting the return on 
investment?
    Taking a look in Nevada, we noticed the State Grant Program 
funding increased in the years 2008 to 2011, but Nevada is 
still suffering and led the country in terms of numbers of 
unemployed. Nevada established a 65 percent goal for veterans 
securing employment, but fell short with only 47 percent of 
veterans securing employment.
    In addition, the same 65 percent goal for nonveterans was 
met with 49 percent of nonveterans securing employment. Not 
only did veterans fare worse, but were additional resources 
available for them through the State Grant Program?
    So with a uniquely focused program aimed at helping 
veterans, veterans' employment was no greater than the usual 
employment program for nonveterans.
    The American Legion supports the Jobs for Veterans State 
Program, but suggests the following the recommendations:
    One, fully fund the Jobs for Veterans State Grant Program.
    Two, transfer all DVOP and LVERs from the State agencies to 
DoL VETS for greater supervision and oversight.
    Three, adjust staffing levels to meet the needs of the 
State veterans' community and not merely the fiscal needs of 
the State.
    Four, initiate a U.S. Government Accountability Office 
(GAO) investigation on the Jobs for Veterans State Grant 
Program to ensure the program is properly serving eligible 
veterans.
    Five, hire veterans for DVOP and LVERs' positions and 
require them to only serve disabled and other veterans.
    Six, ensure DVOP and LVERs are being trained in time.
    These six recommendations are based on the American Legion 
resolutions, which are passed during our National Executive 
Committee meetings and our National Convention.
    The American Legion would like to thank the Chairman, 
Ranking Member for allowing the American Legion to speak on the 
DoL VETS State Grant Program.
    This concludes my testimony and I would be happy to answer 
any of your questions.
    [The prepared statement of Mr. Madden appears on p. 75.]
    Mr. Stutzman. Okay. Thank you, Mr. Madden.
    Mr. Weidman.

                STATEMENT OF RICHARD F. WEIDMAN

    Mr. Weidman. Thank you, Mr. Chairman, for the opportunity 
to appear here today. This is a subject that is near and dear 
to my heart.
    And I ran in the 1990s, late 1980s and the early 1990s what 
was then the second largest DVOP, LVER Program in the country 
in the State of New York at the Department of Labor.
    And we labored mightily to give veterans priority of 
service in all of the services that we delivered. And for a 
time, we succeeded, but the problem is with the program 
nationwide is that there are no incentives for good 
performance. It is not necessarily disincentives, but it does 
not matter whether they do a good job or not.
    Some States like South Carolina as an example do a fabulous 
job. Other States, primarily big States, do a terrible job and 
they get the same amount of money whether they do a terrible 
job or a great job.
    Many of the State workforce development agencies, frankly, 
are using the VETS Program as a cash cow and that is why you 
have the admin overhead of over 30 percent. As the number of 
Wagner-Peyser staff goes down and the VETS' staff stay 
relatively stable, then a greater percentage of the light bill, 
the everything else gets charged off against the VETS' staff.
    And, frankly, there is no necessity of having DVOPs and 
LVERs be in the job service office anymore. The job listings 
are not kept on index cards anymore. They are on the computer. 
Most of the jobs that exist within a State are not even listed 
on the State Public Labor Exchange if, in fact, they have one. 
They are listed on job boards.
    So there are number of things that Vietnam Veterans of 
America would suggest need to be done here to get the bang for 
the buck that this Committee and the whole Congress is looking 
for.
    One, we are determined and our founding principle is never 
again shall one generation of American veterans abandon 
another. And make no mistake about it, when we came home, we 
were abandoned. We were on our own if, in fact, we did not meet 
with outright hostility including in the economic marketplace. 
So we need to do much better by this generation of young 
people.
    Secondly is the Public Labor Exchange of making the grants 
to the States is based on a model that no longer exists. And 
that is why I say there is no reason for those people to be in 
a job service office. Frankly, you can have them report to the 
DVET, to the Director of Veterans' Employment and Training, for 
the State of Iowa, for the State of Indiana, for the State of 
Minnesota, et cetera, and you measure them on their outcomes, 
which means placements.
    Currently, there is a totally dishonest system that takes--
if four or five of you all file for unemployment, you 
automatically are registered for the employment services and 
if, in fact, the employment development agency does not do a 
darn thing for the four of you, but you get a job on your own 
and you show up in the unemployment insurance (UI) tax report 
for the next quarter, they run their database for those signed 
up for the job service against the database of the Social 
Security numbers of those who are paying into, as a percentage 
of their pay, into the unemployment insurance trust fund. And 
they take a positive placement. They call that obtained 
employment. I call that dishonest. So we need a system to 
measure outcomes that is real.
    The last thing I want to say is that in the past, everybody 
has tried to kid themselves about this program, that it can do 
everything for all people. In fact, it cannot. The reason why 
they are not doing the intensive case management is the DVOP 
and LVERs see every vet who walks through the door. That is 
why. That is why they do not have time for what they should be 
concentrating on is the young vets returning within 4 years of 
discharge or demobilization, on disabled vets, particularly 
those who are 30 percent or more, and even more particularly on 
those who are profoundly disabled and those vets most at risk 
of being on the street.
    And if they only do those three things for 1,800 to 2,000 
staff members, that is a hell of a job. That is really a hell 
of a job because you are talking about what, a million and a 
half people now, Mr. Walz, who have rotated through Afghanistan 
and Iraq? You are talking about homeless up to a quarter 
million in a given year. You are talking about out of three 
million disabled vets service-connected of whom maybe a million 
are trying to look for work.
    So it is a situation today where you have to make the tough 
choices. You hear that a lot around the halls of this August 
body, but the tough choice here is to concentrate, we would 
suggest, on those three groupings, one, and then, two, make 
Wagner-Peyser do their doggone job. They are supposed to give 
priority to veterans' service, priority services to veterans 
whether or not there is a DVOP or LVER in the office or not. 
And they do not do it.
    So it is time to get the bang for the buck by holding the 
State workforce development agencies accountable and to give 
Ray Jefferson control of his troops so he can accomplish the 
mission that is outlined in Title 38.
    Thank you very much.
    [The prepared statement of Mr. Weidman appears on p. 78.]
    Mr. Stutzman. Thank you, Mr. Weidman.
    First of all, Secretary Jefferson, a quick question, one 
thing that came up here by Mr. Kelley and also was mentioned by 
Ms. Elsey as well, the Workforce Investment Act.
    Could you give us further data on veterans' participation 
in those particular programs? Is that possible to do that?
    Mr. Jefferson. Yes, sir.
    Mr. Stutzman. Okay. Thank you.
    And I do not care which gentleman wants to answer the 
question. What is a better use of the $165 million requested 
for the State Grant Program? Would it be better used to fund 
the roughly 2,000 DVOPs and LVERs to place veterans in jobs or 
to fund direct training services for unemployed veterans to 
give them the skills for better paying jobs?
    Mr. Weidman. I will start off. The groups that I outlined, 
those most in need, need intensive person-to-person services. 
And you do not have to be--I mean, one of the places where 
there should be a DVOP is in every single VET center team in 
the country including the rural vans that are going out in the 
rural areas. And that would solve a lot of the contact and 
stuff done in the local areas for employment services.
    But if they are not Federal employees, then I would suggest 
that we are not ever going to get the bang for the buck the way 
the thing is set up now.
    Mr. Stutzman. But, Mr. Weidman, you had mentioned something 
about giving the States more authority or more responsibility. 
Could you follow-up on that a little bit further on what you 
said in your testimony.
    Mr. Weidman. If you look at everything that a DVOP is 
supposed to do under Title 38, what you would say is that on 
the seventh day, he rested. It is impossible. Nobody can do all 
that stuff.
    But I want to tell you that what Mr. Kelley was talking 
about, it is not because DVOPs do not try and do that because 
the majority of them do and do it on their own time no matter 
how much they are punished because they cannot get out of the 
office during the week because they are being sat on. And it is 
the office manager precluding people from doing their jobs.
    It is the half-time DVOPs and half-time LVERs and this is 
confirmed by my colleagues around the country over a long 
period of time. Half-timers, you are lucky if you get 1 day a 
week. That is not half time, but that is about what you get.
    Mr. Stutzman. Because they are focused on other folks other 
than just veterans; is that correct?
    Mr. Weidman. It does not mean the office manager is 
necessarily anti vet.
    Mr. Stutzman. Right, right.
    Mr. Weidman. You have enough staff to see about half the 
number of people walking through the door. So what happens in 
the end is they process people instead of placing people in 
jobs.
    And if you ask the workforce development agencies what is 
their business that they are in, they will not tell you getting 
jobs for people. What they will tell you is we are information 
sharing. Well, you cannot ever hold anybody accountable for 
that one.
    Mr. Stutzman. Is there a problem with DVOPs and LVERs being 
required to serve non-veterans by their employment service 
supervisors?
    Mr. Weidman. I believe, yes.
    Mr. Stutzman. Could you further, I mean, explain a little 
bit further why you believe.
    Mr. Weidman. The whole idea behind the half-time DVOPs, 
which incidentally, VVA opposed, in fact even half-time LVERs. 
When I went to New York and took over that program, the first 
thing I did was grandfather the half-time LVERs in and from 
that point on only hired full-time LVERs because I knew that we 
were not getting the bang for the buck from those people.
    Mr. Stutzman. Yes.
    Mr. Weidman. And if there was not enough in some of the 
very small offices to have a full-time LVER, then had people 
alternate 3 days one place, 2 days another, the same person 
instead of splitting it between personnel.
    And the DVETS only have the travel money to investigate and 
do a site visit at each office in their State once every 2 
years, once every 2 years. They cannot even do an effective 
desk audit, meaning looking at the computers, with the way the 
system has deteriorated in most States. So what that means is 
that the cat only comes around once every 24 months and a lot 
of play can go on by the mice in the other 23.
    Mr. Stutzman. Is there any flexibility pertaining to rural 
areas versus urban or suburban areas in part time versus full 
time for vets or for the States currently or not?
    Mr. Weidman. I think there is flexibility that people are 
taking, but in some cases, they are taking it as license. Some 
States do a pretty good job and I used South Carolina, I think 
South Dakota does a pretty good job, and a number of others 
around the country. But in the large States, it often 
deteriorates into what I said before, people processing and 
merely talking to somebody does not mean that you have done 
something to help them land a job.
    Mr. Stutzman. Uh-huh.
    Mr. Kelley. I would like to go back to the original 
question of, is this the best place to spend money or should we 
put it somewhere else.
    Until we study and understand what I have identified as the 
five major issues, I do not think VFW will make a statement one 
way or the other. We need to understand what is broken and if 
it can be fixed. If it can be fixed, we should fix it because 
building a new monster is not always the best way to solve a 
problem. If we have a problem with the existing, we should work 
to fix it first before we try to say, ah, it is broken, let's 
build something new and not really understand what we should be 
achieving.
    Mr. Stutzman. Mr. Madden or Mr. Wilson?
    Mr. Madden. Sure. I think the American Legion has a 
resolution which defines to make sure that DVOPs and LVERs are 
performing the duties that they are assigned and is 
specifically against additional public assistance.
    Mr. Kelley eloquently said that we cannot really comment on 
whether the new machine would be a better machine or fixing the 
new one is going to be the correct fix. We just need to make 
sure that the people that are designed to do specific jobs are 
accomplishing the goals and that there are specific performance 
measurements that are there to make sure to keep a correct 
amount of oversight.
    Mr. Wilson. And Disabled American Veterans has a similar 
resolution wherein we believe DVOPs and LVERs should be 
utilized for the skills in which they were so well-trained at 
NVTI. A lot of time and money was invested in these 
individuals. They are experts at what they do and they wish to 
do and work, as Mr. Weidman was talking about, sometimes off-
duty hours, providing assistance to veterans. So we are very 
supportive of them being focused only on the job that they were 
trained to do.
    We are hopeful that Secretary Jefferson's efforts are going 
to provide new life, stronger reporting, and greater focus on 
this problem so they can, in fact, do a better job. So we are 
looking forward to his continued success.
    Mr. Stutzman. Okay. A couple things, I guess. What I have 
taken away from your testimony is that, one, funding is flawed 
in the way that the States receive their dollars and, two, no 
performance measures.
    I mean, are those two of the major issues? Have they even 
addressed part of the problems that we are seeing?
    Mr. Weidman. The third is no accountability mechanism. What 
people take seriously is cash American. And in 2000, there was 
a bill that was pending before this Subcommittee that would 
have developed standards based on actual placements, not on 
obtained employments using the UI tax records. And there would 
have been a sliding scale and a reduction in the block grants 
10 percent a year for 4 years with that ending up with 40 
percent of the money allocated being used as incentive grants.
    So if you are doing a great job in Indiana, then you get a 
bonus. If you are doing a great job in Iowa, you get a bonus. 
If folks in an unnamed State are doing a terrible job, then 
they do not get a bonus. And it was defeated because people 
said there would be
layoffs.
    In fact, the attrition rate of DVOPs is 17 percent per year 
roughly. It varies a little bit each year. Why? Because they 
are all service-connected disabled vets. And for LVERs, the 
attrition rate is between 12 and 14 percent a year. So we could 
have done that and nobody hit the street by reallocating. But 
we all do what we have to do. And as a Member of Congress, you 
do the things you absolutely have to do.
    WIA is a good example. WIA, there is terrible veteran 
participation because nobody is monitoring it. Nobody is 
looking at the percentage of it.
    And the gentleman from California talked about TAP. The 
Marines, 100 percent of the Marines go through TAP. Why? 
Commandant said you will and he put it in the officer 
efficiency ratings for the commanders of Marine facilities. If 
the Army, if Secretary McHugh and the Army Chief of Staff did 
it, then the same thing would be true for the Army. So I would 
suggest that on all sides, if it is not going to affect 
directly people's rice bowl, they will do what they have to do 
to keep things going first. And the problems with VETS is we 
are always dead last in those priorities at the State agency 
level.
    Mr. Stutzman. Thank you.
    Mr. Braley.
    Mr. Braley. Thank you, Mr. Chairman.
    And I want to begin by thanking all of our panelists for 
the sacrifices each one of you has made on behalf of our 
country.
    But I want to follow-up on this problem of disparity of 
outcomes between the States because it will not surprise you to 
know this is not unique to veterans' issues.
    I served on the Health Subcommittee as we struggled with a 
very, very complex health care reform bill. And one of the 
biggest problems we have in Medicare is an inefficient system 
where we can identify high pockets of per patient Medicare 
spending with no direct correlation to any additional medical 
need.
    And we penalize States like mine and Mr. Walz's who finish 
in the top 10 percent in quality patient outcomes and they are 
in the bottom 10 percent in Medicare reimbursement per patient.
    And so what I want to hear from all of you is what ideas do 
you have beyond simply putting in incentives for the high-
performing States. Mr. Weidman, you said that you do not pay 
them a bonus, but I think that we maybe need to consider 
penalizing them if they fail to meet certain objectives because 
the whole point of these programs is to accomplish the very 
important purpose of employing veterans and making them 
successful in their ultimate mission.
    So I would be interested in hearing from all of you if you 
have ideas on how this system of accountability can be 
improved, what type of metrics would be necessary to hold 
States accountable and what sort of remedies you suggest to get 
the type of results we all want to see.
    Mr. Kelley. I think that is a two-part question. Currently 
the Grants Program reserves 10 percent of the funds for 
incentives. However, 18 of the States do not accept those even 
if they are high performers, either because of legislative or 
statutory reasons or because unions say our employees will not 
receive that.
    So that is an issue that needs to be addressed is that 
incentives are there, but they are not allowed to be 
implemented in 18 of the States. So a third of the States are 
not receiving that.
    Mr. Braley. And, Mr. Kelley, could you provide the 
Committee with further information on those justifications you 
just identified to help us get a better understanding of the 
real world problem?
    Mr. Kelley. Yes, I will.
    [Mr. Kelley subsequently provided the following 
information:]

          Current labor laws in those 18 States prevent State employees 
        from receiving bonuses for job performance. These are laws 
        enacted and enforced by each of the States or through the labor 
        unions in which the State employees belong.

    Mr. Braley. Thank you.
    Mr. Kelley. The other issue is performance measures. We 
cannot say that you are doing great and you are doing poorly 
without really solid performance measures. Our performance 
measure right now is how many placements did you have. And as 
Mr. Weidman has said that there are ways to make it look like 
you have very high performance measures. So maybe the poor 
performers are being honest in their reporting and the ones who 
are reporting high success rates are taking the more dishonest 
route. So we do not understand. So we cannot say build an 
incentive this way because we do not understand the procedure 
that is taking place now.
    Mr. Weidman. What I was going to say is that really we are 
out of time. Your predecessors on this Committee have been 
having hearings about this going back until the beginning of 
these two Wars that we are still engaged in.
    We are 9 years, 9\1/2\ years since the first young ranger 
was killed in Afghanistan. And I know his mom. She now is 
devoting her life and the American Gold Star Mothers are 
getting back to their original intent, which is advocacy for 
the living, that their son did not make it, but they are going 
to take care of their sons' buddies indirectly by doing 
advocacy for effective veterans' services whether in health 
care or anything else.
    For the payoff, if you will, of everything that the Vet 
Centers do, of everything that the hospitals do, that other 
treatment programs do, it should all be--the litmus test is the 
ability to obtain and sustain meaningful employment at a decent 
wage. That should be the litmus test for every doggone 
veterans' program.
    No matter what your disability is, is the highest 
functioning level possible and that is what the covenant 
between the people who put their lives on the line is with the 
people of the United States. It is deeper than a contract. It 
is a covenant in a biblical sense. And to do everything humanly 
possible to make them as whole again as possible and if that 
does not entail helping folks get and keep a job through 
supportive services, then we are blowing the ball game. At this 
point----
    Mr. Braley. Let me just interrupt you. I am about to run 
out of time and I wanted to followup on another concern you 
identified and that is this whole problem we run into all the 
time of interoperability, the inability of various agencies at 
the Federal, State, and local level to communicate with each 
other.
    And I believe, Mr. Weidman, you talked about this in terms 
of the job board postings and the inability to get information 
from one agency to a State agency and make sure that is 
distributed to the people who are going to be making the hiring 
decisions.
    I would be interested in the panel's comments on what we 
can do, what ideas we can do to address those problems and 
eliminate them.
    Mr. Weidman. Well, I am not sure how you are going to 
eliminate it about the job service. In terms of the 
computerized job listings, the last Administration eliminated 
that national job board that was publicly funded. So now you 
have the private job boards, some of which like vetjobs.com are 
very effective, but it is not comprehensive any longer.
    And my reason for going into that, and I apologize for 
going over long, Congressman, but it is that we have been at 
this for a long time and are finally fed up. We cannot wait any 
longer to do right by the young people coming home today. And 
that is why we say Federalize them.
    We have been trying to make that inexact State, Federal 
relationship work intensively through this Committee since 
1998. And it is not just VVA. It is all the veterans' 
organizations and it is still not any better. So it is either 
come up with real accountability or move to Federalize them 
because asking them to do the right thing just has not worked.
    Mr. Braley. I yield back. Thank you.
    Mr. Bilirakis [presiding]. Thank you, sir.
    Mr. Johnson from Ohio, you are recognized for 5 minutes.
    Mr. Johnson. Thank you very much.
    And, gentlemen, thank you for being here with us today.
    I heard some of the testimony just a few minutes ago about 
overhead and I am a little concerned about that.
    Do you believe that allowing some States to spend up to 
nearly 50 percent of their State grant money on overhead is a 
good use of resources, especially in this economy, and on 
behalf of our veterans?
    Mr. Kelley. On behalf of VFW, no, it is not a good use of 
resources.
    Mr. Madden. The American Legion completely agrees it is not 
a good use of resources.
    Mr. Weidman. It is not a good use of resources, but it is 
not that they are perpetuating fraud on the Feds. They are 
following the guidelines of A17 from the Office of Management 
and Budget (OMB) in terms of allocation of overhead of the 
office.
    Mr. Johnson. Uh-huh.
    Mr. Weidman. And that is how it ended up that way.
    Mr. Johnson. It seems to me this money ought to be going 
more directly toward supporting the veterans and not in 
overhead. You know, that is my personal opinion.
    What about the VETS-100 reporting system? Do you think it 
is meeting its intended purpose and, if not, how can we improve 
that?
    Mr. Weidman. This Committee has had two hard-hitting 
oversight hearings and nothing has changed at Office of Federal 
Contract Compliance. There are still pilots who lost their job 
within the last 4 or 5 years ago who are still waiting for 
adjudication of their claims under SCJL.
    The system flat does not work. There are two things that 
they are doing now that are wrong. One is they are not really 
processing claims and complaints. If you have to wait 5 years, 
it is useless, number one.
    And number two is they are doing 5,000 site visits on 
employers a year and if they fine them for something Mickey 
Mouse, there are a lot of employers who feel that they are 
being unfair in that and that their sole purpose there is to 
fine employers instead of going after the people who have 
really violated the law intended by Mr. Solomon when he 
sponsored that legislation that led to the filing of the VETS-
100 report.
    Mr. Johnson. Okay. Thank you very much.
    Mr. Chairman, I yield back.
    Mr. Bilirakis. Thank you.
    Now I recognize Mr. Walz, my good friend from Minnesota.
    Mr. Walz. Thank you, Mr. Bilirakis.
    You look good in that chair too. Your father would be 
proud.
    Mr. Bilirakis. Thank you. Thank you, sir.
    Mr. Walz. Well, thank you all again for being here. I apprec
iate it.
    And my colleagues are asking some very pointed and good 
questions. I very much appreciate this.
    I think it is the cultural studies teacher in me. I am 
going to back, back up to that 40,000 foot level.
    Why are so many young vets unemployed? What do you guys 
think? You talk to them.
    Mr. Wilson. From the Disabled American Veterans' 
perspective, we are very concerned about their transition from 
the military. Secretary Jefferson is working towards a revised 
Transition Assistance Program. We are very supportive of 
revisions to TAP. That is key.
    When I was a squadron commander in Iceland, we had a 
Transition Assistance Program there. I wanted to make sure it 
was viable, worked well. I sat in and watched the process work. 
And it was effective.
    When I was retiring, however, from active duty, I decided 
to go again, and I was amazed at the amount of information that 
the VA representative provided me in 1 hour. It was like trying 
to drink from a fire hose. We have heard that analogy before. 
You leave thirsty. I did. I thought the delivery of services 
was poor. Does it need to be revamped? Absolutely. Absolutely. 
And so I am pleased to see that happening now and we are very 
much involved in that process.
    The other issue continues to be the idea of transferability 
of skills. I do job searches periodically looking at how other 
States are looking to hire veterans. When you key in the words, 
military transition, for a job search, you get security officer 
jobs.
    I was in the military. We were all in the military. None of 
us, I do not believe, were security personnel. I was a 
personnel officer and an audiovisual specialist when I was 
enlisted, nothing about security.
    But civilian employers, being unfamiliar, often think if 
you are military, you must be able to carry a weapon and you 
must be able to be a security person. Certainly veterans are 
able to do much more.
    The only people who can leave the military now and readily 
get a job in the civilian sector are nurses and nurse 
practitioners, physicians, air traffic controllers, and those 
who happen to work in the information technology area, you 
know. Everybody else, you have to go and get licensure or 
certification, be re-blued, if you will, through other studies 
on your own. Vocational Rehabilitation and Employment helps 
veterans working towards that. Much more needs to be done.
    I would encourage the Committee's followup on ways to 
incentivize licensure and certification programs so various 
credentialing agencies will work with veterans as they 
transition out and provide them expedited assistance allowing 
them to move not from a journeyman level in the military to an 
apprentice level in a union, but from journeyman to journeyman. 
And with dialogue, through this august body's leadership, I am 
sure that is entirely possible and we look forward to that 
dialogue.
    Thank you.
    Mr. Kelley. I believe there is a bit of a cultural change. 
When you go into the military, you are civilian. They spend 
anywhere from 6 to 13 weeks training you to be something new. 
And when you leave boot camp, you are a different person than 
when you went in. You have a different world's perspective. You 
dress differently. You look different. You speak differently. 
When you transfer back to civilian life after several years, 
you still speak differently. You still look different. You 
still talk differently.
    So when you apply for a job and you are talking in military 
terms, civilians do not understand it. When you sit at an 
interview table and you are at the position of attention, they 
think this person is a little too rigid. And we need to figure 
out a way to reintegrate veterans back into being civilians. 
And it is getting them to get back to that civilian feeling of 
culture, I think, that will help bridge some of that gap.
    And I think it can be done through the TAP Program, but it 
needs to be more intensive. It is more along the lines of the 
two and a half day program that they started in 2010 that is 
sitting them down and showing them where good employers are at 
and what skills you need to have, find those gaps that you have 
in your education and training and show you where you need to 
go to get those filled.
    But also work on resume building that does not have 
military acronyms in it, that explains in civilian terms what 
your military qualifications were, and provide them an 
opportunity to sit down in a mock interview so they can learn 
what civilian employers look for during an interview and not 
what the promotion board expected from them, the way they acted 
when they were in the military.
    Mr. Madden. We believe that it is important for veterans to 
be hired. I think the 18 and 24, this Operation Iraqi Freedom/
Operation Enduring Freedom (OIF/OEF) two groups that are not 
being hired or having a problem being employed, there are two 
different types. There are ones that might have an education 
that are enlisted and then there are those that do not have an 
education.
    For those that do not have an education, they might decide 
once they exit the military that I am going to go ahead and get 
my 4-year degree or I am going to go ahead and get my 
vocational degree or there are those that already have it and 
move on it and might have a little bit of a lesser problem 
being employed.
    What we should be focusing on is making sure these 
individuals know what opportunities are available to them. They 
need to understand that they need to get their education if 
they want to work in a professional environment or they need to 
get vocational training.
    Regarding licensing and credentialing, there are three main 
barriers. Usually it is either they can move into the State 
regulations or State licensing credentials and automatically 
get it, but that differs from State to State. There are 
different stakeholders that are involved in that. Not everyone 
can go to California and get their FAA license or their 
airplane and pilot's license based on their military 
occupational specialty (MOS).
    What we want to make sure is that these veterans are given 
the opportunity and that we bring together these stakeholders 
that have a stake in what would make their decision of their 
license and credentialing in each different State. So if we can 
provide that for them, bridge that gap that they might have if 
they do not have the time to necessarily go to a 4-year 
education because they might have children, they might have a 
family, we want to make sure they are given those opportunities 
so that they can become gainfully employed as soon as possible, 
become productive members and taxpayers in the U.S. Government.
    Mr. Weidman. We spend well over $1 million to train people 
when they come into the military. Some of that is through basic 
training. And for some MOSs we spend a heck of a lot more than 
$1 million to train them. We spend $3 million to train counsel 
over here and, you know, look how that turned out.
    I am teasing Mr. Brinck who was a great pilot.
    The point is when they get out, we should utilize that 
experience. And one of the things is that the certification and 
skills that the States and the military, there is equal fault 
on both sides.
    I will use one example that I know for a fact has to do 
with the Navy teaching people how to be welders. If they just 
did a couple more steps, they would be qualified to get 
licensed as welders in the majority of States. But the Navy 
would not do it because they said we do not need those skills.
    So there has to be some modification both of the State 
entities that do licensure and of the military coming together 
to modify a little bit so that when people come out, they come 
out with readily marketable skills.
    One way you can get the States to the table is, say if you 
want to receive Federal funds in any school or in your State in 
any kind of an entity, if you take Federal funds, then you have 
to participate in terms of granting credits and then define 
what those credits are so you do not have to take it all over 
again if you already have the skill.
    In other words, to allow people to come in and challenge 
the exam. And if they pass the exam, then they go forward based 
on the expertise that they acquired in the military. If they do 
not pass the exam, then they do not go forward. But it is crazy 
to spend Federal money to train people twice.
    Mr. Walz. I agree. The system in Minnesota, we provided 
some funding for them to start doing this program. I think we 
are back to the seamless transition issue. It goes on both 
sides.
    I will leave one last anecdote, if I may, Mr. Chairman, is 
you are right. It is not just the private sector. We have an 
issue and it is statistically horrifying. The number of 
security clearances that are denied by Homeland Security and 
other agencies where our warriors could come back and work, but 
because they are deemed a risk because they were in the war 
zone for a certain amount of time, these adjudicators are 
denying them security clearance. Just the people you would want 
to work in Homeland Security, FBI, and other things are being 
denied over a security clearance issue, which is a 
credentialing issue for those jobs.
    And we put an amendment in the National Defense 
Authorization to just school them on what it means to be in a 
combat zone because many of these are civilian adjudicators on 
the security clearance and if someone should not be named, hold 
it on the other side of the house. And so we still have this 
problem.
    So I appreciate your insights into this and we have to get 
this fixed. Lots of problems stem from a veteran not being 
employed. This turns down into a spiral that is life long, 
ruins lives, costs us a lot of money.
    I yield back.
    Mr. Bilirakis. Thank you. Thank you, Mr. Walz.
    I have one last question for the entire panel. Do you have 
a position on having all TAP briefings currently conducted by 
DVOPs and LVERs transferred to contract instructors so that 
DVOPs and LVERs can better focus on finding veterans job 
opportunities?
    Mr. Madden. The American Legion does not have a resolution. 
Therefore, it does not have a position on the question.
    Mr. Wilson. The Disabled American Veterans does not have a 
resolution on this matter either, sir.
    Mr. Kelley. I am not sure how to answer that. I like having 
the LVERs do that task because they are the subject matter 
experts. They have been trained. We have paid them to 
understand these issues.
    But if we are overworking them and they cannot do the other 
aspects of their job, then that responsibility should fall 
somewhere else. Either hire more LVERs and provide them all the 
equal training or if need be, if it is more cost effective, I 
suppose contract that out. But I prefer it to stay with the 
LVERs because they are the true experts.
    Mr. Bilirakis. Thank you.
    Mr. Weidman. We would prefer it stay with the LVERs, but 
make sure that it is someone who is proficient in public 
speaking and getting his or her point across. And they need to 
have those to be effective LVERs because they should not be 
seeing employers just one on one as the assistant secretary 
said here earlier today, but speaking at the Rotary, speaking 
at the JCs, speaking at the Kiwanis in order to change the way 
in which people are perceiving the young people coming home.
    Mr. Bilirakis. Thank you very much for your input on that.
    I would like to recognize now the Ranking Member for any 
closing remarks.
    Mr. Braley. Thank you, Mr. Chairman.
    I want to follow up on that comment, Mr. Weidman. One of 
the things that is so frustrating, I think, to people is when 
we have an opportunity to educate the public, we have an 
opportunity to move the ball down the field in addressing this 
very acute problem. A lot of times, it is a lack of resources 
that deprives people of a greater understanding.
    I would challenge each of you to work with us in coming up 
with a user friendly program that can be taken to those Kiwanis 
Club, Rotary Club, Chamber meetings, and help educate the 
broader public about the importance of fulfilling this sacred 
honor and how they can be a part of helping us improve these 
abysmal statistics. So that is my challenge to you.
    I know everyone on this Committee is committed to not being 
back in this same position 10 years from now with these same 
complaints. And we look forward to working with you to make 
that improvement.
    Thank you.
    Mr. Bilirakis. Very good. And with that, on behalf of the 
Subcommittee, I thank each of you for your testimony and we 
look forward to working with you often, of course, in the 
future on a wide range of challenging issues facing our 
Nation's heroes. Thank you.
    With that, the meeting is adjourned.
    [Whereupon, at 12:06 p.m., the Subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

             Prepared Statement of Hon. Marlin A. Stutzman,
             Chairman, Subcommittee on Economic Opportunity
    Good morning.
    We are here today to examine the FY 2012 budget for the Department 
of Labor's Veterans' Employment and Training Service better known in 
the veterans' community as VETS.
    It is no secret that veterans are facing difficult times finding 
and retaining good-paying jobs. Unemployment rates for veterans in some 
age groups significantly exceed the rates for non-veterans of the same 
age and that is just not right. I am confident the distinguished 
Ranking Member shares that view and I intend to work with Mr. Braley in 
a bipartisan manner to improve employment opportunities for veterans.
    Interestingly, job vacancies posted online rose 438,000 in January 
to nearly 4.3 million according to The Conference Board so there are 
literally millions of jobs looking for qualified workers. That begs me 
to ask whether veterans have the right skills for today's job market, 
and the answer to that may be the key to reducing veteran unemployment 
rates.
    The media focuses on the 15.2 percent unemployment rate among 
veterans returning home from Iraq and Afghanistan, but in terms of 
sheer numbers, older veterans are facing rates of unemployment that 
often exceeds their non-veteran peers.
    For example, the Bureau of Labor Statistics latest data shows that 
725,000 or 63 percent of the 1,135,000 unemployed vets are 35-64 yrs 
old. Unfortunately, those veterans have little or no access to 
veterans' education/training/retraining programs. They are also the 
group that tends to have the highest financial obligations like 
mortgages and paying for their children's education.
    We are all aware of the financial crisis facing this Nation which 
means we must redouble our efforts to make best use of the funds 
available. That means, what is the best use of the $261million the 
President has requested for the Veterans' Employment and Training 
Service in fiscal year 2012? How do we increase the skills unemployed 
veterans can offer to the job market and then what is the best way to 
match veteran qualified job seekers with the right job?
    The VETS' budget submission is refreshingly frank in addressing the 
State grant program. I quote, ``The program clearly was not fulfilling 
its mandated role'' end quote, and I am eager to hear how VETS proposes 
to fix their largest program. Having said that, I must admit that I was 
disappointed to see that the goal for average salary of veterans placed 
by the DVOPs and LVERs staff is only $16, 535 while the national 
poverty level for a family of four is about $21,000. Mr. Secretary, I 
believe your goal must exceed the poverty level because an eight dollar 
an hour job is just not good enough and I hope you will explain to the 
Subcommittee why your goal is so low.
    I would also recognize President Obama's initiative to increase the 
number of veterans employed by the Federal Government. Today, veterans 
are approximately 25 percent of the Federal workforce but 
unfortunately, outside of VA and DoD, most agencies fall far short of 
employing a significant number of veterans. I wish the President every 
success in his program and I am sure each of the Members here will call 
upon the entire Federal Government to place greater emphasis on hiring 
veterans. But I would also note that the private sector offers far more 
employment opportunities as evidenced by the Confidence Board's data.
    Finally, I welcome today's witnesses and I yield to the 
distinguished Ranking Member, Mr. Braley after which we will hear from 
the first panel.

                                 <F-dash>
              Prepared Statement of Hon. Bruce L. Braley,
    Ranking Democratic Member, Subcommittee on Economic Opportunity
    Today's hearing, the first hearing for the Subcommittee on Economic 
Opportunity of the 112th Congress, is an important one. As all of you 
know, Congress is working hard to balance our budget and reduce the 
deficit while at the same time provide much needed services to provide 
employment opportunities for veterans.
    This hearing will provide us an opportunity to review the U.S. 
Department of Labor, Veterans' Employment and Training Services (VETS) 
budget request for Fiscal Year 2012 and funding for Disabled Veteran 
Outreach Program Specialists (DVOP) and the Local Veterans Employment 
Representatives (LVER) through State grant programs. VETS oversees six 
major employment related initiatives for veterans, these are: are Jobs 
for Veterans State Grants, Transition Assistance Program, Homeless 
Veterans' Reintegration Program, Veterans' Workforce Investment 
Program, National Veteran' Employment and Training Services Institute, 
and the Federal Management. I look forward to hearing how these 
programs will remain fully operational and effective with the new 
budget request. I am also interested in learning more about the 
Transition Assistant Program and Homeless Veterans' Reintegration 
Program initiatives as these two had a budget request increase for 
Fiscal Year 2012.
    I know that our distinguished panelists will highlight some of the 
deficiencies of the Disabled Veteran Outreach Program Specialists and 
the Local Veterans Employment Program Representatives and I look 
forward to hearing their recommendations on how we can improve these 
services while keeping a good budget. The main purpose of DVOPs and 
LVERs is to provide employment services to veterans to help relieve the 
high unemployment rates among veterans. We should do everything we can 
to ease the transition of veterans from the military to the civilian 
world. This hearing is not just about problems and fixes but also about 
assessing the effectiveness of DVOPs and LVERs in today's economy. Our 
first priority is to be certain that all our veterans are being 
properly served by these programs.

                                 <F-dash>
            Prepared Statement of Hon. Raymond M. Jefferson,
   Assistant Secretary for Veterans' Employment and Training Service,
                        U.S. Department of Labor
    Chairman Stutzman, Ranking Member Braley, and Members of the 
Subcommittee:
    Thank you for the opportunity to appear as a witness before the 
Subcommittee and speak to you on the President's Fiscal Year (FY) 2012 
budget request for the Veterans' Employment and Training Service (VETS) 
and the performance of the State grant program that funds the Disabled 
Veteran Outreach Program specialist (DVOP) and the Local Veterans 
Employment Representative (LVER) programs.
    VETS proudly serves veterans and transitioning servicemembers by 
providing resources and expertise to assist and prepare them to obtain 
meaningful careers, maximize their employment opportunities and protect 
their employment rights. We do that through four major programs that 
are an integral part of Secretary Solis's vision of ``Good Jobs for 
Everyone.''

    <bullet>  The Jobs for Veterans State Grants (JVSG);
    <bullet>  The Transition Assistance Program Employment Workshops 
(TAP);
    <bullet>  The Homeless Veterans' Reintegration Program (HVRP); and
    <bullet>  The Uniformed Services Employment and Reemployment Rights 
Act (USERRA).

    Since being confirmed, I have incorporated stakeholder feedback 
into five aspirations that VETS will pursue during my tenure as 
Assistant Secretary in order to achieve our desired outcomes:

    1.  Providing veterans and transitioning servicemembers a voice in 
the workplace by serving as the National focal point for veterans' 
employment and training.
    2.  Creating a path to good jobs for veterans through increased 
engagement with employers, with a particular emphasis on the private 
sector.
    3.  Helping servicemembers transition seamlessly into meaningful 
employment and careers while emphasizing success in emerging industries 
such as green jobs.
    4.  Facilitating a return to work for servicemembers and protecting 
vulnerable populations through boosting USERRA's impact by increasing 
awareness of and commitment to it.
    5.  Investing in VETS' team members and emphasizing continuous 
improvement to further develop their potential and better serve our 
clients.

    Over the past 1\1/2\ years, VETS has prioritized efforts to 
transform TAP, implement an employer outreach program, reach out to 
rural veterans, and incorporate best practices into USERRA 
investigations.
    This year, we will be reviewing the JVSG program to obtain a 
current assessment of its efficacy. The program is now over 8 years 
old, and, to date, VETS has not conducted a comprehensive, formal 
review to determine what improvements are needed. To that end, our 
State Directors have begun discussions with their State Veteran 
Coordinator counterparts to gain a clearer picture of how the JVSG 
program is helping veterans gain meaningful employment and whether any 
improvements are needed to help States achieve their outcome measures. 
We are particularly interested in the effectiveness of LVER employer 
outreach strategies, and whether it would be beneficial for DoL/VETS to 
assist States in developing relationships with large, national employer 
associations.
    We also intend to create an online ``Community of Practice'' that 
leverages social networking so that DVOPs and LVERs can: 1) post 
questions and topics they need assistance with; and 2) share solutions 
and resources. Professional communities benefit tremendously when they 
have a way to share information with each other in a timely manner. 
Indeed, the ``Community of Practice'' model was one of the Harvard 
Business Review's ``Breakthrough Ideas for 2006'' and the example 
profiled was the U.S. Army's ``Company Command.com'' (http://
cc.army.mil/index.htm).
    In addition, VETS continues to strengthen grant oversight of the 
JVSG. On February 18, 2011, DoL published a Notice of Proposed Rule 
Making in the Federal Register (http:// frwebgate3.access.gpo.gov/
cgi&#xFFFD;bin / PDFgate.cgi?WAISdocID
=A50xoy/0/2/0&WAISaction=retrieve) proposing a rule to implement a 
uniform national threshold entered employment rate (EER) for veterans 
applicable to State employment service delivery systems. The Department 
undertakes this rulemaking in accordance with the Jobs for Veterans 
Act, which requires the Department to implement that threshold rate by 
regulation. The purpose of this Proposed Rule is to establish the 
uniform national threshold EER for use in determining deficiencies in 
States' performance in assisting veterans to meet their employment 
needs. The Proposed Rule also explains how the threshold will be used 
in the process of identifying those States to be reviewed for a 
potential determination of deficiency, and it identifies certain 
factors, in addition to the threshold, that will be included in the 
Department's review to determine deficiency.
Fiscal Year 2012 Budget Request
    For FY 2012, the Department is requesting $261,036,000 for VETS, an 
increase of $4,909,000 over FY 2010. This increase will (1) support the 
Department of Defense's goal of increased participation by 
transitioning National Guard and Reserve Component servicemembers at 
the Transition Assistance Program Employment Workshops (TAP), and (2) 
provide additional employment services grants for homeless veterans 
through the Homeless Veterans' Reintegration Program (HVRP).
    The mission of VETS is a direct reflection of the Nation's 
responsibility to meet the employment, training and job security needs 
of Americans who served in uniform. VETS helps veterans obtain positive 
employment outcomes through services provided at One-Stop Career 
Centers and other locations. Grants are provided to State Workforce 
Agencies (SWA) to support staff dedicated to serving veterans. VETS 
ensures that veterans who require special assistance due to 
disabilities or other barriers to employment receive appropriate 
services based on their needs. VETS also provides funding, through the 
HVRP and Veterans' Workforce Investment Program (VWIP), to 
organizations that serve eligible veterans.
    The U.S. military services annually discharge approximately 160,000 
active duty servicemembers and approximately 110,000 Reserve and 
National Guard servicemembers. VETS expects greater demand for 
transition assistance and employment services for veterans over the 
next few years. FY 2012 should be the first year of implementation of a 
new, completely reengineered and transformed TAP employment workshop 
that will encompass the most significant changes to TAP in its 19-year 
history. This will be accomplished via the following six components: 
(1) pre-work, (2) best practice content, (3) experiential facilitation, 
(4) after-TAP support, (5) an online e-learning platform, and (6) 
performance metrics.
    VETS protects the employment and reemployment rights of veterans 
and members of the National Guard and Reserve Forces through two major 
labor laws. Under the provisions of the Uniformed Services Employment 
and Reemployment Rights Act (USERRA), VETS ensures that servicemembers 
can serve on active duty without harm to their employment status. Under 
the Veterans' Employment Opportunities Act (VEOA), VETS ensures that 
veterans obtain the preferences in Federal hiring that agencies are 
required to apply.
    VETS meets its responsibilities through budget activities that 
directly support the Secretary's vision of ``Good Jobs for Everyone'' 
through the strategic goal of ``Prepare Workers for Good Jobs and 
Ensure Fair Compensation.'' The VETS budget is formulated through six 
budget activities described below:
Jobs for Veterans State Grants (JVSG)
    The FY 2012 request of $165,394,000 will support Disabled Veterans' 
Outreach Program (DVOP) specialists, Local Veterans' Employment 
Representative (LVER) staff, and respond to exigencies. The JVSG helps 
veterans find good jobs by providing employment services at One-Stop 
Career Centers and other locations. DVOPs and LVERs are State employees 
whose salaries and benefits are funded through formula grants to the 
States, District of Columbia, Puerto Rico, Virgin Islands, and Guam. At 
the funding requested, it is expected that 624,000 veterans will 
receive employment services through this program.
    DVOPs and LVERs are primarily stationed at the One-Stop Career 
Centers where they provide intensive services to veterans and outreach 
to employers. In addition, VETS is collaborating with the Department of 
Veterans Affairs Vocational Rehabilitation and Employment (VR&E) 
service by stationing DVOP specialists at VA Regional Offices and other 
points of entry to help VR&E participants find good jobs. DVOPs are 
also stationed at military medical treatment facilities to provide one-
on-one employment services to wounded warriors through the DoL 
REALifelines Program.
    Many DVOPs and LVERs are outstationed with, or in support of, other 
VETS programs and are critical to the success of those programs. This 
includes:

    <bullet>  Homeless Veterans' Reintegration Program
    <bullet>  Veterans' Workforce Investment Program
    <bullet>  Transition Assistance Program
    <bullet>  Reintegration of Incarcerated Veterans

Transition Assistance Program (TAP)
    In FY 2012, VETS requests that the Transition Assistance Program be 
funded at $9,000,000, renewing our FY 2011 request to fund this as a 
separate activity. This is $2,000,000 above the level for FY 2010. VETS 
anticipates increased demand for TAP Employment Workshops in connection 
with the Department of Defense's Yellow Ribbon Reintegration Program, 
and in providing workshops to retiring Reserve and National Guard 
members, which represent two populations not fully supported in 
previous years.

    This funding level helps servicemembers and their spouses make the 
initial transition from military service to the civilian workplace with 
less difficulty. TAP for active servicemembers consists of 
comprehensive two and one-half day employment workshops at military 
installations nationwide and at select military installations overseas. 
Professionally-trained workshop facilitators present the workshops.
Homeless Veterans' Reintegration Program (HVRP)
    The FY 2012 request is $39,330,000, an increase of $3,000,000 over 
the FY 2010 level. This increase should allow for an additional 11 
grants serving an additional 1,710 participants. Up to $4,000,000 of 
the requested amount will be to serve the reintegration of incarcerated 
veterans. This request will also support separate grants totaling 
$5,300,000 for female homeless veterans and homeless veterans with 
families.
    HVRP grants are awarded competitively to State and local workforce 
investment boards, State agencies, local public agencies, and private 
non-profit organizations, including faith-based organizations and 
neighborhood partnerships. HVRP grantees provide an array of services 
utilizing a holistic case management approach that directly assists 
homeless veterans and provides training services to help them to 
successfully transition into the labor force.
    At the funding level requested, it is expected that 26,710 veterans 
will receive employment services funded through 162 grantees.
Veterans' Workforce Investment Program (VWIP)
    The FY 2012 request of $9,641,000 will allow VETS to award 
competitive grants geared toward focused training, re-training and 
employment opportunities for recently separated veterans, veterans with 
service-connected disabilities, veterans with significant barriers to 
employment and veterans who served on active duty during campaign badge 
wars, expeditions or campaigns. These grants are awarded to meet the 
needs of employers for qualified workers in high demand industries, 
particularly those occupations requiring a license or certification.
    In FY 2009, the Veterans' Workforce Investment Program was 
refocused to provide training and employment services in green energy 
occupations as envisioned in the Green Jobs Act of 2007. Grants were 
awarded competitively to 17 grantees in FY 2009, and an additional five 
grants were awarded in FY 2010.
    At the funding level requested, it is expected that 4,600 veterans 
will receive employment services funded through 22 grantees.
National Veterans' Employment and Training Services Institute (NVTI)
    The FY 2012 request of $2,449,000 will allow NVTI to continue to 
provide training to Federal staff and veteran service providers.
    NVTI was established to ensure a high level of proficiency and 
training for staff that provide veterans employment services. These 
staff members include the DVOPs and LVERs funded through the Jobs for 
Veterans State Grants budget activity, the VETS Federal staff who are 
trained in USERRA and veterans Preference enforcement, and all 
facilitators for the Transition Assistance Program Employment 
Workshops.
    NVTI provides this training in competency based training courses. 
The primary objective is to increase the service providers' 
productivity through increased knowledge. The NVTI effort ensures 
universality of training services for veterans and all direct client 
service providers.
Federal Management
    The FY 2012 request of $35,222,000 will provide adequate support 
for VETS' planned FTE level of 227.
    The Federal Management budget activity supports the management and 
oversight necessary to implement the agency's activities, programs and 
initiatives, to include the programs contained in the other five budget 
activities.
    This activity includes: investigation of USERRA claims; 
investigation of veterans' Preference complaints; education and 
outreach on USERRA and Veterans Preference; grant oversight of the Jobs 
for Veterans State Grants; grant oversight of the Homeless Veterans' 
Reintegration Program competitive grants; grant oversight of the 
Veterans' Workforce Investment Program competitive grants; technical 
and managerial oversight of the Transition Assistance Program 
Employment Workshops; and technical and contract oversight of the 
National Veterans' Training Institute.
 Disabled Veteran Outreach Program Specialists (DVOP)and the Local 
        Veterans Employment Representatives (LVER) programs
    The Disabled Veteran Outreach Program Specialists (DVOP) program 
and the Local Veterans Employment Representatives (LVER) programs are 
known collectively as the Jobs for Veterans State Grants program 
(JVSG).
    The Disabled Veterans' Outreach Program (DVOP) is a State grant 
program started in 1977 and authorized by Section 4103(A) of Title 38, 
United States Code. DVOP specialists provide intensive employment 
assistance to meet the employment needs of eligible veterans. DVOP 
specialists provide intensive services at the One-Stop Career Centers 
and at the VA's Vocational Rehabilitation and Employment (VR&E) 
offices. They also provide recovery and employment assistance to 
wounded and injured servicemembers receiving care at Department of 
Defense military treatment facilities and Warrior Transition Units 
through the Recovery & Employment Assistance Lifelines (REALifelines) 
program. DVOPs focus their services to special disabled veterans and 
disabled veterans. DVOPs also provide services through the Homeless 
Veterans' Reintegration Program, Veterans' Workforce Investment 
Program, Transition Assistance Program, and Incarcerated Veterans' 
Transition Program.
    The Local Veterans' Employment Representative (LVER) program is a 
State grant program authorized by Section 4104, Title 38, United States 
Code. LVER staff conduct outreach to employers and engage in advocacy 
efforts with hiring executives to increase employment opportunities for 
veterans, encourage the hiring of disabled veterans, and generally 
assist veterans to gain and retain employment. LVER staff conduct 
seminars for employers and job search workshops for veterans seeking 
employment, and facilitate the provision of employment, training, and 
placement services to veterans by all staff of the employment service 
delivery system. In addition, LVER staff maintain cooperative working 
relationships with community organizations that provide complementary 
services and referral.
    In your letter of invitation to testify, you asked a series of 
questions. Our responses to those questions follow:
What are the demographics of the veterans who are seeking employment?
    For calendar year 2010, there were 22,011,000 veterans in the 
country. There were 11,758,000 in the labor force, and of this group, 
1,020,000 (8.7 percent) were unemployed. Of the 1,020,000 unemployed, 
78 percent are white, 17 percent are black, and 7 percent are Hispanic. 
In terms of age, about half are aged 45-64 years.
 What are the 10 States with the lowest overall performance in meeting 
        the common measure goals and what does the Department propose 
        to improve the performance of those States?
    The Department uses three Common Measures to measure the outcomes 
experienced by participating job seekers. The first is the Entered 
Employment Rate (EER), which is the percent of the participants who are 
employed in the quarter after the last quarter in which they received 
services. The second measure is the Employment Retention Rate (ERR), 
which is the percent of those entering employment who also are employed 
in the first and second quarters after entering employment. The third 
is Average Earnings, which is the total earnings in the second and 
third quarters after the exit quarter for those who are employed in the 
first, second, and third quarters after the exit quarter.
    Grantees are required to report on a quarterly basis these outcome 
measures for both the One-Stop level and the Grant level. The One-Stop 
level records the measures for all veterans served by either Wagner-
Peyser funded staff or the JVSG. The One-Stop level outcomes are posted 
on the DoL Web site at http://www.dol.gov/vets/vetoutcomes/index.htm. 
Chart 1 on page 56 displays the current performance by State.
 What are the goals and actual performance for each common measure?


------------------------------------------------------------------------
                                                 PY 2010     PY 2010 Q1
                  Measures                       Target        Results
------------------------------------------------------------------------
Entered Employment Rate for Veterans                44.8%           45%
------------------------------------------------------------------------
Employment Retention Rate for Veterans              71.2%           75%
------------------------------------------------------------------------
Average Earnings for Veterans                     $16,535       $15,985
------------------------------------------------------------------------
Entered Employment Rate for Disabled                41.7%           42%
 Veterans
------------------------------------------------------------------------
Employment Retention Rate for Disabled              70.8%           75%
 Veterans
------------------------------------------------------------------------
Average Earnings for Disabled Veterans            $16,969       $16,521
------------------------------------------------------------------------

    The actual performance by State is shown on chart 1 on page 56.
 What is the President's proposed budget for the Veterans' Employment 
        and Training Service and what will be the effect(s) of that 
        funding on each of the common measures?
    The President's Budget Request for FY 2012 for the JVSG is 
$165,394,000. We do not expect the level of funding to have an impact 
upon the Common Measures. These outcome measures are not affected by 
the change in funding level, since they are efficiency measures that 
reflect the quality of the service, but not the workload or output of 
the service. For example, EER measures the percent of participants who 
receive a staff assisted service and then achieve employment. It is our 
perspective that two factors which have the greatest impact on EER are 
the economic conditions within the State and the availability of job 
openings than by the level of funding for the program.
How many DVOPs and LVERs will the President's proposed budget support?
    For FY 2012, we estimate that the JVSG will support a total of 
2,117 DVOPs and LVERs. Under current legislation States have the 
ability to adjust the number of DVOP and LVER positions they will 
support, as they believe appropriate, for each year.
    In FY 2011, the States have projected to support 1,146 DVOP Full 
Time Equivalent (FTE) and 971 LVER FTE.
 How much Fiscal Year 2010 State grant funding was recovered from the 
        States and what was done with that funding?
    Although VETS must obligate Fiscal Year funds by September 30th of 
each year, the State Grants appropriation language allows States to 
obligate those same funds through December 31st of each year. Under 
VETS current guidance States have until March 31st to liquidate those 
funds obligated by December 31st. Therefore, VETS will not be able to 
determine the amount of FY 2010 unobligated funds by State until final 
financial reports are received in June 2011.
    In FY 2009, States returned approximately $2.4 million back to 
Treasury. This could partly be attributed to a mid year appropriation 
which included an additional $7 million over the previous FY 
appropriation.
 How many DVOPs and LVERs have not attended training at the National 
        Veterans Training Institute (NVTI) as required by law? What is 
        your timeline to have all DVOPs and LVERs attend training at 
        NVTI?
    Under P.L. 109-461, DVOPs and LVERs were required to attend 
training at the NVTI within 3 years of appointment to their positions. 
NVTI has successfully handled the mandatory training requirement under 
the prior (3 year) training window and VETS anticipates that the 
ongoing level of staffing changes will continue to be accommodated 
under the prior training window and at the current funding level. The 
only exceptions are small numbers of DVOP/LVER staff members (e.g. nine 
hired in 2006 and fifteen hired in 2007) who have been scheduled for 
their mandatory training on more than one occasion but have not been 
able to attend. Thus, this issue is not one of training capacity.
    Under P.L. 111-275, the time period for attendance at NVTI training 
was changed to 18 months. The ability to comply with training 
requirements in FY 2012 will largely depend on attrition levels and the 
number of new employees.
 Which 10 States have the highest administrative overhead and what are 
        those charges against the grant for each of the 10 States?
    Allowable charges are covered in 2 Code of Federal Regulations 
(CFR) part 225 (i.e., OMB Circular A-87) and can vary by each State's 
methodology. VETS has provided additional guidance to the States 
through a Veterans' Program Letter requiring States to provide 
justification when the forecasted Personal Services plus Personnel 
Benefits to grant award total ratio is less than 65 percent.
    Chart 2 on page 57 displays the charges from States for FY 2010.
 How many Federal staff are assigned to the States and how do they 
        interact with the State grant program?
    VETS has authorized 173 FTE at the State level. As required by the 
Jobs for Veterans Act of 2004, each State, the District of Columbia, 
and Puerto Rico have a State Director (DVET). Additional staff is 
assigned to each State, based upon factors such as the size of the 
grant activity in that State. The DVET for Puerto Rico also has 
responsibility for the Virgin Islands, and the DVET for Hawaii has 
responsibility for Guam.
    DVETs serve as the Grant Officer Technical Representatives for the 
JVSG. The DVETs work closely with the SWAs providing technical 
assistance as necessary and have an integral knowledge of the State's 
internal system. They negotiate performance outcome goals on an annual 
basis, review and recommend approval of the States annual operating 
plans, analyze quarterly performance and financial reports, and provide 
appropriate recommendations to meet VETS fiduciary responsibilities in 
monitoring the JVSG.
 In addition to the basic State grant, what is the total funding 
        allocated to support the work of the DVOPs and LVERs in the 
        Transition Assistance Program (TAP)?
    In FY 2010, States were funded $2,744,000 to facilitate 2,922 TAP 
Employment Workshops. In FY 2011, States requested $2,697,000 to 
facilitate 2,639 projected TAP Employment Workshops.
 What change(s) are needed to the State grant program to improve the 
        overall performance of the program?
    Earlier in my testimony, I noted that this year, we will be 
reviewing the JVSG program to obtain a current assessment of its 
efficacy. We also intend to create an online ``Community of Practice'' 
that leverages social networking so DVOPs and LVERs can post questions 
and topics they need assistance with, and share solutions and resources
 How many months of unemployment benefits may a veteran receive and 
        what is the average number of months paid to veterans?
    The Unemployment Compensation for Ex-servicemembers (UCX) program 
provides benefits for eligible ex-military personnel. In addition, 
servicemembers who exhaust UCX benefits are eligible to receive 
emergency unemployment compensation. Total weeks of benefits range from 
60 weeks to 99 weeks. The law of the State (under which the claim is 
filed) determines benefit amounts, number of weeks benefits can be 
paid, and other eligibility conditions. The average number of weeks 
received varies by State and is not available on a national average.
    Thank you for the opportunity to present our programs and 
initiatives. I would be pleased to respond to any questions.

                                 Chart 1
         One-Stop Career Center: Veterans' Performance Outcomes
                    Period Ending September 30, 2010
------------------------------------------------------------------------
              Entered                Employ-ment
  State     Employ-ment    State      Retention     State      Average
               Rate                     Rate                   Earnings
------------------------------------------------------------------------
Montana            58%   Puerto             88%   District      $22,003
                          Rico                     of
                                                   Columbia
------------------------------------------------------------------------
North              58%   Minnesota          81%   Alaska        $20,937
 Dakota
------------------------------------------------------------------------
South              58%   North              81%   Californi     $20,822
 Dakota                   Dakota                   a
------------------------------------------------------------------------
Iowa               56%   Texas              81%   Maryland      $18,316
------------------------------------------------------------------------
Kansas             55%   South              80%   Utah          $18,066
                          Dakota
------------------------------------------------------------------------
Minnesota          55%   Virginia           80%   Ohio          $18,023
------------------------------------------------------------------------
Utah               55%   Alabama            79%   Connectic     $17,741
                                                   ut
------------------------------------------------------------------------
Missouri           53%   Utah               79%   Texas         $17,722
------------------------------------------------------------------------
Arkansas           52%   Wisconsin          79%   Wyoming       $17,510
------------------------------------------------------------------------
Louisiana          52%   Idaho              78%   New           $17,506
                                                   Jersey
------------------------------------------------------------------------
Wyoming            52%   Kansas             78%   New           $17,327
                                                   Mexico
------------------------------------------------------------------------
Virginia           51%   Maine              78%   Virginia      $17,284
------------------------------------------------------------------------
Idaho              50%   Montana            78%   Minnesota     $17,145
------------------------------------------------------------------------
New York           50%   Arkansas           77%   Colorado      $17,116
------------------------------------------------------------------------
Texas              50%   Florida            77%   Illinois      $16,917
------------------------------------------------------------------------
Alabama            49%   Maryland           77%   Massachus     $16,644
                                                   etts
------------------------------------------------------------------------
West               49%   New                77%   Washingto     $16,426
 Virginia                 Hampshir                 n
                          e
------------------------------------------------------------------------
Kentucky           48%   Oregon             77%   Louisiana     $16,303
------------------------------------------------------------------------
Maryland           48%   West               77%   New York      $16,254
                          Virginia
------------------------------------------------------------------------
Maine              47%   Wyoming            77%   Idaho         $16,180
------------------------------------------------------------------------
New                47%   Alaska             76%   North         $15,507
 Hampshir                                          Dakota
 e
------------------------------------------------------------------------
Oklahoma           47%   Kentucky           76%   Oregon        $15,499
------------------------------------------------------------------------
Wisconsin          47%   Missouri           76%   New           $15,456
                                                   Hampshir
                                                   e
------------------------------------------------------------------------
Alaska             46%   New York           76%   Hawaii        $15,330
------------------------------------------------------------------------
South              46%   Washingto          76%   Michigan      $15,191
 Carolina                 n
------------------------------------------------------------------------
Washingto          46%   Illinois           75%   Virgin        $15,079
 n                                                 Islands
------------------------------------------------------------------------
Illinois           45%   Louisiana          75%   Florida       $14,921
------------------------------------------------------------------------
Mississip          45%   Oklahoma           75%   Montana       $14,762
 pi
------------------------------------------------------------------------
Nevada             45%   South              75%   Vermont       $14,393
                          Carolina
------------------------------------------------------------------------
Tennessee          45%   District           74%   Alabama       $14,297
                          of
                          Columbia
------------------------------------------------------------------------
Florida            44%   New                74%   Iowa          $14,270
                          Jersey
------------------------------------------------------------------------
Indiana            44%   Virgin             74%   South         $14,134
                          Islands                  Carolina
------------------------------------------------------------------------
New                43%   Arizona            73%   Kentucky      $14,064
 Mexico
------------------------------------------------------------------------
Oregon             43%   Delaware           73%   Oklahoma      $14,055
------------------------------------------------------------------------
Georgia            42%   Indiana            73%   Georgia       $14,039
------------------------------------------------------------------------
Massachus          42%   Nebraska           73%   West          $14,036
 etts                                              Virginia
------------------------------------------------------------------------
Nebraska           42%   Tennessee          73%   Nebraska      $13,968
------------------------------------------------------------------------
Colorado           41%   Californi          72%   Nevada        $13,778
                          a
------------------------------------------------------------------------
District           41%   Ohio               72%   Arizona       $13,649
 of
 Columbia
------------------------------------------------------------------------
New                41%   Colorado           71%   Wisconsin     $13,501
 Jersey
------------------------------------------------------------------------
Arizona            40%   Connectic          71%   Missouri      $13,475
                          ut
------------------------------------------------------------------------
North              40%   Hawaii             71%   Kansas        $13,444
 Carolina
------------------------------------------------------------------------
Vermont            38%   Iowa               71%   Maine         $13,397
------------------------------------------------------------------------
Connectic          37%   Nevada             71%   Indiana       $13,163
 ut
------------------------------------------------------------------------
Delaware           37%   New                70%   Delaware      $13,124
                          Mexico
------------------------------------------------------------------------
Michigan           36%   North              70%   Arkansas      $13,118
                          Carolina
------------------------------------------------------------------------
Californi          33%   Georgia            69%   Tennessee     $13,112
 a
------------------------------------------------------------------------
Hawaii             33%   Massachus          68%   North         $13,079
                          etts                     Carolina
------------------------------------------------------------------------
Ohio               33%   Michigan           68%   South         $13,070
                                                   Dakota
------------------------------------------------------------------------
Virgin             28%   Vermont            61%   Mississip     $11,520
 Islands                                           pi
------------------------------------------------------------------------
Guam               NDA   Mississip          52%   Puerto         $8,985
                          pi                       Rico
------------------------------------------------------------------------
Pennsylva          NDA   Guam               NDA   Guam              NDA
 nia
------------------------------------------------------------------------
Puerto             NDA   Pennsylva          NDA   Pennsylva         NDA
 Rico                     nia                      nia
------------------------------------------------------------------------
Rhode              NDA   Rhode              NDA   Rhode             NDA
 Island                   Island                   Island
------------------------------------------------------------------------
National           45%   National           75%   National      $15,985
 Average                  Average                  Average
------------------------------------------------------------------------
National         44.8%   National         71.2%   National      $16,535
 Goal                     Goal                     Goal
------------------------------------------------------------------------


                                                     Chart 2
                             FY 2010 JVSG Administrative Costs of the Top Ten States
----------------------------------------------------------------------------------------------------------------
                                                              Total
                        State                             Administrative       Total Grant      Percent of Total
                                                              Costs            Expenditures          Grant
----------------------------------------------------------------------------------------------------------------
Kentucky                                                       $1,065,652         $2,226,479              47.9%
----------------------------------------------------------------------------------------------------------------
Florida                                                        $3,501,341         $8,218,376              42.6%
----------------------------------------------------------------------------------------------------------------
Georgia                                                        $1,849,081         $4,833,016              38.3%
----------------------------------------------------------------------------------------------------------------
Tennessee                                                        $942,626         $2,649,123              35.6%
----------------------------------------------------------------------------------------------------------------
Texas                                                          $3,924,085        $11,348,817              34.6%
----------------------------------------------------------------------------------------------------------------
Mississippi                                                      $512,131         $1,484,644              34.5%
----------------------------------------------------------------------------------------------------------------
Maryland                                                         $925,028         $2,690,852              34.4%
----------------------------------------------------------------------------------------------------------------
Nevada                                                           $428,131         $1,249,050              34.3%
----------------------------------------------------------------------------------------------------------------
New Mexico                                                       $320,123           $939,762              34.1%
----------------------------------------------------------------------------------------------------------------
Connecticut                                                      $543,445         $1,612,140              33.7%
----------------------------------------------------------------------------------------------------------------


                                 <F-dash>

     Prepared Statement of Bonnie Elsey, President-Elect, National 
                              Association
    of State Workforce Agencies, and Senior Administrative Officer,
      Minnesota Department of Employment and Economic Development
                           Executive Summary
    The following summarizes NASWA's testimony on the Administration's 
Fiscal Year 2012 budget for the U.S. Department of Labor's Veterans' 
Employment and Training Service and the performance of the Disabled 
Veteran Outreach Program Specialists and Local Veterans Employment 
Representatives.

    <bullet>  Approximately 640,000 veterans were served through the 
Disabled Veterans' Outreach Program (DVOP) and Local Veterans' 
Employment Representatives (LVER) in fiscal year 2009. The DVOP and 
LVER programs have been successful in assisting veterans to become 
gainfully employed.
    <bullet>  NASWA is concerned with the ability to increase the 
numbers of veterans receiving intensive services from DVOP specialists 
without increases in funding. Intensive services are just that--
intensive--and require more time and effort. There is the potential 
that increasing the number receiving intensive services could decrease 
the quality of that service or decrease core services.
    <bullet>  NASWA is concerned that the Performance Outcomes by 
State, posted on the VETS Web site, can lead to incorrect assumptions 
about a State's performance. The common measure goals should be 
adjusted for factors outside the control of the State--taking into 
account that a State with a high unemployment rate generally will have 
poorer performance than a State with a low unemployment rate.
    <bullet>  NASWA recommends language to prohibit States from 
imposing furloughs and hiring freezes on staff funded by the JVSG. 
Since these are Federal funds, any dollars saved have little positive 
impact on States' budgets. Services to our Nation's veterans should not 
be negatively impacted because of State budget problems. In fact, not 
accepting or spending these funds would seem to negatively impact a 
State's budget.
    <bullet>  NASWA recommends enhanced efforts are needed to raise 
awareness of the DVOP and LVER programs among Human Resource (H.R.) 
professionals.
    <bullet>  NASWA recommends VETS and JVSG funds should be used to 
implement tools to assist in translating military skills, develop 
licensing, certification and credentialing systems to better assist the 
transition of military members to civilian employment.
    <bullet>  NASWA recommends Congressional legislation should 
maintain the same definition of a veteran for reporting purposes for 
all Federal programs (Wagner-Peyser, JVSG programs, Workforce 
Investment Act, etc.).
    <bullet>  NASWA recommends USDoL utilize VetCentral, an online 
network connecting employers and State workforce agencies, to provide 
Federal contractors jobs for States to assist eligible veterans.
    <bullet>  Despite recent improvements to the Federal Contractor Job 
Listing (FCJL) process, NASWA member States are still unable to 
identify all Federal contractors and subcontractors subject to 41 CFR 
Part 60-250 and 41 CFR Part 60-300.
    <bullet>  NASWA recommends customer satisfaction surveys be used 
and the results of those surveys should be part of the LVER Managers' 
quarterly reports.

                               __________
    Chairman Stutzman, Ranking Member Braley and Members of the 
Subcommittee, on behalf of the National Association of State Workforce 
Agencies (NASWA), I thank you for the opportunity to submit written 
testimony on the Administration's Fiscal Year 2012 budget for the U.S. 
Department of Labor's Veterans' Employment and Training Service and the 
performance of the Disabled Veteran Outreach Program Specialists and 
Local Veterans Employment Representatives.
    The members of our Association constitute State leaders of the 
publicly-funded workforce investment system vital to meeting the 
employment needs of veterans through the Disabled Veterans Outreach 
Program (DVOP), the Local Veterans Employment Representatives (LVER), 
and the Wagner-Peyser programs. The mission of NASWA is to serve as an 
advocate for State workforce programs and policies, a liaison to 
Federal workforce system partners, and a forum for the exchange of 
information and practices. Our organization was founded in 1937. Since 
1973, it has been a private, non-profit corporation, financed by annual 
dues from member State agencies and other sources of revenue.
    Our members are committed to providing the highest quality of 
service to our Nation's veterans, National Guard members and 
Reservists. We are focused on our highest priority, serving recently-
separated veterans and disabled veterans. With the war efforts in Iraq 
and Afghanistan, this is a critical time to ensure high quality 
workforce services are available for those who served our country in 
time of war and now are returning to the civilian economy.
    Continued support and increased funding of the DVOP and LVER 
programs is essential. The U.S. Military services discharge 
approximately 160,000 active duty servicemembers and 90,000 Reserve and 
National Guard Members annually. We can expect a greater demand for 
transition services and employment services for veterans over the next 
few years.
    Approximately 640,000 participants were served through these 
programs in fiscal year 2009, and the target for fiscal year 2010 is to 
serve over 650,000. The DVOP and LVER programs have been successful in 
assisting veterans to become gainfully employed. It is critical to 
maintain the connection of the DVOP and LVER programs with the Wagner-
Peyser systems.

A. FY 2012 BUDGET PROPOSAL
    The Administration's Fiscal Year (FY) 2012 budget requests $165.3 
million for the Jobs for Veterans State Grants (JVSG). This funding 
level represents 62 percent of all funding for the U.S. Department of 
Labor's (USDoL) Veterans' Employment and Training Service (VETS). The 
JVSG fund two programs through formula grants to State Workforce 
Agencies: the Disabled Veterans Outreach Program (DVOP) and the Local 
Veterans Employment Representative (LVER) Program.
    The DVOP and LVER specialists provide services primarily through 
the Wagner-Peyser Act funded One-Stop Career Centers. DVOP specialists 
provide intensive employment assistance to meet the employment needs of 
eligible veterans, especially to disabled and economically or 
educationally disadvantaged veterans. DVOPs also provide recovery and 
employment assistance to wounded and injured servicemembers receiving 
care at Department of Defense military treatment facilities and Warrior 
Transition Units through the Recovery & Employment Assistance Lifelines 
(REALifeLines). DVOPs also work with the Homeless Veterans 
Reintegration Program, Veterans Workforce Investment Program, 
Transition Assistance Program, and Incarcerated Veterans Transition 
Program.
    LVER staff conducts outreach to employers and engages in advocacy 
efforts with hiring executives to increase employment opportunities for 
veterans, encourage the hiring of disabled veterans, and generally 
support veterans in gaining and retaining employment. LVER staff 
conducts seminars for employers and job search workshops for veterans 
seeking employment, and facilitate the provision of employment, 
training, and placement services to veterans by all staff of the 
employment service delivery system. In addition, LVER staff maintains 
cooperative working relationships with community organizations that 
provide complementary services and referrals.
    The roles and responsibilities for the Disabled Veterans Outreach 
Program and the Local Veterans Employment Representatives changed under 
the Jobs for Veterans Act (JVA), which was enacted in November 2002. 
JVA implemented a comprehensive performance accountability system that 
included performance measures for the two programs--consistent with 
those under the Workforce Investment Act--and enhanced accountability 
for veteran services in the one-stop system.
    While JVA requires USDoL to include information in its annual 
report to Congress on whether veterans are receiving priority and are 
being fully served by employment and training programs, questions have 
been raised about whether available performance information accurately 
reflects services and outcomes for veterans. The Government 
Accountability Office (GAO) concluded USDoL's data on services and 
outcomes for veteran job seekers paint an unclear picture of veterans' 
use of employment and training services in the One-Stop system. Despite 
the shared use of common performance measures, key employment and 
training programs vary in the extent to which their data on veteran 
participants are integrated or shared with other programs.
    GAO noted while States collect a wide range of performance data on 
services and outcomes for veterans, the data reported to USDoL do not 
currently include information on outreach to employers, a key LVER 
program activity. GAO noted it is difficult to assess outcomes over 
time, in part because of frequent changes in States' reporting 
requirements that prevent establishing reliable trend data.
    Given the performance changes for DVOPs and LVERs under JVA, NASWA 
would like further clarification on the Administration's proposed 
changes in the FY 2012 budget. Overall, the FY 2012 budget is critical 
of JVSG performance data, noting the ``the program clearly was not 
fulfilling its mandated role.'' The Administration is planning to 
operate the JVSG program differently from prior years as a result of a 
``refocusing effort.''
    This effort, according to the FY 2012 budget, resulted from a FY 
2009 analysis of JVSG performance data indicating while 79 percent of 
veteran participants received staff assisted services, only 22 percent 
of that was intensive services. The budget notes this is a concern 
because the DVOP program was established to provide intensive services 
to veterans and USDoL's analysis indicates only 17 percent of all 
veteran JVSG participants received intensive services.
    In addition, the FY 2012 budget notes it was difficult to 
differentiate the outcomes for veteran participants served by DVOPs and 
LVERs from those veterans receiving common services provided by Wagner-
Peyser staff in the One-Stop Career Centers because the JVSG had an 
Entered Employment Rate (EER) of 62 percent and an Employment Retention 
Rate (ERR) of 81 percent. The Wagner-Peyser program had an EER of 3 
percentage points lower, and had the same ERR.
    The VETS budget for FY 2012 includes a description of refocusing 
goals for service delivery. VETS say the refocused service delivery 
model will focus JVSG funded staffs on their primary role established 
in legislation by:

        <bullet>  Demonstrating the JVSG as a specialized program 
        within a State's overall umbrella of programs providing quality 
        services to veterans on a priority basis;
        <bullet>  Ensuring that veterans receive the following on a 
        priority basis from Wagner-Peyser funded staff: employment 
        self-help, mitigated self-help, staff-assisted help and, when 
        appropriate, intensive services;
        <bullet>  Increasing the numbers of veterans receiving 
        intensive services from a DVOP specialist with a corresponding 
        increase in the number of veterans entering employment after 
        receiving intensive services; and
        <bullet>  Increasing the numbers of veterans receiving 
        individualized job development services with a corresponding 
        increase in the number of veterans entering employment after 
        receiving those services.

    NASWA supports these goals and will work with its members to assist 
in meeting them. However, we are concerned with the ability to increase 
the numbers of veterans receiving intensive services from DVOP 
specialists without increases in funding. Intensive services are just 
that--intensive--and require more time and effort. There is the 
potential that increasing the number receiving intensive services could 
decrease the quality of that service or decrease core services.

B. QUESTIONS POSED BY THE SUBCOMMITTEE:
    We appreciate the opportunity to testify on this issue and address 
the questions provided in your invitation.
1.  What are the demographics of the veterans who are seeking 
        employment?
    The U.S. Department of Labor--Bureau of Labor Statistics (BLS), 
Employment and Training Administration (ETA), and Veterans' Employment 
and Training Service (VETS)--provides the official reports regarding 
the demographics of veterans.
    The most recent BLS report, Table A-5, Employment status of the 
civilian population 18 years and over by veteran status, period of 
service, and sex, not seasonally adjusted, shows as of January 2011, 
there were 21,797,000 veterans, 18 years and over, in the United 
States; of this figure slightly over 20 million were men, and almost 
1.8 million were women. Almost 11.5 million of these veterans were in 
the civilian labor force (10.2 million men; 1.2 million women). There 
were over 1.1 million veterans, 18 years and over, unemployed as of 
January 2011. The unemployment rate for veterans, 18 years and over, 
for January 2011, was 9.9 percent (10 percent for men and 9.4 percent 
for women). The unemployment rate for non-veterans, 18 years and over, 
for January 2011, was 9.6 percent (10.8 percent for men and 8.3 percent 
for women). (All figures in this paragraph are non-seasonally 
adjusted.)
    I want to emphasize a few statistics regarding services provided by 
the workforce system. In the 12-month period ending September 30, 2010, 
the workforce system served 39.9 million workers. The Wagner-Peyser 
Employment Service (ES) and Unemployment Insurance (UI) programs served 
75 percent of this total. The Employment Service served 22.5 million 
workers.
    Of this figure, almost 1.7 million were ``Veterans and Eligible 
Persons,'' or 7.5 percent of the total served by the Employment 
Service. The workforce system serves individuals who are unemployed, 
underemployed, and employed. Over 14.2 million individuals received 
staff-assisted services; of this figure, almost 1.3 million Veterans 
and Eligible Persons received staff-assisted services or 75.8 percent 
of the total Veterans and Eligible Persons registered with the 
Employment Service. Of the 1.7 million Veterans and Eligible Persons 
registered, there were almost 345,000 who received career guidance, 
almost 716,000 were assisted with job search activities, almost 575,000 
referred to employment, almost 130,000 referred to the Workforce 
Investment Act (WIA), and over 557,000 received workforce information 
services.
    Approximately 640,000 veterans were served through these programs 
in FY 2009, and the target for FY 2010, is to serve 653,000. The 
linkage of the DVOP and LVER programs to the Wagner-Peyser Employment 
Service is vital to the success of all three programs.
    In Minnesota, 303,140 individuals were served by the Employment 
Service in Program Year 2009; of this number 16,845 were Veterans and 
Eligible Persons. We provide staff-assisted services to almost 76 
percent of the Veterans and Eligible Persons.
2.  What are the 10 States with the lowest overall performance in 
        meeting the common measure goals and what suggestions does the 
        association have to improve those low performing States?
     Appendix Table 1 provides data on State unemployment rates at the 
midpoint of Program Year (PY) 2009 (December 2009) and the common 
measures of entered employment rate and employment retention rate for 
PY 2009. These rates are calculated from the number of individuals who 
are not employed at the date of participation.

        <bullet>  The entered employment rate is the percent of 
participants employed in the first quarter after exiting the program.
        <bullet>  The employment retention rate is the percent of 
participants employed the first quarter after exiting the program still 
employed in the second and third quarters after exiting the program.

    From these data one can identify the ten States with the highest 
and lowest performance in PY 2010. I am pleased to say Minnesota is in 
the top ten under both measures. For the entered employment rate, 
Minnesota ranked seventh with a rate of 56 percent. For the employment 
retention rate, Minnesota ranked first with a rate of 82 percent. I 
might add Minnesota had a comparatively low unemployment rate at the 
midpoint of program year 2009 at 7.9 percent in December 2009, which 
was well below the national average of 10.0 percent.
    I am not going to list the ``ten States with the lowest overall 
performance in meeting the common measure goals,'' because I don't 
believe one can construct such a list from these measures until they 
are adjusted for what economists call ``exogenous'' factors, that is, 
factors outside the control of the State. I have provided a measure of 
one such factor, the State economy, in the unemployment rates listed in 
Appendix Table 1 for each State.
    We estimated a simple linear relationship between State performance 
measures and State unemployment rates and found performance is 
inversely proportional to State unemployment rates. In other words, a 
State with a high unemployment rate generally will have poorer 
performance than a State with a low unemployment rate. Appendix Figure 
1 shows this estimated relationship.
    Using our estimated relationship, one sees some surprising results. 
For example, Michigan ranked second to last in the entered employment 
rate and last in employment retention rate, but when we look at our 
estimated relationship with the unemployment rate, Michigan performed 
about as one would expect given it had the highest unemployment rate at 
14.6 percent. Likewise, South Dakota ranked in the top ten on both 
performance measures, but performed about what the estimated 
relationship would suggest with its unemployment rate of 4.7 percent. I 
am proud to say Minnesota performed above what would be suggested based 
on the estimated relationship on both measures.
    Based on our concern for taking into account factors outside the 
control of the State, NASWA strongly urges the Committee and the U.S. 
Department of Labor not to compare States in a given year without 
adjusting for these factors. These factors should be taken into account 
nationally also as the economy moves through the economic cycle. 
Clearly, the program is likely to show better performance in good times 
than in bad times both at the State and national levels.
3. How any DVOPs and LVERs will the President's proposed budget support?

    The President's proposed budget for Fiscal Year (FY) 2012 for the 
Jobs for Veterans State Grants (JVSG) is $165,394,000 to support the 
DVOP and LVER staff and for other purposes, such as the Performance 
Incentive Awards. This is the same amount of funds for FY 2010, and the 
same as the estimate for FY 2011. The $165,394,000 amount does not 
include services provided by DVOPs and LVERs for TAP workshops. For FY 
2011, it was estimated that $163,678,000 will be allocated directly for 
the DVOP and LVER programs; plus $320,000 is available for Performance 
Incentive Awards. At this time any funds for FY 2011 is questionable, 
since Congress has not yet passed a budget for the remainder of the 
Fiscal Year.
    There are currently approximately 2,100 DVOPs and LVERs funded by 
the JVSG. The current level of DVOPs is about 1,130. The current level 
of LVERs is about 965. However, for both the DVOP and LVER programs, 
the actual number of individuals in these positions is higher due to 
part-time positions. The National Veterans Training Institute (NVTI) 
calculates there are about 2,325 individuals in DVOP and LVER 
positions--1,250 LVERs and 1,075 DVOPs. Typically, we would estimate 
level-funding would result in less staff due to inflation factors for 
wages, overhead, etc.; however, currently due to budget deficits, many 
States are imposing wage freezes, furloughs and other cost cutting 
measures, which might offset the effects of inflation and other 
factors.
    The services of DVOPs and LVERs are needed more than ever with the 
increasing number of recently-separated military members from the Iraq 
and Afghanistan wars. We understand the current dire budget scenario, 
and if current levels of funding are maintained, we will be grateful; 
however, we stress services to our Nation's veterans should always be a 
high priority, including the funding to provide assistance with finding 
employment and training.
    NASWA recommends language to prohibit States from imposing 
furloughs and hiring freezes on staff funded by the JVSG. Since these 
are Federal funds, any dollars saved have little positive impact on 
States' budgets. Services to our Nation's veterans should not be 
negatively impacted because of State budget problems. In fact, not 
accepting or spending these funds would seem to negatively impact a 
State's budget.
4.  How many DVOPs and LVERs have not attended training at the National 
        Veterans Training Institute (NVTI) as required by law?
    This question is best answered by USDoL Veterans' Employment and 
Training Service (VETS); however, we will provide our analysis. Under 
the 3-year training requirement, of the LVERs and DVOPs hired Pre-2006, 
there are six (6) individuals who have not received training by the 
National Veterans Training Institute (NVTI). Of those individuals hired 
in 2007, there are 15 individuals not trained. Under the 3-year 
training requirement, there are a total of 24 individuals who have not 
received training. There are currently 48 individuals hired in 2008, 
who have not received training, but there is still time left for them 
to complete training within the 3-year requirement.
    As of October 2010, the period of time for DVOPs and LVERs to be 
trained at NVTI decreased to 18 months. NVTI is currently behind on 
meeting the needed classes to provide training within the new time 
period. In March 2009, NASWA recommended an increase of $2 million for 
NVTI training; the budget for FY 2010 was increased by close to 
$500,000 and the FY 2011 request also includes this increase. NASWA 
still supports its 2009 recommendation to increase funding to meet the 
requirements of the new time period for DVOPs and LVERs to complete 
training.
    Additional funding for NVTI would afford an increase in the 
iterations of the courses offered so States may promptly train new 
staff. This would increase the effectiveness and efficiency of the 
services provided by DVOPs and LVERs, and other workforce system staff 
responsible to provide employment and training to veterans.
    Also, many States have contracted with NVTI or the National 
Learning Center to obtain onsite training within their State borders. 
These classes not only provide training for DVOPs and LVERs, but also 
to managers, supervisors, and other workforce system staff responsible 
for providing employment and training services to veterans. NASWA 
advocates for the additional funding mentioned above for NVTI to 
provide in-state classes to improve services to veterans.
5.  Which 10 States have the highest administrative overhead and what 
        are those charges?
    NASWA does not have a list of the 10 States with the highest 
administrative overhead. Each State Workforce Agency (SWA) negotiates 
with the Division of Cost Determination (DCD), U.S. Department of 
Labor, to determine a Cost Allocation Plan (CAP). The CAP negotiations 
are based on guidance from the Office of Management and Budget (OMB). 
The DCD negotiates, issues and maintains a file of indirect cost rates 
and cost allocation plans based on OMB Circular A-87.
    Each SWA must charge all indirect costs and charges within their 
CAP proportionately to each program within their facilities or 
responsibility. Indirect charges pay for such things as proportionate 
share of personnel and related charges for management and supervision 
staff (beyond direct program supervision), administrative support (i.e. 
receptionist for an office), accounting staff and services, auditing, 
budgeting, building leases, data processing, employee retirement system 
administration, legal services, mail systems, office machines, 
equipment maintenance and repairs, office space use and related costs 
(heat, light, custodial services, etc.), payroll services, local 
telephone and Internet costs, health services, etc.
    Some States do have high indirect costs. However, each State's CAP 
has been negotiated with the U.S. Department of Labor under strict 
guidelines for all programs, and each program is required to pay its 
fair share of these indirect charges. In the past several years, many 
workforce services programs have received severe reductions in funding 
levels. Yet, the funding reductions often have not been at a level 
which would result in reductions of many indirect costs.
    A prime example would be office space housing 25 staff members, 
including 2 DVOPs and 1 LVER, funded by 8 programs, including JSVG. Due 
to the elimination of a program, and reduction of staff of another 
program, the total staff has been reduced to 19, including the 3 JSVG 
staff. It would not be cost-effective to terminate the lease and move 
to a smaller office, so much of the overhead costs remain the same--
receptionist, custodian, heat, lights, etc., but now the CAP must be 
paid by the remaining 7 programs and shared proportionately for 19 
staff instead of the previous 25. The 3 JVSG staff is now responsible 
for 3/19 of the indirect costs, versus the previous 3/25. This is a 
rough example. It should be noted not all CAP charges are based on 
staff percentages; some are based on usage or another formula.
6.  What change(s) to the State grant program are needed to improve the 
        overall performance of the program?
    Thank you for the opportunity to provide recommendations to improve 
the overall performance of the DVOP and LVER programs. The following 
are the NASWA recommendations:
    a. Advocate/Promote/Educate: Today's veterans are seeking 
employment in non-traditional ways. Social media has allowed military 
members to keep up with family and friends whether stationed in war 
zones, in another country, or within the United States.
    As a result, recently-separated military members need to be reached 
in non-traditional ways. Congress, Federal agencies, including VETS, 
and States should be looking into ways to help States and local areas 
reach today's veterans.
    Education campaigns and training in the use of social media and 
networking could help veterans become more aware of their benefits and 
the value of the services available to them. Funds should be made 
available to States to promote and educate staff to assist these 
programs to better serve today's veterans and employers. The promotion 
of these services is vital to the overall performance of the programs. 
Use of public funds for ``marketing'' is often deemed inappropriate, so 
we use the terms, ``advocate,'' ``promote,'' or ``educate.''
    A June 2010 poll from the Society for Human Resource Management 
(SHRM) shows the greatest challenge veterans face in the civilian job 
market is how they translate and describe their military experience. On 
the hiring side, Human Resource (H.R.) professionals are largely 
unaware of Department of Labor (DoL) programs that help to identify 
veterans seeking civilian jobs.
    The SHRM survey asked employers, ``How familiar are you with the 
following Department of Labor (DoL) veterans' programs and have you 
used them in your organization's recruiting?'' Sixty-eight percent of 
the employers responding to the SHRM survey said they were not familiar 
with the LVER program, while 16 percent were somewhat familiar but do 
not use; seventy percent and 19 percent, respectively, said the same 
for the DVOP program. Of course, some employers may hire veterans or 
use services provided by a DVOP or LVER, but are not familiar with the 
terms used in the poll. While the poll shows that 50 percent of 
employers hiring veterans made a specific effort to recruit these 
candidates, greater awareness of military veterans as job candidates is 
needed.
    NASWA appreciates the USDoL's ``Hiring Veterans: A Step-by-Step 
Toolkit for Employers,'' and encourages the Department to provide more 
resources like it for the workforce system, employers and veterans. 
Resources and tools prepared at the National level should be developed 
in a manner to allow States and local areas to customize the resource 
to fit their local needs and to incorporate their own identification or 
brand.

    b. Translating Military Skills, Licensing, Certification, and 
Credentialing: The SHRM report also showed that well over half--60 
percent--of H.R. professionals polled said translating military skills 
to civilian job experience is a challenge to writing resumes, 
interviewing, and other related job-hunt communications. Another 48 
percent said difficulty transitioning from the structure and hierarchy 
in the military culture to the civilian workplace presented a hiring 
challenge.
    There are currently several resources available to crosswalk 
military occupational classifications (MOC) and skills with civilian 
classifications and skills. The O*NET Online Crosswalk Search, 
available at http://online.onetcenter.org/ is a good example. However, 
the ability to crosswalk skills is only the first step in the licensing 
and certification (L&C) process. Some States have initiated L&C 
programs for veterans, but many would need to begin the process.
    NASWA recommends additional fund be appropriated by Congress to 
cover the cost to implement State level L&C program. If additional are 
not appropriated for his purpose, clarification is requested to allow 
JSVG funds be used to establish and implement L&C programs as an 
allowable cost.
    NASWA recommends the Subcommittee look at the 2006 proposed 
legislation, ``The Veterans Certification and Licensure Act of 2006,'' 
and consider new legislation to fulfill the intent of the draft. The 
legislation proposed to establish a committee to report to the 
Secretary of Labor on the following items:

        (A)  ``A description of any area of employment in which a 
        credentialing or certification system for veterans exists, an 
        evaluation of the effectiveness of each such system, and 
        information on the number of eligible individuals who took 
        advantage of each such system.
        (B)  An identification of any area of employment in which a 
        credentialing or certification system for veterans could be 
        established or improved during the 18-month period beginning on 
        the date on which the report under this paragraph is submitted.
        (C)  A description of the areas of employment the Committee 
        determines are the most difficult such areas for which to 
        establish a credentialing or certification system for veterans 
        and the recommendations of the Committee with respect to 
        methods of establishing such a system for each such area.''

    Instead of creating another committee, the legislation could direct 
the Advisory Committee on Veterans' Employment, Training and Employer 
(ACVETEO) to take on this responsibility.

    c. Definition of a ``Veteran'': NASWA recommends any Congressional 
legislation should maintain the same definition of a veteran for 
reporting purposes for all Federal programs (Wagner-Peyser, JSVG 
programs, Workforce Investment Act, etc.).

    d. Partnerships: Due to the DirectEmployers Association partnership 
with NASWA to create the National Labor Exchange (NLX), many States 
have been able to significantly increase the number of jobs available 
for veterans. In some cases, there has been a 300 percent increase. 
This is an example of a partnership at the national and State level 
with a strong focus to assist veterans in obtaining employment. This 
platform provides States a tool they cannot otherwise create--a 
national level platform to which jobs are pushed down through the 
appropriate delivery systems to the local areas.

    e. Federal Contractor Job Listing Process: Despite all the recent 
improvements to the Federal Contractor Job Listing (FCJL) process, 
NASWA and its member States are still unable to identify all Federal 
contractors and subcontractors subject to 41 CFR Part 60-250 and 41 CFR 
Part 60-300.

    f. Customer Satisfaction: NASWA recommends customer satisfaction 
surveys be used and the results of those surveys should be part of the 
LVER Managers' quarterly reports. Customer satisfaction surveys are 
used for other workforce programs with varying degrees of usefulness. 
Because the LVER and DVOP programs are on a smaller scale than the 
broader workforce system, and the programs are focused on one well-
defined population, the results of such a survey should be effective in 
determining if a veteran's needs were met, and what the veteran thinks 
of the services received.

    7.  How many months of unemployment benefits may a veteran receive 
and what is the average number of months paid to veterans?
    This is another question best answered by the U.S. Department of 
Labor. The Employment and Training Administration Office of 
Unemployment Insurance (OUI) is the Federal entity responsible for 
unemployment insurance benefits.
    For Program Year 2009, ending June 30, 2010, there were 1,674,034 
Veterans and Eligible Persons who were registered with the workforce 
system. Of that number, 730,596 Veterans and Eligible Persons were 
eligible for Unemployment Insurance (UI). Any veteran who has earned 
wages from private or public employment is eligible for UI if they 
earned sufficient wages in a qualifying period and are eligible
otherwise.
    There are Federal laws regulating the UI system, but most UI 
criteria are determined by each State in either State law or policy. 
Most States pay individuals who had steady employment history a maximum 
of 26 weeks. Currently there are several extensions of UI benefits 
providing up to a total of 99 weeks in States with very high 
unemployment rates. The maximum benefit amount of UI payments varies by 
State.
    The Unemployment Compensation for Ex-servicemembers (UCX) program 
provides benefits for eligible ex-military personnel. The program is 
administered by the States as agents for the Federal Government. The 
UCX benefits are available for recently-separated military members, who 
were separated under honorable conditions, and have wages paid by the 
military during a base period determined by the State, typically the 
first 4 of the last 5 completed calendar quarters. The benefit costs 
are covered by the respective branch of the military. The law of the 
State under which the UCX claim is filed determines the benefit 
amounts, number of weeks that can be paid, and other eligibility 
conditions.
    For the year ending December 31, 2010, the estimated average number 
of weeks claimed for a UCX claim was 21 weeks, compared to the total 
Unemployment Insurance (UI) average of almost 19 weeks. These figures 
are a few weeks higher than in past years, a reflection of the Great 
Recession.
    It is estimated that six out of ten veterans exhaust their regular 
UCX claims, compared to slightly over one-half of all claimants who 
exhaust their regular State claims. Both the UI and UCX exhaustee rates 
are significantly higher than in past years, again a reflection of the 
poor economy during the Great Recession. All numbers and percentages 
apply only to regular UI programs and do not include any extended 
benefits.
    NASWA and its members remain dedicated to improving the efficiency 
of the labor market and its labor exchange function, and improving the 
employment opportunities of our Nation's veterans. We are willing to 
assist the Subcommittee and the U.S. Department of Labor in any way 
possible to improve services to veterans.
    Thank you for the opportunity to address these important issues.

                               __________


                            Appendix Table 1:
------------------------------------------------------------------------
                                            Veterans
       State         Unemployment Rate      Entered         Employment
                         (Dec. 09)      Employment Rate   Retention Rate
------------------------------------------------------------------------
Alabama                            11               51               78
------------------------------------------------------------------------
Alaska                            8.8               46               77
------------------------------------------------------------------------
Arizona                           9.1               41               72
------------------------------------------------------------------------
Arkansas                          7.7               52               77
------------------------------------------------------------------------
California                         12               35               72
------------------------------------------------------------------------
Colorado                          7.5               44               73
------------------------------------------------------------------------
Connecticut                       8.9               39               71
------------------------------------------------------------------------
Delaware                            9               38               73
------------------------------------------------------------------------
DC                               12.1               42               73
------------------------------------------------------------------------
Florida                          11.8               45               76
------------------------------------------------------------------------
Georgia                          10.3               43               71
------------------------------------------------------------------------
Hawaii                            6.9               34               71
------------------------------------------------------------------------
Idaho                             9.1               53               79
------------------------------------------------------------------------
Illinois                         11.1               46               75
------------------------------------------------------------------------
Indiana                           9.9               46               76
------------------------------------------------------------------------
Iowa                              6.6               57               72
------------------------------------------------------------------------
Kansas                            6.6               57               80
------------------------------------------------------------------------
Kentucky                         10.7               49               75
------------------------------------------------------------------------
Louisiana                         7.5               53               76
------------------------------------------------------------------------
Maine                             8.3               47               77
------------------------------------------------------------------------
Maryland                          7.5               50               78
------------------------------------------------------------------------
Massachusetts                     9.4               43               70
------------------------------------------------------------------------
Michigan                         14.6               35               67
------------------------------------------------------------------------
Minnesota                         7.4               56               82
------------------------------------------------------------------------
Mississippi                      10.6               45               68
------------------------------------------------------------------------
Missouri                          9.6               54               77
------------------------------------------------------------------------
Montana                           6.7               59               78
------------------------------------------------------------------------
Nebraska                          4.7               51               80
------------------------------------------------------------------------
Nevada                             13               47               71
------------------------------------------------------------------------
New Hampshire                       7               48               78
------------------------------------------------------------------------
New Jersey                       10.1               43               74
------------------------------------------------------------------------
New Mexico                        8.3               45               73
------------------------------------------------------------------------
New York                            9               51               75
------------------------------------------------------------------------
North Carolina                   11.2               40               71
------------------------------------------------------------------------
North Dakota                      4.4               62               82
------------------------------------------------------------------------
Ohio                             10.9               39               69
------------------------------------------------------------------------
Oklahoma                          6.6               51               77
------------------------------------------------------------------------
Oregon                             11               45               77
------------------------------------------------------------------------
Pennsylvania                      8.9               44               75
------------------------------------------------------------------------
Rhode Island                     12.9               39               72
------------------------------------------------------------------------
South Carolina                   12.6               49               77
------------------------------------------------------------------------
South Dakota                      4.7               57               79
------------------------------------------------------------------------
Tennessee                        10.9               48               75
------------------------------------------------------------------------
Texas                             8.3               53               81
------------------------------------------------------------------------
Utah                              6.7               58               81
------------------------------------------------------------------------
Vermont                           6.9               48               76
------------------------------------------------------------------------
Virginia                          6.9               52               80
------------------------------------------------------------------------
Washington                        9.5               48               77
------------------------------------------------------------------------
West Virginia                     9.1               51               78
------------------------------------------------------------------------
Wisconsin                         8.7               49               79
------------------------------------------------------------------------
Wyoming                           7.5               53               77
------------------------------------------------------------------------


                           Appendix Figure 1:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                 Prepared Statement of John L. Wilson,
   Assistant National Legislative Director, Disabled American Veteran
    Mr. Chairman and Members of the Subcommittee:
    On behalf of the 1.2 million members of the Disabled American 
Veterans (DAV), I am honored to present testimony to the Subcommittee 
today and comment on programs insofar as they are in accordance with 
DAV's dedication to one, single purpose-- building better 
lives for all of our Nation's disabled veterans and their families.
    Under consideration in today's oversight hearing is the President's 
Fiscal Year 2012 budget as it relates to the U.S. Department of Labor's 
(DoL) Veterans' Employment and Training Service (VETS). I am pleased to 
have this opportunity to present our views on this important issue.
    The VETS is positioned to provide critical resources to our 
Nation's veterans. Today's continued unemployment problems underscore 
the need for a properly funded program, and effective and well-trained 
staff.
    Diane Swonk, economist, author, and advisor to the Federal Reserve 
Board and White House Council of Economic Advisers commented in the 
spring 2011 USAA Magazine that the job crisis we are in will likely be 
with us through 2011.

       A recovery from a financial-crisis recession is inherently more 
difficult than a recovery from a regular recession. The effect on jobs 
is dismal. It will likely. take until 2013 to recoup the jobs lost to 
the recession as we struggle with subpar growth. The only silver lining 
is that it could have been worse, especially in light of the magnitude 
of the crisis, but that provides little solace for the record number of 
people who have already been unemployed for a record length of time.

    Job growth is returning, but it is very slow. Meanwhile, population 
growth still brings more than 100,000 new job seekers into the 
workforce each month. The economy has to create enough new jobs to 
employ new workers before making a dent in unemployment. As 2010 winded 
down, the economy was only creating enough jobs to keep up with 
population growth, causing the unemployment rate to stagnate. Many 
economists expect more of the same in 2011.
    A review of the January 2011 Bureau of Labor Statistics economic 
news release finds an unemployment rate of 9.9 percent generally for 
veterans and 15.2 percent for more recent veterans, those who served 
from September 2001 to present. Breaking the data down further by 
gender, finds males have an unemployment rate of 15.2 percent and 
females of 13.5 percent for this same group of veterans. A February 17, 
2011, article in USA Today titled Female Veterans Struggle In Jobs 
Market, by Meena Thiruvengadam, highlights the unemployment issue for 
women veterans of the wars in Iraq and Afghanistan which rose to 13.5 
percent in January, above the 8.4 percent that was the seasonally 
unadjusted average for non-veteran adult women. And while the overall 
unemployment rate declined last year, unemployment among women veterans 
of the latest wars was more than 3 percentage points higher in December 
2010 than in December 2009.
    Women, whose presence in the military has been climbing over the 
past decade, now account for 1.8 million, or about 8 percent of 23 
million U.S. veterans, according' to the latest statistics from the 
Department of Veterans Affairs (VA). However, their transition from the 
military seems tougher than male veterans. The reasons for this may 
include a Veterans Affairs system that doesn't adequately meet women's 
specialized health care, child care and psychological needs; the 
traditional role among women to serve as primary caregivers for 
children; and a civilian sector that may not fully understand the role 
of women in today's military.
    As women transition out of the military today, many are turning to 
VA for care. The current rate of enrollment of women in VA health care 
constitutes the largest of any subset of veterans. According to VA, 
from FY 2002 to the first quarter of FY 2010, approximately 50 percent 
of 133,000 OEF/OIF women veterans utilized VA health care, with nearly 
51 percent of whom were treated through making 11 or more outpatient 
visits during the past fiscal year.
    The Independent Budget veterans service organizations (IBVSOs) 
remain concerned about the fragmentation of care and disparities in 
care that exist for women using the VA health care system, and we 
continue to encourage VA to fully address the unique healthc are needs 
of women veterans who have returned from deployments, and to continue 
to conduct biomedical and health services research initiatives to gain 
broader understanding of women's needs in VA health care, including 
outcomes, quality, satisfaction, barriers to care, and other important 
challenges.
    Whether female or male, given the plans of both the Army and Marine 
Corps to cut troop strength by 47,000 depending on the operational 
requirements of the current conflicts in Iraq and Afghanistan, such 
cuts will likely accelerate discharges of more veterans who will be 
looking for jobs. Many will present military skills that do not easily 
transfer into the civilian world.
    The transferability of skills gained in the military has long been 
a concern of the DAV and the IBVSOs. We believe that more must be done 
to ensure that our highly trained and qualified servicemembers do not 
face unnecessary barriers as they transition from the military to 
civilian life. We recommend that the Departments of Defense, Labor, and 
Veterans Affairs work with employers, trade unions, and licensure and 
credentialing entities to promote developing the means for military 
personnel to receive the necessary civilian equivalency to their chosen 
career fields when receiving military education and training, thus 
honoring their military service and allowing them to more easily 
transition into a civilian occupation without the need for complex and 
duplicative training or apprenticeships. We look forward to monitoring 
the implementation of these recommendations and future program 
improvements.
    As unemployment continues to negatively impact veterans, we must 
review current practices and consider new ways to address them. To 
assist veterans in achieving economic security, both those 
transitioning out of the military and those already in the veterans 
population, VA provides education, training, employment, 
entrepreneurship, homelessness interventions and housing assistance' 
through a number of programs and offices. We believe that reorganizing 
economic-related programs into a single entity, the Veterans; Economic 
Opportunity Administration (VEOA), would not only create new 
opportunities for greater collaboration, but would provide greater 
focus and stronger oversight and accountability of these programs. 
Consolidation also would relieve some of the burden on the Veterans 
Benefits Administration (VBA), an organization that already faces 
significant challenges in reforming its fractured claims adjudication 
system.
    The VEOA would be on a par with the Veterans Health Administration, 
VBA and the National Cemetery Administration. It would be led by an 
Under Secretary for Veterans Economic Opportunity and would be 
responsible for vocational rehabilitation and employment, educational 
assistance, veterans'' entrepreneurship, home loan and homeless 
veterans assistance programs.
    The VEOA would also serve as the single point of inter-agency 
exchange regarding programs that are administered for veterans outside 
of the VA, such as DoL's VETS, and similar programs in other 
departments and agencies.
    The funding of VETS ensures employment and training services are 
available for eligible veterans through the Jobs for Veterans State 
Grants (JVSG) program. Funds are allocated to State workforce agencies 
through this grant program in direct proportion to the number of 
veterans seeking employment within their States. Those JVSG funds 
support Disabled Veterans' Outreach Program Specialists (DVOPs) and 
Local Veterans' Employment Representatives (LVERs), staff positions in 
State workforce agencies. These employment services include assisting 
transitioning servicemembers, their spouses and also employers 
interested in hiring veterans.
    DVOPs provide intensive employment services to disabled veterans 
with an emphasis on those who are economically or educationally 
disadvantaged, including homeless veterans. DVOPs are actively involved 
in outreach efforts to increase program participation among those 
facing the greatest barriers to employment. In an effort to provide 
assistance, they visit VA Vocational Rehabilitation and Employment 
Program offices, VA Medical Centers, veterans service organization 
meetings; Native American trust territories; military installations and 
other sites known to have concentrations of veterans or transitioning 
servicemembers.
    LVERs conduct outreach to employers and engage in advocacy efforts 
with hiring managers in an effort to increase employment opportunities 
for veterans generally, encourage the hiring of disabled veterans 
specifically, and assist veterans in gaining and retaining employment. 
LVERs hold seminars for employers and conduct job search workshops for 
veterans seeking employment. The also facilitate priority of service 
for veterans seeking employment, training, and placement services 
through State workforce agencies.
    To meet the specific needs of veterans, to include veterans with a 
significant impairment in their ability to prepare for, obtain or 
retain employment consistent with their abilities, aptitudes and 
interests, DVOPs and LVERs are expected to be familiar with the full 
range of job development services and training programs available at 
the State workforce agency ``One-Stop Career Centers'' and VA's 
Vocational Rehabilitation and Employment program locations.
    In reviewing the FY 2012 budget request as it relates to the VETS 
State Grants budget, which funds the aforementioned DVOP and LVER 
positions, a straight line funding request is noted from FY 2010 to FY 
2012 of $165.4 million. Given their current economic circumstances and 
likelihood that a complete recovery to pre-recession employment levels 
will be slow, we believe the JVSG program funding should be increased 
to ensure sufficient staff are on board to provide the necessary 
services for a growing population of unemployed veterans.
                                FY 2012
                   CONGRESSIONAL BUDGET JUSTIFICATION
               VETERANS' EMPLOYMENT AND TRAINING SERVICE


------------------------------------------------------------------------
   SUMMARY BUDGET AUTHORITY AND FTE BY ACTIVITY (Dollar in Thousands)
-------------------------------------------------------------------------
                                FY 2010      FY 2011 Full     FY 2012
                                Enacted       Year C.R.       Request
                            --------------------------------------------
                              FTE   Amount   FTE   Amount   FTE   Amount
------------------------------------------------------------------------

State Grants---------------------0--165,39------0--165,39------0--165,39
                                         4              4              4
------------------------------------------------------------------------
Unemployment Trust Funds         0  165,39      0  165,39      0  165,39
                                         4              4              4
------------------------------------------------------------------------

    The next area to address is the funding of the National Veterans' 
Employment and Training Service (NVETS) contract program of the VETS. 
This program oversees the National Veterans Training Institute (NVTI). 
The NVTI was established in 1986 and is administered by the University 
of Colorado at its Denver campus, and at selected sites in the U.S. and 
abroad. NVTI provides specialized training in veterans' employment 
including employment service personnel, VETS and State staff, 
Department of Defense personnel and others. To date over 50,000 
veterans' employment and training professionals have attended NVTI 
training, the only institute providing this training in the United 
States.
    Of the more than 2,000 DVOP/LVER positions nationwide, 
historically, the annual turnover rate has exceeded 20 percent. This is 
attributed to veterans initially entering a State's employment system 
as a DVOP or LVER and eventually finding another position within the 
State government at higher salaries. This turnover consequently 
requires new candidates to be trained by NVTI. The DVOP and LVER 
positions are crucial because they are often the first support contacts 
newly discharged veterans will have as they make the difficult 
transition to civilian life.
    Because of inadequate funding, the NVTI has performed its 
responsibilities over the past 2 years with a staff shortage of at 
least two to three full-time staff members in Denver. This shortage has 
limited its ability to fulfill additional training requests of VETS and 
to travel to conduct training in the field . Currently all classes for 
FY 20 II are scheduled and have staff assignments. However, under 
Public Law 111-275, the Veterans Benefits Improvement Act of 2010, all 
DVOPs and LVERs are to be trained at NVTI within 18 months of being 
hired, instead of the prior standard of 36 months. Consequently, the 
NVTI will not be able to meet the is shortened training requirement 
without additional staff. We urge DoL to ensure funding of NVTI will be 
sufficient to meet this new Congressional mandate.
    Although the next topic is scheduled for a future budget hearing, I 
would like to briefly address VETS' redesign of the Transition 
Assistance Program (TAP), replacing the old program developed more than 
20 years ago. This new program may require additional training and 
support from the NVTI. As VETS redesigns TAP and searches for new 
avenues to assist veterans with employment, having the option of 
requesting support from NVTI would be invaluable. It's imperative that 
NVTI have the funding to provide not only training as currently 
constructed but also in new ways and to allow VETS to meet its 18-month 
training obligation under Public Law 111-275.
                                FY 2012
                   CONGRESSIONAL BUDGET JUSTIFICATION
               VETERANS' EMPLOYMENT AND TRAINING SERVICE


------------------------------------------------------------------------
   SUMMARY BUDGET AUTHORITY AND FTE BY ACTIVITY (Dollar in Thousands)
-------------------------------------------------------------------------
                                FY 2010      FY 2011 Full     FY 2012
                                Enacted       Year C.R.       Request
                            --------------------------------------------
                              FTE   Amount   FTE   Amount   FTE   Amount
------------------------------------------------------------------------
National Veterans'               0   2,449      0   2,449      0   2,449
 Employment and Training
 Service Institute
------------------------------------------------------------------------
Unemployment Trust Funds         0   2,449      0   2,449      0   2,449
------------------------------------------------------------------------

    Adequate funding will ensure DVOPs and LVERs are available to 
deliver services to veterans. DAV has expressed concern in the past and 
do so again today, in accordance with DAV Resolution 234, regarding 
using these professionals to provide services outside of their areas of 
expertise. Many State employment agencies are utilizing DVOPs and LVERs 
to work on public assistance-related programs. This practice diverts 
these personnel from their prime mission, which is to assist veterans 
with their employment and training needs. These professionals' primary 
focus must be on the delivery of benefits to eligible veterans as 
required in the VETS State Grants program. Every effort must be made to 
ensure their first priority is assisting veterans.
    While we are concerned about the proper utilization of DVOPs and 
LVERs, we must also address their effectiveness when delivering those 
benefits. A review of the Detailed Workload and Performance table on 
page 71 of the FY 2012 Congressional Budget Justification for VETS 
finds target performance measures to provide services to veterans and 
disabled veterans. Of the 653,000 veteran participants in Performance 
Year (PY) 2010 and FY 2011, the Performance Measure 1 target was 56 
percent of the group finding employment. However, only 46.2 percent 
were successful according to this measure. In PY 2008 and 2009, the 
target was 62.5 percent. Performance Measure 4 focuses on disabled 
veteran participants with a target of 51.8 percent for PY 2010 and FY 
2011. However, only 43.9 percent were successful in finding employment 
as a result of the measure. What is concerning is that the PY/FY 2012 
target for Performance Measures 1 and 4 are to be reduced from 56 
percent to 45.2 percent and from 51.8 percent to 42.1 percent 
respectively.

                              STATE GRANTS


------------------------------------------------------------------------
                    DETAILED WORKLOAD AND PERFORMANCE
-------------------------------------------------------------------------
                               FY 2010/   PY 2009/   FY 2011     PY/FY
                               FY 2011    FY 2010  -----------    2012
                             ----------------------           ----------
                                Target     Result     Target     Target
------------------------------------------------------------------------

Workload Item #1--Number of-----653,000----624,000----624,000----624,000
 Participants
------------------------------------------------------------------------
Performance Measure #1--         56.00%     46.20%     44.80%     45.20%
 Percent of Veteran
 participants employed in
 the first quarter after
 exit
------------------------------------------------------------------------
Performance Measure #4--         51.80%     43.90%     41.70%     42.10%
 Percent of Disabled Veteran
 participants employed in
 the first quarter after
 exit
------------------------------------------------------------------------

    We also note on page 71 of the same document, that the FY 2012 
program is expected to operate differently as a result of refocused 
staff efforts. Particularly concerning was the analysis that showed 
only 17 percent of participants received intensive employment services. 
This refocusing effort will result in providing more intensive services 
to those who likely will have the most favorable outcomes, plus 
veterans who are older, disabled or recently separated.
    While we are interested in improvement of services through a 
refocused effort, we are concerned about the proposed reduction in 
performance standards for FY 2012. For example, what data were used to 
support a reduction in this performance measure? Given the investment 
by our Nation in training these veterans when they were on active duty 
and now through the State Grants program, would it not seem more 
reasonable to focus on increasing the performance measure targets, not 
decreasing them?
    That concludes my testimony. I would be glad to answer any 
questions you may have.

                                 <F-dash>

           Prepared Statement of Raymond C. Kelley, Director,
 National Legislative Service, Veterans of Foreign Wars of the United 
                                 States
    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE:
    On behalf of the 2.1 million men and women of the Veterans of 
Foreign Wars of the U.S. (VFW) and our Auxiliaries, I would like to 
thank you for the opportunity to testify today. The VFW is pleased that 
this Committee is examining the function of the Veterans' Employment 
and Training Service (VETS) program. The Disabled Veterans' Outreach 
Program (DVOP) specialists and the Local Veterans' Employment 
Representatives (LVER) staff are intended to be the frontline, 
community-based force that is the conduit between employers and 
veterans. This conduit must be viable and effective.
    The VETS annual budget is $261 million. They are broken down into 
six accounts, they are:

    <bullet>  State Grants program: These grants will support the State 
Workforce Agencies by employing 2,117 DVOPs and LVERs in FY 2012, to 
provide employment assistance to veterans.
    <bullet>  Federal Administration: The Federal employees are tasked 
with the oversight of the VETS programs, investigating USERRA and 
veterans' preference claims and education and outreach regarding USERRA 
and veterans' preference.
    <bullet>  Veterans Workforce Investment Program: This is a 
community-based program that has awarded grants that range from 
$270,000 to $500,000 per year to provide transition and employment 
assistance to veterans within their communities. In FY 20 I0, VETS 
funded 22 programs.
    <bullet>  National Veterans' Employment and Training Service 
Institute: Operated through the National Learning Center at the 
University of Colorado, Denver, the institute provides 26 courses aimed 
at providing job-specific skills training for veterans' employment 
specialists.
    <bullet>  Homeless Veterans Reintegration Program: Awards grants in 
five key areas to help homeless veterans receive job skills training. 
These programs are community-based. It is expected that these grants 
will provide funding for 162 programs and assist nearly 27,000 
veterans.
    <bullet>  Transition Assistance Program: In 2010, as a supplement 
to the traditional TAP program, an Employment Workshop program added a 
two and one-half day workshop for transitioning veterans and their 
spouses. The workshop includes procedures for obtaining verification of 
job skills and experience, civilian workplace requirements, employment 
and training opportunities and resume, application, and standard forms 
preparation.

    The VFW views veterans' employment as one of its top priorities, 
and maintains a national resolution providing our support for a 
``viable and effective veterans' employment and training system'' and 
that the ``program must be held accountable for the effectiveness of 
the services provided.'' This hearing is just the beginning of 
determining the effectiveness of the VETS programs and what should be 
done to improve the employment services for veterans.
    The Grants Program absorbs a large majority of the VETS budget, 
$165.4 million. VFW has identified several issues that have caused the 
program to lack efficiency and effectiveness.

    <bullet>  The method that is used to determine the amount of 
funding that will be provided to each State appears to present a 
reverse incentive for productivity.
    <bullet>  Many of the services provided by DVOPs and LVERs are 
duplicative in nature.
    <bullet>  Ill-defined job descriptions have caused DVOPs and LVERs 
to focus on tasks that should be performed by others.
    <bullet>  Difficulties in oversight and performance measures 
development and adherence has made accountability difficult at best.
    <bullet>  Poor outreach to the veteran community impacts awareness 
and participation.

    Funding for DVOPs and LVERs is based on a formula that averages two 
ratios. The first is the number of unemployed in each State compared to 
the number of unemployed nationally, and the second is the number of 
veterans who are employed in each State compared to the number of 
veterans who are employed nationally. With these ratios, percentages 
are determined and funding distributed to the States. This method 
provides less funding for high performing States. VFW regards this 
funding method as a reverse incentive. If States are being funded and 
DVOPs and LVERs are hired and retained though this method, it is easy 
to see that changing the ratio of employed veterans in the State will 
change the percentage of funding provided though the grant. So, 
improving veterans' employment will reduce the amount of funding 
received and jeopardize the number of DVOPs and LVERs a State can 
employ. This funding method must be reviewed to ensure DVOPs and LVERs 
are incentivized to assist veterans, and not weigh increased 
productivity as a threat to preserving their own jobs.
    One percent of the grant funding is reserved for work incentives. 
Current work incentive awards are based on improving the provisions of 
services in general and not necessarily on employment outcomes. Also, 
more than one-third of all States will not allow work incentives to go 
to employees due to State policy restrictions or union agreements. 
These incentives must be tied to performance and all employees must be 
included in the incentive program.
    The majority of DVOPs and LVERs are co-located with other program 
providers at State workforce One-Stop Career Centers. There are at 
least twelve other State Workforce Agency-funded programs that provide 
priority to veterans, and provide similar and often the same services 
as the DVOPs and LVERs. The Wagner-Peyser program, which was amended in 
1998, provides job-seeker assistance through job referrals, recruitment 
service with employers, arranging job fairs, identifying job skill 
gaps, and directing potential employees to training. These services 
closely reflect many of the services provided by LVERs. The overlap and 
nearly equal effectiveness of these services is seen when the data from 
DVOPs and LVERs is compared to the data from the Wagner-Peyser funded 
program. The Entered Employment Rate (EER) and the Employment Retention 
Rates (ERR) are within 3 percent of each other. These programs must be 
reviewed for overlap of services to ensure finite resources can be 
better utilized.
    Also, VETS and VA's own Vocational Rehabilitation and Employment 
(VR&E) program have a Memorandum of Agreement (MOA) in place to reduce 
redundancy. It is unclear to VFW if this MOA has truly reduced 
duplication or if it is an effective method of providing services to 
disabled veterans. VFW requests a review and evaluation of this MOA to 
ensure its effectiveness in reducing redundancy and its efficiency in 
providing the highest quality job training and placement for our 
disabled veterans.
    The intent of the DVOP program is to provide intensive services for 
veterans who have employment barriers. These barriers can include 
disabilities, long periods of unemployment, and incarceration. However, 
the performance data that was collected in FY 2009 found DVOPs provided 
intensive services only 17 percent of the time. Performance reporting 
also shows that DVOPs are conducting LVER-type job duties. LVERs are 
tasked to build relationships with local employers and connect them 
with veterans who are entering the job market, as well as provide 
briefings at Transition Assistance Program (TAP) events. But it appears 
that LVERs are also assisting veterans who should be seen by DVOPs. 
Both DVOPs and LVERs assist in conducting TAP briefings, a job that is 
intended for LVERs. VFW suggests a study be conducted to identify the 
difference between the currently defined scope of work and the actual 
work that is conducted by DVOPs and LVERs to ensure that time and 
resources are being used as intended.
    Oversight of VETS is critical. The Secretary of Labor must submit 
his or her annual reports in a timely manner, as specified by Chapter 
41, title 38. Also, DoL must also apply performance standards that 
truly judge the effectiveness of the VETS grants. Without proper 
standards in place, we will never know what is working and what is not.
    A 2007 Employment History Report, conducted for V A by Abt 
Associates, found that only 21 percent of recently separated veterans 
used any type of employment assistance from State employment agencies. 
The majority, 51 percent, used Internet job searches. Veterans must be 
made aware of the services that are available to them in their local 
community. If only l-in-5 training or job seeking veterans use DVOPs 
and LVERs, there must be a large communication barrier between the 
program and veterans. VFW believes more emphasis must be placed on 
explaining these services during TAP briefings, as well as in the local 
communities where the DVOPs and LVERs provide services.
    The 227 employees of VETS' Federal Administration have a wide range 
of responsibilities, starting with investigating approximately 1,500 
Uniformed Service Employment and Reemployment Rights Act (USERRA) 
violations and nearly 700 veterans' preference claims each year. 
Education and outreach on USERRA and veterans' preference reaches 
roughly 106,000 individuals, as well. VETS reports they have nearly 
reached their strategic goal of closing 87 percent of all USERRA 
investigations within 90 days. However, there is no indication within 
these strategic goals of the outcome of the investigations. VFW would 
like to see a USERRA strategic goal that tracks investigation outcomes 
of suspected employment violations.
    VETS also oversees the TAP Employment Workshops and National 
Veterans Training Institute (NVTD. I will discuss these programs later 
in my testimony.
    The Federal Administration also conducts oversight of the Jobs for 
Veterans State Grant, the Homeless Veterans' Reintegration Program, and 
the Veterans' Workforce Investment Program (VWIP). Their 
responsibilities for these programs are the same: To make site visits, 
provide technical assistance on operations of the grants, and to review 
the grant plans and financial and operational reports. Currently, there 
are 236 grant recipients, and VETS' strategic goals reflect a 100-
percent achievement on all three programs. However, there are no 
strategic goals that reflect how effective these programs have been. 
VFW suggests that performance measures be developed to better track 
success, and to use those results to determine the continuation of 
existing grant 
awards, as well as to build best practices for future award recipients.
    VFW conducted a phone survey over the past week with grant 
recipients of the Veterans' Workforce Investment Programs. Many of the 
grantees also receive grants from VETS through the homeless veterans 
program as well. In some cases, grant recipients were given as much as 
$500,000, but only provided services for 70 or fewer veterans. This is 
a cost per participant of more than $7,000. In other cases it appears 
that grantees are performing much better, providing services for 200 or 
more veterans, which brings the cost per participant down to DoL's 
reported $1,700. However, it is unclear to VFW how reporting of veteran 
participation within programs that are awarded multiple grants through 
different VETS' grant programs are separated. Do reports show how many 
different veterans are helped though which grant or do they report, as 
an example, 100 veterans being helped though the workforce grant and 
100 veterans being helped though the homeless grant, even though it 
uses the same 100 veterans? When combining the total grant awards just 
from VETS, organizations received up to $1.4 million dollars. If this 
is the case, those that are providing services to 300 veterans though 
the Workforce grant and Homeless grant combined would have a cost per 
participant of $4, 100 per veterans served, and the number becomes much 
worse for organizations that assist 70 or fewer veterans. It must be 
made clear in their reporting of how many veterans are served by each 
grant.
    VETS does conduct annual site visits of all VWIP and HVRP grant 
recipients. However, there are no strategic goals in place to report on 
the productivity of the grantees' programs. VFW believes that VETS must 
establish and report on performance measures that show the productivity 
of these programs, and funding must be discontinued for programs that 
are not reaching those performance goals.
    The National Veterans Training Institute provides training to 
veteran employment and transition service providers. There are 
currently 26 courses offered that can be provided on-site as part of a 
conference or meeting, or as a stand-alone class. Many of these courses 
can also be provided online, which reduces cost. These courses are 
critical to the function of DVOPs and LVERs; however, there is no 
testing involved ensuring that participants truly understand the 
information. In a phone interview with NVTI, it was stated that the 
programs are set up to allow participants to absorb as much information 
as they can. This concerns VFW. It is obvious that training is 
important so the best services can be provided to veterans, but without 
ensuring the information is retained, we are doing our veterans a 
disservice. VFW believes it is critical that an information retention 
assessment must be preformed for two reasons: First, to make sure those 
taking the classes understand the information and secondly, to see if 
there needs to be improvements in the delivery of the material.
    The Veterans Homelessness Reintegration Program (HVRP) provides 
grants for six assistance categories: General homeless veterans, 
homeless female veterans and homeless veterans with families, 
incarcerated veterans, technical assistance, and stand downs. In FY 
2012, HVRP will grant 162 awards ranging from $83,000 to $750,000. 
Nearly all of the award recipients in the Veterans Workforce Investment 
Program also receive grants from HVRP. As stated, it is unclear to VFW 
whether grantees differentiate between grant awards when reporting the 
number of veterans assisted through this and other grant awards. Also, 
there are no strategic goals that report on grantees' performance. The 
end goal of the HVRP is to provide training and employment 
opportunities for homeless veterans. VFW suggests that performance 
measures be established to identify the number of veterans who gain 
employment through these grant programs, as well as clarify the number 
of veterans helped by removing any duplication of veterans served 
between grant programs.
    The TAP program has been expanded and improved with the recent 
addition of the Employment Workshop program. In FY 2010, VETS was 
funded and served nearly 130,000 transitioning servicemembers and their 
spouses at more than 4,000 workshops. VFW suggests that performance 
measures and post-workshop surveys be developed to ensure positive 
outcomes for the veterans who use this program. VFW also recommends 
that this program be expanded to serve more transitioning 
servicemembers as well as veterans who have already left the service.
    VFW believes the intent of VETS is necessary in helping veterans 
transition from military service to civilian life. However, if the 
program isn't reaching the outcomes that are intended, we must look at 
the entire process, evaluate the effectiveness and efficiency and make 
the necessary changes to provide effective job skills training and 
career placement of our Nation's veterans. There must also be an 
examination of the duplicative nature of the VETS grants and other DoL 
grants that are in place to achieve the same goals.
    Mr. Chairman, this concludes my statement. I would be happy to 
answer any questions that you or the Members of the Committee may have.

                                 <F-dash>
                Prepared Statement of Robert W. Madden,
   Assistant Director, National Economic Commission, American Legion
                           Executive Summary
    The American Legion sees the current economic downturn and the 
recently released numbers of unemployed veterans, as an opportunity for 
the Federal Government to provide the transitional services that 
disabled and recently returning veterans so need in this financial 
climate. The necessity for proper training and career guidance is ever 
present with our Nation's heroes and with the responsibility is a need 
for proper implementation.
    The Department of Labor (DoL) Veterans' Employment and Training 
Services provides the training and outreach for veterans who are 
seeking employment. This essential mission is provided through the Jobs 
for Veterans State Grant Program. The American Legion contacted various 
States in order to get a glimpse into how each State implements their 
own program and the challenges they may face. These contacts 
underscored an overall lack of consistency and implementation including 
various open positions for DVOP/LVER's, lack of funding for the 
program, limited resources provided to eligible veterans and 
questionable responsibilities and duties of each DVOP/LVER.
    Furthermore, based on budget justification provided by DoL and 
performance indicators, The American Legion questions the continued 
funding and support of State grants to recipients either not fully 
compliant with or held accountable to the standards and guidelines of 
the Federal law.
    The American Legion suggests recommendations to better assist the 
States and to provide the best resources to veterans who are eligible 
for this program.

    <bullet>  Appropriate $166 Million for the State Grant Program.
    <bullet>  Transfer all DVOPs and LVERs from the State Agencies to 
DoL-VETS for supervision and oversight.
    <bullet>  Provide adequate oversight and scrutiny to guarantee 
grants are meeting the requirements and provisions of existing laws.
    <bullet>  GAO conduct an investigation and review of the Jobs for 
Veterans State Grant Program to investigate the inconsistencies of the 
program.

    The American Legion believes a thorough and proper investigation 
into multiple States will provide DoL-VETS with the information they 
need in order get the program back on track and provide veterans with 
the best possible service they so dilly deserve.
                               __________
    Mr. Chairman and Members of the Subcommittee, The American Legion 
thanks you for this opportunity to present its views on fiscal year 
(FY) 2012 budget issues regarding the State Grant Program for 
Department of Labor Veterans' Employment and Training Service (VETS).
    The mission of VETS is extremely critical and timely. Veterans of 
the Iraq and Afghanistan wars face unemployment at a rate of over 15 
percent, two thirds higher than the national average, according to 
figures released in February by the Bureau of Labor Statistics (BLS). 
The problem is also getting worse. The same statistics from BLS noted 
that the rate of only a year ago was 12.6 percent. To stem the growing 
tide of veteran joblessness requires immediate and decisive action. The 
American Legion urges Congress to adequately fund veterans' employment, 
training and placement programs so well-deserving veterans can 
successfully transition to their civilian careers after they complete 
their military service.
    The VETS program is essential for its unique mission to serve both 
the employer and the veterans seeking employment within that community. 
For some veterans this assistance is important because they served in 
the combat arms and they possess military skill sets employers do not 
realize are readily transferable to the civilian labor market. For 
others, this assistance helps leverage the significant ``soft skills'' 
acquired through service in the areas of leadership, strategic 
planning, risk assessment and management. The essential role of the 
VETS State grant program combines these to demonstrate to the employer 
the skills of the veteran and assist the veteran in exhibiting his/her 
unique background to a prospective employer.

JOBS FOR VETERANS STATE GRANT PROGRAM
    The DoL-VETS Jobs for Veterans State Grant Program (VSGP) was 
funded $165 million for FY 2010 and the continuing resolution currently 
funds the program at $166 million. The President's budget requested 
$166 million for FY 2012. The American Legion supports the existing 
budget proposal amount and yet questions if the existing implementation 
of the program adequately supports the end goal of employing veterans 
when figures clearly show the unemployment situation among veterans is 
growing more dire.
    The VSGP is funded to provide advanced or intensive services to 
veterans seeking employment. Through the law, regulations and training, 
those services offered to unemployed veterans are to be beyond that 
offered to the general non-veteran who seeks employment through the 
State employment centers. Yet analysis of 2009 performance data 
indicated only 22 percent of veterans received these intensive 
services. Corresponding employment of veterans was only slightly 
greater despite the resources offered under VETS program. Not only were 
the veterans not receiving the intensive services funded by the VETS 
program, but the services they were receiving were no more successful 
than those for unemployed non-veterans. This further supported a 2003 
study that demonstrated older veterans, disabled veterans and recently 
separated veterans have more favorable outcomes when provided intensive 
services.
    In light of these studies, within the Department of Labor's. FY 
2011 Congressional budget justification, the argument was advanced that 
outlined a refocus on the VETS delivery model. Now within the FY 2012 
justification further merit is given to refocusing of VETS programs to 
intensive delivery systems. The American Legion remains concerned on 
why this has been delayed for so long and how it will truly be 
implemented. While Congress and DoL continue to provide the State 
grants, who holds the States accountable for implementation?
    According to the Bureau of Labor Statistics in February 2011, the 
unemployment rate for Operation Enduring Freedom (OEF)-Operation Iraqi 
Freedom (OIF) veterans is 15.2 percent and has been rising for 4 
months. This statistic puts into question the effectiveness of the 
State Grant Program. It does not appear the States are adequately 
providing all the services they should to eligible veterans who are 
seeking job assistance, such as resume writing, nor are the States 
conducting outreach activities to local employers to promote the hiring 
of veterans.
    In order to better understand the situation, it is best to examine 
a concrete example in the form of a single State. The State of Nevada's 
unemployment rates have eclipsed or led the Nation in the most recent 
recession. What once was a booming economy with the lowest unemployment 
in the Nation is now suffering unimaginable devastation across the 
public and private sectors. To exacerbate matters, DVOPs and LVERs have 
had to endure furloughs, travel restrictions, and other 
``administrative reductions'' to reduce State budgets while needing to 
provide services to the unemployed veterans. In this way, Nevada is not 
much different than many other States.
    During the past 3 years, the VETS grants for Nevada have annually 
increased from $1.113M in 2008 to $1.657M in 2011. From a cursory 
review, one might applaud the increased grants provided to such a dire 
economy, but was the increase worthy of the investment? Did the 
increase enable more personnel to support the veterans? Was the money 
received by the State pushed to serve the veterans? Since Nevada had a 
hiring freeze, a 4.5 percent pay furlough, and travel restrictions, did 
those savings leverage more staff? Only a detailed audit of those 
records and the grants performance could verify a claim of improved 
performance, but from the outset, the overall numbers remain less than 
encouraging. Nevada's unemployment rests at 14.6 percent.
    Moreover, Nevada's actual internal performance indicators 
demonstrate this disconnect and the need for a refocus. During FY 2010, 
Nevada established a 65 percent goal for veterans securing employment. 
This was identical to their 65 percent goal for non-veterans securing 
employment. State budget records indicate they fell far short of this 
goal with only 47 percent of veterans securing employment. More 
unfortunate is that this number was less than the 49 percent of non-
veterans who were successful in securing employment during the time 
period. So with a uniquely funded program aimed at only veterans, 
veteran employment was no greater than the usual employment programs.
    Nevada is but one State in the overall implementation of the State 
Grant Program, but the methods they used to decrease State budgets 
through furloughs, travel restrictions and hiring freezes were not 
unique. Through those administrative changes on a State level, the 
performance indicators and success in employing veterans suffered. Yet 
without the ability to carefully track and push for improved focus and 
services for veterans, DoL must continue to fund the status quo rather 
than the results of veteran employment.
    The American Legion challenges the norm where a State is allowed to 
provide the same goal for veteran employment as non-veteran employment, 
not reach that goal, and continue to see an increase in their overall 
grant allocations. Without adequate oversight and control of the 
implementation at the local level, this grant program merely 
supplements the resources offered to the unemployed rather than provide 
additional veteran employment resources.
    The Jobs for Veterans State Grant Program is staffed by Disabled 
Veterans Outreach Program (DVOP) specialists and Local Veterans 
Employment Representatives (LVERs) who are each responsible for 
carrying out a very specific mission. DVOPs provide basic career 
guidance to qualified veterans and servicemembers and LVERs provide job 
development for veterans by finding potential employers. One area 
Congress should investigate is whether the one-stop career centers need 
to have a transparent form of measurement available to the public. 
These reports should include the number of individuals they see on a 
daily basis and what types of assistance the veterans were provided. 
True transparency and accountability are essential to ensure public 
confidence that the money invested is achieving the desired goal.
    The American Legion recommends DoL monitor the staffing levels for 
DVOPs and LVERs to match the needs of the veterans' community in each 
State coupled with the performance indicators and success. Staffing 
levels should not be based solely on the fiscal needs of the State 
government. Adequate funding will allow the programs to increase 
staffing to provide the comprehensive case management and 
job assistance required to provide employment to service disabled and 
other eligible veterans.
    The States are where the ``rubber meets the road''; and in terms of 
implementing the Jobs for Veterans State Grant Program. They are 
responsible for carrying out the program mandates, but are not always 
maintaining the same level of reliability. For example, the State of 
Texas has spoken on the loss of focus in its State Grant Program. 
Resources are minimal, due to the program being flat-funded and have 
caused staffing levels to dip to severe numbers. Creating a robust 
State Grant Program in Texas means appropriating enough funds to 
maintain a growing program given the military presence in that State. 
Recently returning veterans and the economic recession have created a 
new class of unemployed veterans there who are in need of guidance and 
proper training.
    Due to the lack of funding, that the American Legion has found 
State budgets have been cut limiting the access DVOPs and LVERs have to 
the remote veterans particularly in largely rural areas. DVOPIL VER 
travel is down as well and this lack of travel ultimately prevents 
contacting rural veterans who might not be aware of this program, as 
well as employers who cannot receive necessary education regarding the 
program. Without the DVOPs and LVERs traveling and maintaining contacts 
in rural areas and with potential employers, their ability to provide 
the grant administration needed for the veterans they serve is severely 
diminished.
    American Legion experience in Florida indicates high personnel 
turnover of DVOPs and LVERs due to the State shortfalls in pay and 
funding. This lack of funding on a regular basis contributes to the 
ever-growing challenge of lack of program consistency amongst all the 
States. Both a high turnover and large numbers of vacancies in the 
States for the DVOPIL VER positions and the lack of State focus for the 
program as a whole are major hurdles and a challenge that this program 
must address.

RECOMMENDATIONS
    The State Grant Program has the potential to be an effective and 
successful means to provide transitioning service-connected disabled 
veterans and other eligible veterans' gainful employment. This program 
is one way the Federal Government can equip these servicemembers with 
valuable resources in their search for civilian success. In order to 
make this a premier program that veterans will seek out and utilize, 
The American Legion makes the following recommendations:

    <bullet>  Appropriate $166 million for the State Grant Program,
    <bullet>  Transfer all DVOPs and LVERs from the State Agencies to 
DoL-VETS for greater supervision and oversight.
    <bullet>  Adjust staffing levels to meet the needs of State 
veterans' community, not merely the fiscal needs of the States,
    <bullet>  Initiate a GAO investigation on the Jobs for Veterans 
State Grant Program, to ensure the program is properly serving eligible 
veterans.

                                 <F-dash>
               Prepared Statement of Richard F. Weidman,
         Executive Director for Policy and Government Affairs,
                      Vietnam Veterans of America

    Good Morning, Mr. Chairman, Ranking Member, and distinguished 
Members of this panel. On behalf of our National President, John Rowan, 
Vietnam Veterans of America (VVA) thanks you for the opportunity to 
appear here today to express our views on this vital veterans' issue of 
how well the Local Veteran Employment Representative (LVER) program and 
the Disabled Veteran Outreach Program (DVOP) is working, particularly 
for disabled veterans, recently separated servicemembers, and those 
veterans most at risk. My name is Rick Weidman, and I currently serve 
as Executive Director for Policy & Government Affairs for VVA.
    Vietnam Veterans of America (VVA) has repeatedly advocated the 
``wellness'' model as the paradigm toward which all of the programs, 
benefits, and services for should be aimed. What this means is that it 
is the duty of the people of the United States, through our government 
institutions and with our community resources, to do everything 
possible to restore the men and women who have placed their lives on 
the line in the common defense to the highest degree of autonomy and 
functioning possible following that military service.
    Said another way, all of us should be using a ``holistic'' view of 
the physiological, neuro-psychiatric, and psycho-social aspects of 
health of all returning veterans, but particularly disabled veterans. 
The ``litmus test'' of achieving the highest degree of ``wellness'' 
possible for veterans of working age is the ability to obtain and 
sustain meaningful employment.
    While VVA still believes that the Nation's health care system for 
veterans is still under-funded, despite strong increases this year, and 
that the organizational capacity of the VHA is not yet adequate to meet 
the full range of legitimate needs of the eligible veterans' 
population, the simple fact is that we as a Nation do spend billions 
every year on health care, readjustment counseling, vocational 
rehabilitation, educational benefits, post-traumatic stress disorder 
treatment, substance abuse treatment, and numerous other programs 
designed to assist veterans. However, if the veteran is not assisted to 
obtain and sustain meaningful employment, then there is no ``payoff'' 
for the individual or for the Nation.
    It is because of this centrality of obtaining and securing 
meaningful employment at a living wage is in the readjustment process, 
particularly of our newest veterans, that what this panel does is so 
key to a ``pay-off'' of all of the rest of the efforts extended by our 
Nation.
    As you know, the DVOP and LVER programs operate at the State level 
through Federal grants from VETS. For far too long, VVA has observed a 
significant disparity in the levels of performance between the varying 
States. Some States, such as South Carolina, do a great job. Others do 
not perform as well, and some might appear not to care whether they do 
a good job or not. They get the same amount of money whether they do a 
good job or not they do a good job or even try to do a reasonably 
sufficient job.
    Please let me note that I cannot emphasize too much that nothing in 
this statement should be taken as a criticism of DVOPs and LVERs. Some 
of the finest and most dedicated veterans' advocates (and finest 
people, period) I have ever had the pleasure and honor of knowing are 
DVOPs or LVERs. These folks are eclectic, as any large group would be, 
and some are more skilled and effective than others. However, as a 
group, I am always impressed by these fine Americans who do often do 
great work, no matter what they have to do to accomplish the mission, 
and no matter how much they may be punished for trying to do their job 
correctly, and despite how poorly they are paid in some States.
    Just as there are many individual veteran staff who are doing a 
great job, there are some States, like South Carolina, North Carolina, 
South Dakota, North Dakota, and others who have always done a great job 
for veterans because it is ingrained in their corporate culture by 
consistently having fine State leadership that is committed to veterans 
over a long period of time. There are also individual office managers 
who fully support services to veterans, and who go out of their way to 
support the DVOPs and LVERs in their area, as well as using other 
resources to help get the job done.
    Similarly, the several GAO reports in the last 5 years note that a 
veteran can receive services from a non-DVOP or non-LVER if they are 
considered job ready. VVA agrees that this should be the case, given 
that ``priority of service'' has been re-established as the law. 
However, there are so few what is called ``Wagner-Peyser'' staff left 
out there, So, as a practical matter almost all veterans are sent to 
the veteran's staff.
    The system is actually even more ``broken'' today than it was 
before the passage of the Jobs for Veterans Act in 2002 (which 
originated in this Subcommittee), with even more financial and 
operational problems. It is still not performance and results oriented 
in any meaningful way, nor is it meeting the needs of veterans in need 
of the services it ostensibly provides.
    Due to a decision by the Employment & Training Administration (ETA) 
the current measure of ``placements'' is intellectually and otherwise 
dishonest, and a preposterous example of the ``post hoc, ergo proper 
hoc'' logical fallacy. Just because someone registered with the public 
labor exchange, and then gets their own job with no help from that 
State employment security agency (sesa) does not mean that sesa did 
anything meaningful toward securing that position. But that is what 
happens when the sesa compares the Social Security numbers of their 
registrations with the UI tax rolls, which is what they do today. 
Service disabled veterans, particularly those coming home from today's 
wars, and veterans with significant barriers to employment are even 
more short-changed today than they were in 2002. The former Secretary 
of Labor put the former Assistant Secretary of Labor for ETA in charge 
of implementing the Jobs for Veterans Act. Given the history of ETA, it 
should come as no surprise that this well meaning law does not work as 
intended by this body.
    We have needed a true national strategy to deal properly with the 
returning servicemembers for some time now. The last truly national 
veterans' employment conference was held in Buffalo, New York in May, 
1991.
    Further, what is needed today is a system that focuses on placement 
(real placements, not the dishonest nonsense that Labor is currently 
using) of the highest priority veterans, who are special disabled 
veterans (especially catastrophically disabled veterans), recently 
separated veterans and recently de-mobilized members of the National 
Guard and Reserve, and on veterans who are homeless or ``at risk.''
    We must get away from the notion that this is a ``cheap'' process, 
and focus on quality placements for those most in need.
    Inadequate coordination between DoD and VA in regard to all aspects 
of care for seriously disabled returning veterans, but particularly 
with regard to VA Vocational Rehabilitation continues to be a 
significant problem. It be fruitful for the Committee to look into 
whether all of the recommendations of the GAO Reports have been 
implemented, and how that coordination affects the VA/DoL relationship. 
VVA would suggest that the Committee take steps to verify any quick 
answers you receive from DoD or VA regarding these recommendations.
    We must insist on real collaboration and cooperation between DoL-
VETS and VA, to include both VA Voc Rehab and the Readjustment 
Counseling Service (VET Centers) at both the national as well as the 
State/local level. This written comprehensive plan of action, as 
recommended repeatedly by the GAO, must be specific, be able to be 
measured, and have a mechanism for managers to be held accountable for 
actual improvements in performance. In some areas of the country this 
relationship has improved, but it needs to be made consistent, and be 
measurable (and actually measured) in every area of the country, with 
appropriate rewards and sanctions for managers involved on the VA side 
and on the DoL side.
    There simply must be a viable national strategy developed to deal 
with employment of the returning servicemembers from the Global War on 
Terrorism. While there is a commendable plan by the President and the 
Director of Office of Personnel Management to bring more veterans, 
especially disabled veterans into Federal service, it is the private 
sector that we need involved in a major way. As we come out of this 
recession and employers start hiring again, there must be a public/
private effort ready to move veterans, particularly disabled veterans 
to the head of the line.
    More than one and one half million servicemembers have already 
rotated through Iraq alone, many of them two or three times. If the 
Administration will not move to fashion such a results oriented plan, 
then we call on you, Mr. Chairman, and your colleagues on both sides of 
the aisle and both sides of Capitol Hill, to reach out and call a 
convocation of public and private entities to put together a real 
action plan to make a difference, as was done after World War II.
    The veterans' staff members need to be made Federal employees, 
answerable to the Federally funded State Director of VETS. VVA has come 
to this conclusion reluctantly, after trying for 25 years to make the 
relationship with the State employment services agencies work. The 
State agencies have known that it might come to this for a decade, yet 
there has been no movement by them to ``clean up their act.'' We simply 
cannot waste any more time, as the returning veterans deserve and need 
employment services that work, and they need those services now.
    Although it is not popular to add to the Federal workforce, this is 
something that must be done now. It is not only the right thing to do 
for these fine young veterans, but it is a necessary thing to do. It is 
in fact a matter of national defense.
    We must think anew, and then act swiftly, in order not to fail the 
brave young men and women defending us in military service today, and 
those who are still recuperating from their wounds who are already 
home.
    Mr. Chairman, on behalf of all of us at VVA, I thank you and your 
distinguished colleagues for the opportunity to present our views here 
today. We would be pleased to answer any questions.

                                 <F-dash>

                    Statement of Christina M. Roof,
    National Acting Legislative Director, American Veterans (AMVETS)
    Chairman Stutzman, Ranking Member Braley and distinguished Members 
of the Subcommittee, on behalf of AMVETS, I would like to extend our 
gratitude for being given the opportunity to share with you our views 
and recommendations regarding the President's budget request for Fiscal 
Year 2012 regarding veterans employment and training services.
    AMVETS feels privileged in having been a leader, since 1944, in 
helping to preserve the freedoms secured by America's Armed Forces. 
Today our organization prides itself on the continuation of this 
tradition, as well as our undaunted dedication to ensuring that every 
past and present member of the Armed Forces receives all of their due 
entitlements. These individuals, who have devoted their entire lives to 
upholding our values and freedoms, deserve nothing less.
    By way of background, the U.S. Department of Labor, Veterans' 
Employment and Training Service (VETS) offers employment and training 
services to eligible veterans through a non-competitive Jobs for 
Veterans State Grants Program. Under this grant program, funds are 
allocated to State Workforce Agencies in direct proportion to the 
number of veterans seeking employment within their State. These grants 
support two primary programs and positions, the Disabled Veterans' 
Outreach Program (DVOP) and the Local Veterans' Employment 
Representatives (LVER).
    The original intent of the DVOP and the DVOP Specialists was to 
provide intensive services to meet the employment needs of disabled 
veterans and other eligible veterans, with the maximum emphasis 
directed toward serving those who are economically or educationally 
disadvantaged, including homeless veterans, and veterans with barriers 
to employment.\1\ Furthermore, DVOP specialists are required to 
actively be involved in outreach efforts to increase program 
participation among veterans with the greatest barriers to employment 
which may include but should not be limited to: outplacement in 
Department of Veterans Affairs (VA) Vocational Rehabilitation and 
Employment Program offices; VA Medical Centers; routine site visits to 
Veterans' Service Organization meetings; Native American Trust 
Territories; Military installations; and, other areas of known 
concentrations of veterans or transitioning servicemembers.\2\ Along 
this same premise the LVER's were founded on the principles of having 
nationwide local representatives conduct outreach to employers and 
engage in advocacy efforts with hiring executives to increase 
employment opportunities for disabled veterans and to assist veterans 
in gaining and retaining employment.
---------------------------------------------------------------------------
    \1\ http://www.dol.gov/vets/programs/empserv/
employment_services_fs.htm
    \2\ http://www.dol.gov/vets/programs/empserv/
employment_services_fs.htm
---------------------------------------------------------------------------
    Currently, the law states any contract in the amount of $100,000 or 
more entered into by any Federal department or agency for the 
procurement of personal property and non-personal services, including 
construction for the United States government, contains a provision 
requiring that the party contracting with the United States take 
affirmative action to employ and advance in employment qualified 
disabled veterans, veterans who served during an action for which a 
Campaign Badge was authorized, veterans who received armed Force 
Service Medal and recently separated veterans. This also applies to any 
subcontract entered into by a prime contractor in carrying out any 
contract for the procurement of personal property and non-personal 
services, including construction for the United States government. Each 
contractor holding such Federal contracts is required to list all of 
their suitable job openings with the appropriate local service delivery 
site, such as DVOPs and LVERs, however, this does not apply to Federal 
grants or other monies received not as the result of a Federal 
contract. These requirements pertain to job openings that exist at the 
time of the execution of the contract and those that occur during the 
performance of the contract.\3\
---------------------------------------------------------------------------
    \3\ http://www.wa.gov/esd/policies/documents/
4034.htm#lver_dvop_resp
---------------------------------------------------------------------------
    Furthermore, The Federal Contractor Job Listing Program (FCJLP) 
requires the listing of job openings with local service delivery sites 
and consideration of employment service referrals at least concurrently 
with the use of any other recruitment source, including the employer's 
own applicant files, and involves the normal obligations which attach 
to the placing of a bona fide job order, including the acceptance of 
referrals of veterans and non-veterans. The listing of the opening does 
not require the hiring of any particular job applicant or any 
particular group of job applicants. It is the policy of the Employment 
Security Department (ESD) to develop job opportunities for veterans and 
``Other Eligible Persons'' through the utilization of the FCJLP. 
However, due to the lack of oversight and auditing for compliance by 
the Office of Federal Contract Compliance and Procurement (OFCCP), the 
ESD is failing to get the DVOP and LVERs the most updated listings of 
local Federal contracts, and thus veterans are missing out on 
employment opportunities. AMVETS believes the OFCCP needs to be playing 
a more active role in the oversight of Federally awarded contracts to 
ensure the contractors are actually employing the required number of 
veterans.
    Now, if the DVOP and LVER specialists do receive the FCJLP 
listings, this is when they are supposed to act. Upon notification of 
the initial contract award, the LVER or DVOP specialist staff should be 
immediately scheduling a visit with the employer to explain the 
veterans' preference laws, ESD's referral services and to emphasize 
ESD's willingness to assist them with their efforts. Employer records 
are set up for each Federal contractor upon notification of the 
contract award. All initial contacts should be recorded on the employer 
record with the following notation: ``Discussed FCJLP.'' Sadly this is 
not occurring at the majority of DVOP and LVERs. Problems such as ESD 
not being able to reliably gain the labor market information to share 
with the DVOP and LVERs, the inabilities to ESD and the DVOPs and LVERs 
to access what Federal contracts have been awarded in their local areas 
and the inability to gain access to the VETS-100 listings are proving 
to be a huge hurdle in finding gainful employment for their veteran 
clients. It is the belief of AMVETS that the DVOP and LVER specialists 
have moved from their intended roles of employment specialist to that 
of simply ``people processors'' who rarely leave their
offices.
    The last stage of the specialist in aiding veterans in gaining 
employment is to make subsequent contacts on an annual basis, at 
minimum, as long as the employer has a Federal contract, either by a 
personal visit, telephone call or letter. It is the responsibility of 
each LVER to ensure an accurate and up-to-date master listing of 
Federal contractors is constantly updated, maintained and used by all 
staff with order-taking responsibilities. AMVETS again questions if 
this is actually occurring at every DVOP and LVER.
    LVER and DVOP funding under 38 U.S.C. Section 4102 (A), Subsection 
(B) states that the Secretary of Labor shall make available to each 
State with an application approved by the Secretary an amount of 
funding in proportion to the number of veterans seeking employment 
using such criteria as the Secretary may establish in regulation, 
including civilian labor force and unemployment data, for the State on 
an annual basis. The proportion of State LVER funding will reflect the 
ratio of:

    <bullet>  The total numbers of veterans residing in the State that 
are seeking employment; to
    <bullet>  The total number of veterans seeking employment in all 
States.

    Paragraph 5 of the aforementioned law also calls for the continued 
monitoring and supervising of the distribution and use of funds 
provided for use by the States. AMVETS believes that this is not 
occurring, due to the lack of control DoL VETS is afforded on the 
Federal level.
    Furthermore, AMVETS believes that the current metrics used to 
measure the success and thus the data used to review which locations 
are meeting their goals are ineffective and misleading.
    For example, AMVETS strongly believes the following measurement 
tools to actually be more detrimental to veterans than they are helpful 
to identifying successful practices with DVOPs and LVERs:

    <bullet>  Any veteran who simply enters into a DVOP or LVER either 
for assistance or just information is recorded as a ``veteran having 
received counseling.''
    <bullet>  Any veteran who finds employment without any assistance 
from the DVOP or LVER is considered a successful placement and is thus 
reported by the DVOP or LVER as a positive termination.

    To stay compliant with the Government Performance and Results Act, 
DoL VETS must implement stronger oversight and tracking of funds. 
AMVETS believes that due to the current state of the entire DVOP and 
LVER system this must occur through the Federalization of the programs. 
Furthermore, AMVETS strongly believes the current DoL Assistant 
Secretary of the Veteran Employment Training (VETS) program, Mr. 
Raymond Jefferson, displays the attributes needed to lead this program 
on the Federal level. He displays all of the necessary knowledge, true 
understanding and drive to see all veterans succeed. However, the VETS 
Assistant Secretary is currently restricted by current laws and 
regulations in the amount of oversight they may have and what 
consequences for non-compliance they can enforce. This is why we 
believe the Federalization of the DVOPs and LVERs is also necessary.
    AMVETS strongly believes that as we go into our 10th year of 
fighting wars on multiple fronts it is of the utmost importance to 
afford our Nation's returning war fighters every opportunity to receive 
training and assistance in gaining and sustaining quality employment.
    And, while AMVETS applauds the initial and intended functions of 
both the DVOPs and LVERs, we believe the programs to currently be 
lacking in oversight and effectiveness. While the mission of VETS is to 
provide veterans and transitioning servicemembers the resources and 
services needed to succeed in the workforce and to sustain gainful 
employment, AMVETS believes that somewhere along the way the programs 
under VETS have gone astray from their intended purposes. AMVETS is not 
necessarily placing blame on the entire VETS program and leadership, 
however someone must be held accountable to protecting the integrity 
and intended purpose of the DVOP and LVER programs. AMVETS believes if 
the government continues to provide Federal funding there must be 
centralized Federal oversight of the entire DVOP and LVER program on 
the Federal level under DoL VETS. We must start tracking funds and 
goals in a manner that will provide the most functional way of 
eliminating waste and improve short falls.
    AMVETS makes the following recommendations to the Subcommittee in 
an effort to restore the DVOP and LVER programs to their originally 
intended and necessary purpose:

    1.  Due to the fact veterans are not currently getting the help we 
are paying for in the DVOP/LVER program, AMVETS recommends the 
Federalization of the DVOP and LVER requiring all DVOP and LVER 
personnel be Federal employees under the oversight and direct 
management of the Assistant Secretary of Labor for Veterans Employment 
& Training. This will provide stronger oversight of performance and 
distributed/awarded grant money.
    2.  Redefine Entered Employment Rate (EER) and Employment Retention 
Rate (ERR) for all veterans and have systems in place that will provide 
the strictest of oversight of the new definitions.
    3.  Funding and grant money should be based on performance. Through 
this you will reward the program sites meeting the goals and indirectly 
make the lower performing program locations and specialist work harder 
in order to meet goals and receive Federal funding.
    4.  Higher and measurable performance metrics must be set which 
will quantify the effectiveness of services provided to veterans by the 
complement of Disabled Veterans' Outreach Program (DVOP) specialists 
and Local Veterans' Employment Representative (LVER) staff in each 
State and such funding should be based around these measurable 
performance levels.
    5.  Strict enforcement of mandated performance standards as set 
forth by 38 U.S.C., Sec. 4102A, as well as regular unscheduled visits 
and program audits to determine the strengths and weaknesses at every 
location. AMVETS believes this will ensure equal access to quality 
programs and staff, regardless of where they reside within the United 
States. Furthermore, we believe these type of internal and external 
review audits will prove to be the most fiscally responsible way of 
eliminating waste, identifying duplication of effort and identify 
personnel not performing their job as mandated by the programs. But 
more importantly, these easily achievable and functional reviews will 
identify what is working and what is producing the most successful 
results. This is what we are striving for, identifying best practices 
that are providing measurable results and improving the quality of life 
of all the veterans they serve.
    6.  DVOPs and LVERs should be Federalized, even if only 
temporarily, to provide the much needed oversight required to identify 
weaknesses, strengths, waste and duplications of efforts.

    In closing, I want to make it clear that AMVETS is in no way 
recommending that the DVOP and LVER funding or grants be cut, rather we 
believe a more fiscally responsible program should be based on 
performance and meeting the goals outlined by DoL VETS. AMVETS believes 
this will motivate individual DVOPs and LVERs to work harder in meeting 
the needs of any veteran reaching out to them for help and guidance. We 
must work together in developing a new centralized Federal oversight 
office, such as DoL VETS Raymond Jefferson, to be able to track every 
dollar of every grant awarded to ensure the money is in fact being used 
only on staff and programs directly relating to a functioning DVOP or 
LVER. AMVETS is not questioning any of the States ethics on how the 
awarded funds were spent, however we believe in order to bring the DVOP 
and LVER programs back up to par we need a dedicated location and staff 
to the oversight of not only the correct use of funds, but more 
importantly, that every veteran reaching out for assistance to a DVOP 
or LVER is receiving nothing but the best services and training we have 
to offer them.
    Chairman Stutzman and distinguished Members of the Subcommittee, 
this concludes my 
testimony and I will address any questions you may have for me. Thank yo
u.

                               __________
                  SAMPLE LVER REPORT TO ADMINISTRATOR

 LOCAL VETERANS' EMPLOYMENT REPRESENTATIVE'S REPORT TO THE 
        ADMINISTRATOR

Service Delivery Site: _______________

Date Submitted: _________________

LVER: ______________________

Quarterly Report: _________________

 The following report is submitted on a fiscal year quarterly basis as 
        required by the DoL Funding Agreement for the Local Veterans' 
        Employment Representative (LVER) regarding compliance with 
        Veterans' Performance Standards, Prototype Standards, and 
        Vocational Rehabilitation & Employment (VR&E) activities.

Veterans' Performance Standards

    1.  Accomplishments:

    2.  Problem Areas:

    3.  Corrective Action

Taken:

Planned:

Prototype Standards

    1.  Accomplishments:

    2.  Problem Areas:

    3.  Corrective Action

Taken:

Planned:
 Vocational Rehabilitation and Employment (VR&E) (Note: All data 
        provided must reflect current Fiscal Year (FY) quarterly, 
        cumulative activities).

 Referred from VA VR&E: Those VR&E clients determined to be job ready 
        and referred each quarter by VA VR&E for registration with the 
        local service delivery site for placement purposes: ______ 
        (Data Source: VA VR&E).

 Registered: The number of job ready VR&E clients referred from VA VR&E 
        and registered each quarter with the local service delivery 
        site for placement purposes: ______ (Data Source: local service 
        delivery sites.

 Registered carry-over from previous FY:K Registered VR&E clients being 
        case managed who are ``carried over'' from the previous FY. 
        (First quarter entry only): ______.

 NOTE: The following report categories are based on the VR&E clients 
        being registered with the local service delivery sites for 
        employment services.

 Entered Employment: The number of above VR&E clients who have 
        registered with the local service delivery site and entered 
        employment each quarter through job placement or obtained 
        employment ________ (Data Source: local service delivery 
        sites).

 Discontinued: (For the purpose of this report) identifies those 
        referred and registered VR&E clients who are no longer actively 
        seeking employment through the local service delivery site 
        ________ (Data Source: VA VR&E).
 NOTE: Status Determination is made by the local VR&E officer after 
        notification from the local service delivery site of those 
        veterans who have registered with the site, but are no longer 
        seeking employment services.

 Average Entry Hourly Wage: Of the total number of VR&E clients who 
        entered employment during the current Quarter: $______ 
        per______ (Data Source: local service delivery site)

 NOTE: Average entry wage information is being compiled as baseline 
        data for Veterans' Employment and Training Service (VETS') 
        strategic planning purposes and to demonstrate program 
        effectiveness in accordance with the Government Performance and 
        Results Act of 1994.
Additional Comments or Success Stories:

__________________________________

__________________________________

__________________________________

__________________________________

__________________________________

LVER Signature:__________________

Date: ____________________

                                 <F-dash>
                   MATERIAL SUBMITTED FOR THE RECORD

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      March 7, 2011

The Honorable Raymond M. Jefferson
Assistant Secretary
Veterans' Employment and Training Service
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

Dear Secretary Jefferson:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Veterans' Employment and Training Service's Budget and State Grant 
Program on March 3, 2011. Please answer the enclosed hearing questions 
by no later than Tuesday, April 19, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-
2034. If you have any questions, please call (202) 225-9756.

            Sincerely,
                                                    Bruce L. Braley
                                                     Ranking Member
    JL/ot

                               __________

               Veterans' Employment and Training Service
           U.S. Department of Labor Questions for the Record
                U.S. House Committee on Veterans Affairs
                  Subcommittee on Economic Opportunity
              Veterans' Employment and Training Service's
                    Budget and State Grant Program''
                             March 3, 2011
    Question 1: In your opinion, should any State lose funding for not 
performing well?

    Response: The Veterans' Employment and Training Service (VETS) 
prefers to provide targeted technical assistance to improve a State's 
underperformance, rather than reducing funding. Any substantial 
reduction in Jobs for Veterans State Grant (JVSG) funding would 
diminish a State's ability to provide services to veterans. For 
example, a decrease in funding could translate into a need to lay off 
Disabled Veterans' Outreach Program (DVOP) specialists and/or Local 
Veterans' Employment Representative (LVER) staff who serve veterans and 
work with area businesses to increase hiring opportunities. VETS has 
the option to require a corrective action plan, in conjunction with 
ongoing technical assistance, to improve the performance of 
underperforming States.

    Question 2: How many reports does VETS have to do each year and 
what percentage of your staff's time does that represent?

    Response: VETS understands that this question refers specifically 
to Congressional reporting and our response only addresses that aspect 
of VETS' responsibilities. On an annual basis, VETS submits six reports 
to Congress: four Uniformed Services Employment and Reemployment Act 
(USERRA) Quarterly Reports, one USERRA Annual Report and one VETS 
Annual Report. We estimate that the preparation and submission of these 
reports represents approximately 5 percent of the annual time of VETS' 
program managers.

    Question 3: Why does Guam, Pennsylvania, Puerto Rico, and Rhode 
Island have ``no data available'' and do you find that acceptable?

    Response: The reasons for the specific instances of missing data 
from these four grantees differ, and VETS' plan for addressing the 
grantees' deficiencies focuses on the unique factors in each case.

    <bullet>  With respect to Puerto Rico (PR) and Guam, VETS has 
recognized for some time that both of these territories face 
infrastructure constraints that differ significantly from those faced 
by State grantees. VETS has been working with PR since 2008. In June, 
2010, VETS met with the PR Deputy Secretary of Labor to discuss 
reporting concerns. As a result, reporting improved but still contained 
errors. These problems were identified and were being fixed by a 
contractor and the IT staff. Several reports were subsequently 
produced, but reporting has recently stopped again. VETS continues to 
monitor the situation and an on-site visit is being scheduled to meet 
with the PR government to further discuss these issues. Guam only 
recently became a recipient of Jobs for Veterans State Grant funds and 
VETS is currently working with the grantee on a process of improvement 
similar to the process already underway with Puerto Rico.
    <bullet>  For several years, Pennsylvania has been conducting a 
major pilot of a new reporting system. During the course of the pilot, 
Pennsylvania has maintained continuity and consistency with the 
reporting system implemented by the other States. Pennsylvania did 
experience a lapse during two quarterly reporting periods, but these 
lapses did not affect its annual reporting, and the cause of the lapse 
has since been resolved.
    <bullet>  The reporting for Rhode Island has generated concerns by 
VETS' staff regarding its timeliness and quality. As a result, VETS put 
the grantee on a corrective action plan, which required the State 
government to transfer an individual to the fiscal department so that 
the reports could be completed timely and accurately. The plan was 
completed in early April and an individual was transferred as required. 
The second quarter reports were submitted on time, but still had 
problems as far as their quality. VETS continues to work with the Rhode 
Island to correct these errors.

    VETS does not consider missing data to be acceptable. However, VETS 
recognizes that grantees experience concrete problems with reporting, 
and strives to work in partnership with its grantees to 
identify constructive solutions to identified problems.

    Question 4: In your estimation, what percentage of incarcerated 
veterans are successfully reintegrated back in their communities?

    Response: Our new Incarcerated Veterans' Transition Program (IVTP) 
provided over $4 million in funding to selected grantees and is just 
two quarters into the current performance period. Therefore, VETS does 
not yet have conclusive data on outcomes for this new initiative. It is 
clear, however, that structured intensive service programs, such as the 
Homeless Veterans' Reintegration Program, can significantly increase 
the potential for successful reintegration into meaningful employment. 
During the prior demonstration of IVTP, carried out in PY 2004 through 
2007, approximately 50 percent of the formerly incarcerated 
participants were placed into
employment.

    Question 5: Should DVOPs and LVERs go through the NVTI training 
before beginning work in their State?

    Response: VETS does not think that a DVOP specialist or an LVER 
staff member should go through National Veterans' Training Institute 
(NVTI) training before beginning to serve veterans in their State. Our 
primary rationale is that the relatively high rate of turnover among 
these veterans' representatives, coupled with States' procedures for 
filling such vacancies, already makes it difficult for States to 
maintain staffing at funded FTE levels. If DVOP specialists and LVER 
staff members were required to complete training prior to reporting for 
work, the vacancy periods would be extended even further. In addition, 
we believe that DVOP specialists and LVER staff are more likely to 
benefit from NVTI training after they have gained some experience 
serving veteran clients in their own States. They can then attend NVTI 
training with the necessary ``frame of reference'' to directly relate 
it to their cumulative experience in a One-Stop Career Center work 
setting, thus increasing the impact and value of the NVTI training 
experience.
    Question 6: How many vacancies do you have in your office?

    Response: VETS' current authorized FTE level is 227. We currently 
have 209 staff on board, 187 in the field and 22 in the National 
Office. There are 12 vacancies in the field and 6 vacancies at the 
National Office.

    Question 7: Last Congress, you testified in a hearing, that DoL was 
going to begin a pilot program that will offer tailored intensive 
services by DVOPs. Can you provide us an update?

    Response: Following that hearing, VETS leadership reexamined its 
plan to launch a ``pilot program.'' VETS determined that the 
appropriate solution to the concerns raised during the hearing was to 
implement changes across the entire program instead of as a limited 
pilot since offering tailored intensive services is the primary role of 
DVOPs. Thus, VETS prepared and issued a directive to States entitled 
``Refocused Roles & Responsibilities of JVSG Funded Staff'' (VPL. 7-
10). In this directive, VETS was clear that in order to best serve 
veterans effectively and efficiently, VETS required DVOP specialists to 
focus on their primary core role which is to provide intensive services 
to targeted veterans. In addition, as part of their Jobs for Veterans' 
State Grant funding for FY 2011, States were directed to improve the 
coordination of services for Disabled Veterans and returning 
servicemembers who face significant barriers to employment. We are 
hopeful that the increased efforts for this population will yield 
positive results over time.

    Question 8: Are the current performance measures properly gauging 
the work done by the Veterans' Employment and Training Service (VETS)?

    Response: VETS believes that the current performance measures 
provide a reasonable basis for measuring the results achieved by VETS' 
grantees, as well as the results achieved by VETS' Federal staff. All 
of VETS' grant programs measure veteran participants' entry to 
employment, their retention in employment, and their earnings level 
following program participation. With respect to USERRA, VETS currently 
measures the timeliness of Federal staff in carrying out two aspects of 
their responsibilities: timeliness of investigations and timeliness of 
referrals. In addition, VETS is currently developing a third measure of 
the quality of the investigations of USERRA claims. We recognize that, 
as programs adapt in response to changing circumstances, measures also 
must adapt. We also recognize that measures never perfectly reflect the 
results they are intended to capture. Therefore, VETS is committed to a 
process of continuous improvement in performance measurement to ensure 
programs are relevant and address their intended goals. That process is 
actively underway during the current fiscal year.

    Question 9: How are the States' shrinking budgets impacting the 
work being done by DVOPs and LVERs?

    Response: We are extremely proud of the fine work that the DVOP 
specialists and LVER staff perform given their relative numbers and the 
ever-increasing budget constraints. The shrinking budgets in States 
have multiple impacts on the work performed. First, there are State-
imposed hiring freezes and four-day work weeks that are designed to 
conserve State revenues, but produce under-expenditures in Federal 
program funding. There are also constraints on the amount of outreach 
and job development visits performed when States impose travel 
restrictions to curb expenses, particularly fuel and transportation 
costs. We have recently revised our fiscal reports to more clearly 
identify the administrative overhead being charged to the JVSG to 
support DVOP and LVER staff.

    Question 10: Some individuals have stated that NVTI cannot keep up 
with the need to train all DVOPs and LVERs within the 18 month time 
frame due to budget constraints. Is this true?

    Response: It is true that with a fixed budget for NVTI, hard 
decisions have to be made to manage the demand for other professional 
courses while still meeting the goal of completing core training for 
all DVOP and LVER staff within 18 months of appointment. This, coupled 
with States' shrinking budgets and policies limiting out-of-state 
travel, challenges our ability to guarantee that all DVOP and LVER 
staff will complete the core training within the 18 months of 
appointment. However, it is VETS' intent to work with States to comply 
with the statutory requirement. We have already received a plan, based 
upon past turnover data, that increases the intensity with which NVTI 
delivers core training classes at its national hub in Denver and at on-
site locations in selected States to conserve costs and increase 
training completions.

    Question 11: When will VETS finalize the review on the Jobs for 
Veterans State Grant program?

    Response: VETS has completed the data collection from our State 
Directors. We plan to analyze those responses over the next few months 
and have results to share by soon. At that point, we will make 
decisions on what next steps to take to implement our analysis.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      March 7, 2011

Ms. Bonnie Elsey
President-Elect, National Association of State Workforce Agencies
Senior Administrative Officer
Minnesota Department of Employment and Economic Development
444 North Capitol Street NW,
Suite 142
Washington, DC 20001

Dear Ms. Elsey:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Veterans' Employment and Training Service's Budget and State Grant 
Program on March 3, 2011. Please answer the enclosed hearing questions 
and deliverables by no later than Tuesday, April 19, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-
2034. If you have any questions, please call (202) 225-9756.

            Sincerely,
                                                    Bruce L. Braley
                                                     Ranking Member
JL/ot
                               __________

                   National Association of State Workforce Agencies
                                                    Washington, DC.
                                                     April 19, 2011
Ranking Member Bruce L. Braley
U.S. House of Representatives
Committee on Veterans' Affairs
335 Cannon House Office Building
Washington, DC 20515

Dear Ranking Member Braley:

    Thank your for the opportunity to answer the questions you provided 
to NASWA following the House Committee on Veterans' Affairs 
Subcommittee on Economic Opportunity hearing on Veterans Employment and 
Training Service's Budget and Grant Program on March 3, 2011.
    I am responding to your March 7, 2011, letter addressed to the 
National Association of State Workforce Agencies (NASWA) President 
Bonnie Elsey.
    Following are the answers to the questions you posed. If you have 
any other questions or concerns, please let me know. Again, thank you 
for the opportunity to answer these questions and provide additional 
information.

            Sincerely,
                                                       Bob Simoneau
                                          Deputy Executive Director
                               __________
       NASWA's Responses to Questions from Ranking Member Braley
                         March 3, 2011 Hearing
                        Questions for the Record
    Question 1: What is your assessment of how the JVSG is doing 
nationally?

    Response: As with any program, there is always room for 
improvement, and states continuously strive to improve the JVSG 
program. The Jobs for Veterans Act of 2002 significantly improved the 
program for our Nation's veterans. Considering the current economic 
situation following the Great Recession, the program is doing well.
    In July 2010, the U.S. Department of Labor Veterans Employment and 
Training Service (VETS) issued guidance to refocus the roles and 
responsibilities of JVSG funded staff; NASWA supports the basic changes 
included in the guidance. Our written testimony for the March 3rd 
hearing included six items we would like to see changed in the overall 
performance of the program:

    a.  Advocate/Promote/Educate;
    b.  Translating Military Skills, Licensing, Certification, and 
Credentialing;
    c.  Definition of a ``Veteran;''
    d.  Partnerships;
    e.  Federal Contractor Job Listing Process; and
    f.  Customer Service.

    Question 2: What is your opinion of the performance measures used 
by VETS?

    Response: NASWA supports the current performance measures for the 
Disabled Veteran Outreach Program (DVOP). The guidance issued by VETS 
to clarify intensive services, and to better align those same services 
provided by Wagner-Peyser and the Workforce Investment Act (WIA) should 
improve the reporting of intensive services for veterans.
    NASWA is concerned that the roles and responsibilities of the Local 
Veteran Employment Representative (LVER) do not match well with the 
required performance measures. The primary role of a LVER is to conduct 
employer outreach on behalf of veterans. LVERs are also directed to 
focus on job development for veterans, something that is not always 
conducive to today's hiring practices by employers. The performance 
measures for the LVER program do not capture any outreach services. The 
LVER performance measures should be addressed to better align with the 
roles and responsibilities for the position.
    NASWA is aware of the concerns voiced by some representatives of 
Veterans Service Organizations and other groups regarding the 
performance measures for the DVOP and LVER programs. The recommendation 
is often made by these groups to return the performance measures to 
placements instead of entered employment rate and employment retention 
rate.
    We do not support the use of placements as a measurement. The three 
primary reasons are:

    (1)  No matter how good a state's workforce system is, it will only 
be able to capture a small percentage of the actual job openings in any 
area. Measuring performance on placements will encourage DVOPs and 
LVERs to only focus on the job openings in their job bank, instead of 
job openings at-large.
    (2)  The LVER and DVOP programs work closely with the Wagner-Peyser 
and WIA programs, which are measured on entered employment rate.

    (3)  The LVER and DVOP programs do not have a separate reporting 
system; they use the job matching system supported by Wagner-Peyser Act 
funds and its reporting system.
    Perhaps the Committee could request a Government Accountability 
Office (GAO) report examining the performance measures and request 
recommendations.

    Question 3: Do we need a better way to determine the administrative 
overhead costs?

    Response: We agree the administrative overhead costs for the DVOP 
and LVER programs are a concern. Elimination or reduction of other 
workforce programs in one-stop centers and escalating infrastructure 
and oversight costs have in many cases resulted in a significant 
increase in administrative costs for the DVOP and LVER programs. Each 
state workforce agency (SWA) negotiates with the Division of Cost 
Determination (DCD), U.S. Department of Labor, to determine a Cost 
Allocation Plan (CAP). Each SWA must charge all indirect costs and 
charges within their CAP proportionately to each program within their 
facilities or responsibility. Our written testimony for the March 3rd 
hearing further describes this process and the issues surrounding it.
    NASWA is concerned with the increasing percentage of JVSG funds 
required for administrative overhead costs, especially in some states. 
However, states must comply with the Cost Allocation Plan described 
above and further described in our written testimony.

    Question 4: Do you think that part-time DVOPs and LVERs are a good 
idea?

    Response: Yes, NASWA believes the ability for states to use part-
time DVOPs and LVERs is a good idea. States should have the authority 
to determine whether to use part-time, defined as ``half-time'' 
positions--or not. Some states have indicated they strongly support the 
half-time positions; others have indicated they do not believe it works 
well in their state.
    In states with large rural areas, the ability to have half-time 
positions allows the state to spread the positions to more one-stop 
centers and to cover more of the state. This reduces ``windshield 
time'' for a full-time DVOP or LVER, who would spend more time 
traveling than providing direct services. It provides more flexibility 
to maximize services to veterans.
                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      March 7, 2011

Mr. John L. Wilson
Assistant National Legislative Director
Disabled American Veterans
807 Maine Avenue, SW
Washington, DC 20024

Dear Mr. Wilson:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Veterans' Employment and Training Service's Budget and State Grant 
Program on March 3, 2011. Please answer the enclosed hearing questions 
by no later than Tuesday, April 19, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-
2034. If you have any questions, please call (202) 225-9756.

            Sincerely,

                                                    Bruce L. Braley
                                                     Ranking Member
JL/ot

                               __________

                 Post-Hearing Questions for John Wilson
   Assistant National Legislative Director of the Disabled American 
                                Veterans
 Following the March 3, 2011 Hearing of Committee on Veterans' Affairs 
                  Subcommittee on Economic Opportunity
                     U.S. House of Representatives
    Question 1: In your written testimony, you are concerned that the 
funding level for State Grants is not enough. What do you consider to 
be an appropriate funding level?

    Answer: The Veterans Employment and Training Service (VETS) offers 
employment and training services to eligible veterans through its Jobs 
for Veterans State Grants (JVSG) program. Funds are allocated to state 
workforce agencies in direct proportion to the number of veterans who 
are employed in each state compared to the number of unemployed 
veterans nationally. Disabled American Veterans (DAV) believes funding 
should be sufficient to ensure that Disabled Veterans' Outreach Program 
Specialists (DVOPs) and Local Veterans' Employment Representatives 
(LVERs) are available in adequate numbers so that no veteran has to 
wait extended periods to be provided the employment services they seek. 
The primary focus of DVOPs and LVERs should be on providing priority 
service to veterans as opposed to state workforce agency managers 
utilizing them to work with or process public assistance programs.

    Question 2: In your opinion how effective is the DVOP/LVER program?

    Answer: The Workforce Investment Act (WIA) of 1998 required at 
least one impact evaluation to be conducted by 2005 to assess how 
effective VETS one-stop services are in helping veterans find and 
maintain employment program services. The Jobs for Veterans Act (JVA) 
of 2002 built upon the WIA by consolidating funding for veterans 
employment and training services into the JVSG. In the 2004 Government 
Accountability Office (GAO) Report, Veterans' Employment and Training 
Service, Labor Could Improve Information on Reemployment Services, 
Outcomes, and Program Impact, GAO-07-594, the GAO recommended that the 
Department of Labor (DoL) conduct the impact evaluation as required 
under the 1998 WIA.\1\ In testimony presented April 7, 2011, by Andrew 
Sherrill, GAO Director of Education, Workforce, and Income Security 
Issues before the House Appropriations Subcommittee on Labor, Health 
and Human Services, Education and Related Agencies, GAO-11-506T, titled 
Employment And Training Programs, Opportunities Exist for Improving 
Efficiency,\2\ he stated ``. . . little is known about the 
effectiveness of employment and training programs because only 5 of the 
47 programs reported that they had conducted any impact studies since 
2004.'' This lack of a system-wide impact evaluation or study impairs 
policy makers and program managers ability to make ``. . . decisions 
about how to improve, coordinate, or consolidate existing programs.'' 
\3\
---------------------------------------------------------------------------
    \1\ Government Accountability Office, VETERANS' EMPLOYMENT AND 
TRAINING SERVICE, Labor Could Improve Information on Reemployment 
Services, Outcomes, and Program Impact, May 2007, page 10
    \2\ Andrew Sherrill, GAO Director of Education, Workforce, and 
Income Security Issues on April 7, 2011, Page 14
    \3\ Ibid
---------------------------------------------------------------------------
    The issue of JVSG data reporting is also addressed in Director 
Sherrill's April 7, 2011 testimony. He states that DoL has made 
progress in information reporting, but two issues remain:

           First, only a small proportion of job seekers who receive 
        services at one-stops are eflected in WIA outcome data. While 
        customers who use self-services are estimated to be the largest 
        portion of those served under WIA, job seekers who receive 
        self-service or informational services are specifically 
        excluded from performance calculations by the statute. Second, 
        WIA's performance measurement system contains no provision for 
        measuring overall one-stop performance, relying instead on a 
        program-by-program approach that cannot easily be used to 
        assess the overall performance of the one-stop system.\4\
---------------------------------------------------------------------------
    \4\ Ibid

    Assistant Secretary Jefferson stated at the March 3, 2011 hearing 
before this Subcommittee, beginning in 2011, DoL will be reviewing the 
JVSG program so a current assessment of its effectiveness can be 
obtained. He indicated that VETS will conduct a comprehensive, formal 
review to determine what improvements are needed ``to gain a clearer 
picture of how the JVSG program is helping veterans gain meaningful 
employment and whether any improvements are needed to help States 
achieve their outcome measures.'' \5\
---------------------------------------------------------------------------
    \5\ Statement of Hon. Raymond M. Jefferson, Assistant Secretary, 
Veterans' Employment and Training Service, U.S. Department of Labor, 
Veterans' Employment and Training Service's Budget and State Grant 
Program, March 3, 2011, page 4.
---------------------------------------------------------------------------
    DAV views an impact evaluation or study carried out in such a way 
as to provide a valid assessment of the effectiveness of the JVSG 
program in its entirety as essential in evaluating the effectiveness of 
the VETS program. If the formal review highlighted by Assistant 
Secretary Jefferson addresses the objectives of the impact study 
required by the 1998 WIA, then the results of this formal review could 
not only fulfill this longstanding requirement, it could identify 
additional areas for improvement, enhancements to program performance 
metrics and offer other insights on how to maximize VETS ability to 
help veterans find and maintain employment.
    Further, action must be taken to ensure VETS has an effective 
performance management system of key employment and training program 
indicators to aid policy makers and program managers in making informed 
decisions on delivery of services and budgetary support. We urge 
Congress, through its oversight function, to work closely with DoL to 
ensure an impact study is carried out in such a way as to provide a 
valid assessment of the effectiveness of the JVSG program in its 
entirety is completed, and an effective performance management system 
is put in place.

    Question 3: Do you believe DVOPs and LVERs are properly trained to 
provide employment services?

    Answer: To address the adequacy of training of DVOPs and LVERs 
requires an evaluation of the National Veterans' Training Institute 
(NVTI) educational effort, which is responsible for their training. 
DVOPs and LVERs hired on or after October 13, 2010 must now complete 
their training within 18 months of being hired as opposed to the former 
standard of 36 months. In a report titled Veterans' Employment and 
Training Service: Labor Actions Needed to Improve Accountability and 
Help States Implement Reforms to Veterans' Employment Services, GAO-06-
176, December 2005, GAO surveyed state and local workforce officials 
who indicated they were pleased with the quality of NVTI training.
    A review of course critiques of actual participants who attended 
NVTI between October 2010 and March 2011 provides a more current 
assessment. NVTI requires pre- and post-testing of program 
participants. Using a one to five scale for pre- and post-testing, 
participants pre-test knowledge of course material was 1.41 on average, 
while post-test results revealed a 4.96 overall rating. This sampling 
of critiques is generally consistent with data from previous years. The 
findings of the above-referenced GAO 2005 report, as well as course 
critique results, indicate that NVTI continues to provide an effective 
training program. Given this continued positive performance, we believe 
increased funding for at least two to three full-time staff members to 
correct the staff shortage of the past 2 years is appropriate. Such a 
staff increase would allow NVTI to provide additional training to 
DVOPs, LVERs and others through more on-campus courses, e-learning 
platforms or site visits.
    Based on the feedback from state and local workforce officials in 
2005 and positive course critiques over an extended period, it seems 
effective training is being provided by NVTI. We would prefer to see 
that training investment fully realized with DVOPs and LVERs focused on 
assisting veterans in finding employment as opposed to working on 
public assistance related programs such as food stamps. We encourage 
Congress, through its oversight role, to investigate how DVOPs and 
LVERs are utilized and to work with DoL to ensure effective tools are 
in place to hold management accountable.

    Question 4: Do you think that the staffing and funding level for 
Disabled Veterans' Outreach Program Specialists and Local Veterans' 
Employment Representatives is adequate to properly address the 
employment needs of our veteran population?

    Answer: One area of concern has to do with DVOPs and LVERs turnover 
rate of approximately 20 percent. One of the reasons for this turnover 
rate may be that these employees are typically hired at entry level 
positions in most states. Anecdotally, if these state employees' jobs 
were compared to their equivalent Federal sector peers they may be 
rated as GS-7s without an undergraduate degree, GS-9s with an 
undergraduate degree, and GS-10s or 11s with a graduate degree. Once 
hired, these entry level employees may be seeking better paying 
positions within their respective states, thus contributing to a high 
turnover rate.
    One option offered by some would be to allow all DVOPs and LVERs to 
compete for the 1 percent of JVSG funding reserved for performance 
incentives. Unfortunately, work incentive awards are based on improving 
the provisions of services in general and not necessarily on employment 
outcomes. Also, while many states would allow such incentive 
opportunities, about one-third of all states will not allow work 
incentives to go to employees because this JVA requirement conflicts 
with state laws, policies, or collective bargaining agreements.\6\ We 
encourage Congress to work to lift such restrictions within these 
states. Once lifted, DVOPs and LVERs would then be able to compete for 
JVSG performance incentive awards regardless of the state in which they 
are employed. Such incentives could enhance employee retention and 
improve the assistance they provide to veterans.
---------------------------------------------------------------------------
    \6\ GAO Report, VETERANS' EMPLOYMENT AND TRAINING SERVICE Labor 
Actions Needed to Improve Accountability and Help States Implement 
Reforms to Veterans' Employment Services GAO-06-176, page 3.
---------------------------------------------------------------------------
    As noted earlier, DAV supports an impact study carried out in such 
a way as to provide a valid assessment of the effectiveness of the JVSG 
program in its entirety. If the formal review that Assistant Secretary 
Jefferson highlighted also addresses the objective of the impact study 
required by the 1998 WIA, then the results of this review could provide 
an objective evaluation of the JVSG program and the adequacy of its 
staffing and funding. Decisions on staffing and funding can also be 
better informed if DoL put in place an effective and accurate 
performance management system of key employment and training programs.
    We urge this Subcommittee, through its oversight function, to work 
closely with DoL to ensure an impact study is completed and an 
effective performance management system is put in place. We also 
encourage Congress to work with the applicable states and unions to 
lift restrictions precluding DVOPs and LVERs from being able to compete 
for JVSG performance incentives.

    Question 5: What is DAV's recommendation on how to address the 
licensure and credentialing since the individual states are responsible 
for it?

    Answer: The Department of Defense (DoD) has developed new ways to 
inform servicemembers interested in pursuing vocational and technical 
licensing and certification in various career fields and providing 
information on state requirements. These programs are designed to help 
document training or experience and offer information on taking courses 
or exams to get the types of certification and licensing that are 
important to their eventual transition into the civilian workforce. 
While each of the Services offers this information through various Web 
sites, two similar programs are referenced here: the U.S. Army COOL 
Program (https://www.cool.army.mil/
) and; the U.S. Navy COOL Program (https://www.cool.navy.mil/
index.htm).
    The acronym COOL stands for (Credentialing Opportunities On-Line). 
Both Services' programs explain how active duty personnel, officer or 
enlisted, can meet civilian certification and license requirements 
related to their career fields. This provides a way for servicemembers 
to assess their current level of training. Then they can review the 
certification and licensure requirements for the state in which they 
will reside once they leave the military. With this information in 
hand, they have the opportunity to plan for their transition by making 
use of their Services' Tuition Assistance (TA) Program while on active 
duty (TA can pay up to 100 percent of tuition but requires the 
participant to serve longer in the military, referred to as an active 
duty service commitment), the Post-9/11 GI Bill, or if eligible, the 
Vocational Rehabilitation program offered by the Department of Veterans 
Affairs (VA) for those with a service-connected disability and an 
employment handicap.
    While these enhanced Web sites are important as are the 
opportunities to obtain additional training during or after military 
service, it would seem a more proactive approach should be considered. 
As an alternative, the DoD could expand its training programs so that 
they meet the requirements of their civilian equivalent career paths. 
Once the training was completed, and while the information is fresh, 
servicemembers would be permitted to take certification equivalency 
examinations to gain apprentice or journeyman status for that state. If 
testing determines that they meet the necessary requirements for that 
state, then they would be so recognized by that state's licensing body 
for that subject area. As military members continue in the service, 
additional training or education would be available and could be 
counted as continuing training or education credits to retain state 
certification or licensure status. For those who did not pass the 
equivalency test, they would know the areas in which they need 
additional course work and, once completed, would be able to retake the 
test.
    Some may offer that providing training linked to certification and 
licensure will make recruitment and retention harder. We counter that 
in fact recruitment and retention would both be enhanced. The Services 
could require a service obligation as they do through their TA Program. 
Individuals interested in joining the service would not see actually 
doing so as a roadblock to an eventual civilian career, thus removing 
another impediment to a seamless transition from military service. 
Servicemembers would be assured that they could more easily move into a 
civilian job once they fulfill their military obligations, or retire, 
and thus continue contributing to the economy instead of drawing 
unemployment wages or becoming homeless once they separate.
    We continue to stress the importance of removing unnecessary 
barriers from the path of our highly trained and qualified 
servicemembers as they transition from military to civilian life. We 
recommend that Congress engage in a national dialogue, working closely 
with the DoD, VA and DoL as well as employers, trade unions, and 
licensure and credentialing entities to finally put in place a clear 
process so military personnel are able to take equivalency tests and 
receive civilian equivalent apprentice or journeyman status and 
licensure for the states in which they choose to live after leaving the 
military. This would honor their military service and allow them to 
more easily transition into a civilian occupation without the need for 
redundant training or apprenticeships.

    Question 6: How competitive are salaries for DVOPs and LVERs 
nationwide?

    Answer: Comparing DVOPs and LVERs state employee job ratings 
anecdotally to their equivalent Federal sector peers, they may not 
necessarily be considered in competitive pay grades. They could likely 
be rated as GS-7s without an undergraduate degree, GS-9s with an 
undergraduate degree, and GS-10s or 11s with a graduate degree. Of the 
more than 2,000 DVOPs/LVER positions nationwide, the annual turnover 
rate has been approximately 20 percent. This could be attributed to 
their initially being hired by a state as DVOPs or LVERs at the 
aforementioned entry level grades and eventually finding another 
position within the state government at higher salaries. This turnover 
consequently requires new candidates to be trained by NVTI, new 
relationships to be built by DVOPs with employers and new LVERs to get 
to know the veterans' community in their states. These positions are 
crucial because they are often the first support contacts newly 
discharged veterans will have as they make the difficult transition to 
civilian life. We would encourage Congress to obtain a comprehensive 
understanding of the competitiveness of DVOPs and LVERs beyond 
anecdotal conclusions we may offer.

    Question 7: Do you believe that VETS is lowering their goals to 
match actual performance Measures 1 & 4?

    Answer: Performance Measures are the Federal job training program 
common measures used by DoL for employment programs and serve as 
efficiency measures that reflect the quality of the service provided. 
Performance Measure #1 is the percent of veteran participants employed 
in the first quarter after they exit the program and Performance 
Measure #4 is the percent of disabled veteran participants employed in 
the first quarter after they exit the program. DAV is concerned about 
what appears to be a reduction in performance Measures 1 and 4 for FY 
2012. While one could conclude that these standards are being lowered 
to match actual performance, we do not have sufficient information from 
which to offer a definitive opinion. Given DoD's investment in training 
veterans when they were on active duty and now DoL's efforts to assist 
them in finding employment through the Jobs for Veterans State Grants 
program, it seems more reasonable to focus on increasing the 
performance measure targets, not decreasing them.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      March 7, 2011
Mr. Raymond C. Kelley
Director, National Legislative Service
Veterans of Foreign Wars of the United States
200 Maryland Avenue, NE
Washington, DC 20002

Dear Mr. Kelley:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Veterans' Employment and Training Service's Budget and State Grant 
Program on March 3, 2011. Please answer the enclosed hearing questions 
and deliverable by no later than Tuesday, April 19, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-
2034. If you have any questions, please call (202) 225-9756.

            Sincerely,

                                                    Bruce L. Braley
                                                     Ranking Member
JL/ot

                               __________

Questions for the Record from the House Committee on Veterans' Affairs,
                  Subcommittee on Economic Opportunity
                               Hearing on
               Veterans Employment and Training Service's
                     Budget and State Grant Program
                        Questions for the Record

    Question 1: In your opinion, how effective is the DVOP/LVER 
program?

    Answer: VFW believes the DVOP/LVER program is not as effective as 
it should be. Most DVOP and LVER employees are dedicated to delivering 
services to veterans. However, they are often over worked with tasks 
that are outside their scope of work. As outlined in testimony, staff 
members are fulfilling tasks that are not specifically assigned to 
them. 2007 report found that only 21 percent of veterans who are 
seeking employment use any type of state employment service. Also, the 
grant system that provides money to the states is a disincentive in 
reducing the number of unemployed veterans in each state, status quo 
ensures that each state will continue to receive the same amount of 
funding each year.

    Question 2: Do you believe DVOPs and LVERs are properly trained to 
provide employment services?

    Answer: Yes, DVOPs and LVERs receive quality training; however, 
this training must be provided in a timely manner and VFW believes that 
students must be held accountable through testing after each class. 
Currently, there are employees who are assisting veterans who are 
awaiting training and when they do receive training it is based on an 
``absorb what you can'' format that doesn't indicate whether or not the 
DVOP or LVER gained the knowledge to properly do their jobs.

    Question 3: Do you think that the staffing and funding level for 
Disabled Veteran's Outreach Program Specialists and Local Veterans' 
Employment Representatives is adequate to properly address the 
employment needs of our veteran population?

    Answer: VFW believes that the only way to truly know if staffing 
and funding levels are appropriate is to reevaluate the scope of work 
of DVOPs and LVERs and determine from that evaluation what the needs 
are. Over the years, DVOPs and LVERs continually have more tasks 
assigned to them. Their job should be easy, work with local employers 
so they can be a conduit for job-seeking veterans and assist veterans 
who needs support services to help them qualify for jobs. Over time 
this roll has changed, forcing DVOPs and LVERs to focus on added task, 
such as outreach, TAP classes and in many cases split their time with 
helping non-veterans with in the Employment One-Stop.

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      March 7, 2011

Mr. Robert W. Madden
Assistant Director, National Economic Commission
The American Legion
1605 K Street, NW
Washington, DC 20006

Dear Mr. Madden:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Veterans' Employment and Training Service's Budget and State Grant 
Program on March 3, 2011. Please answer the enclosed hearing questions 
by no later than Tuesday, April 19, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-
2034. If you have any questions, please call (202) 225-9756.

            Sincerely,

                                                    Bruce L. Braley
                                                     Ranking Member
JL/ot

                               __________

                                                The American Legion
                                                    Washington, DC.
                                                     April 18, 2011

Honorable Bruce L. Braley,
Ranking Member
Subcommittee on Economic Opportunity
Committee on Veterans' Affairs
U.S. House of Representatives
335 Cannon House Office Building
Washington, DC 20515

Ranking Member Braley:

    I respectfully submit the following responses to your additional 
questions from the Subcommittee hearing on Veterans Employment and 
Training Service's Budget and State Grant Program conducted on March 3, 
2011:

    Question 1: Should States that fail to meet the grant program 
requirements lose their funding?

    Answer: The idea of taking away State grant program funds because 
States do not meet the minimal requirements sounds good in practice, 
but taking away veterans employment resources and opportunities does 
not help veterans in the long run. The State Grant program is monitored 
by DoL-VETS staff and produce quarterly reports for the agency to 
review. This process needs to be enhanced to show what the LVER/DVOPs 
are accomplishing. Identifying possible fraud of the State Grant 
Program should be monitored. Only after multiple attempts to eradicate 
any possible issues with no compliance by the States should the funding 
for the ``Jobs for Veterans'' State Grant Program be taken away.

    Question 2: What are the major inconsistencies of the JVSG?

    Answer: DVOPs provide disabled and eligible veterans with training 
opportunities and intensive services to meet their employment needs. In 
addition, LVERs provide outreach to employers as well as assist 
veterans in gaining employment by conducting job search workshops and 
establishing job search support groups. They also facilitate 
employment, training, and placement services to veterans. These 
responsibilities sound daunting, but States have relegated DVOP/LVERs 
to providing administrative tasks outside the scope of their job 
descriptions. The American Legion wants to see DVOP/LVERs performing 
their assigned duties and not providing additional support to their 
offices. With unemployment numbers continuing to rise for veterans of 
all wartime eras, especially the OEF/OIF era, it is imperative DVOP/
LVERs fulfill their assigned duties.
    Congress should also ask, ``Are we getting our return on 
investment?'' with this program. To provide transparency that the 
States are accomplishing their efforts to provide eligible veterans 
with employment, a quarterly report needs to be developed in a format 
easily understood by all interested stakeholders.

    Question 3: In your opinion, how effective is the DVOP/LVER 
program?

    Answer: Based on our research the program is not operating at an 
effective level in all States and there seems to be an inadequate 
amount of data to easily and quantifiably demonstrate success/failure. 
As mentioned above, the program needs measurements that are adequate 
and easily understood. DVOP/LVERs understand their job and are 
passionate about servicing disabled and other eligible veterans, but 
the States are not necessarily focused on the same goals that DoL-VETS 
sees as priorities.

    Question 4: Do you think the staffing and funding level for 
Disabled Veterans' Outreach Program Specialists and Local Veterans' 
Employment Representatives is adequate to properly address the 
employment needs of our veterans population?

    Answer: The American Legion has advocated for proper and adequate 
funding for the Jobs for Veterans State Grant Program. The American 
Legion does support the budget proposal for FY 2012, yet at the same 
time requests a more effective program, thereby increasing the number 
of eligible veterans who are receiving the specific resources to 
include job placement.

    Question 5: Do you believe that more reports from VETS will improve 
VETS performance?

    Answer: VETS will improve their performance when States improve 
their transparency and prove the effectiveness of their State grant 
program. Adding another report does not necessarily improve a program, 
unless it provides specific and definitive data that is useful to those 
who are responsible for measuring the program
success.
    Thank you for your continued commitment to America's veterans and th
eir families.

            Sincerely,

                                                      Robert Madden
                   Assistant Director, National Economic Commission

cc: Chairman Marlin Stutzman

                                 <F-dash>

                                     Committee on Veterans' Affairs
                               Subcommittee on Economic Opportunity
                                                    Washington, DC.
                                                      March 7, 2011

Mr. Richard F. Weidman
Executive Director for Policy and Government Affairs
Vietnam Veterans of America
8719 Colesville Road, Suite 100
Silver Spring, MD 20910

Dear Mr. Weidman:

    I would like to request your response to the enclosed questions for 
the record I am submitting in reference to our House Committee on 
Veterans' Affairs Subcommittee on Economic Opportunity hearing on 
Veterans' Employment and Training Service's Budget and State Grant 
Program on March 3, 2011. Please answer the enclosed hearing questions 
by no later than Tuesday, April 19, 2011.
    In an effort to reduce printing costs, the Committee on Veterans' 
Affairs, in cooperation with the Joint Committee on Printing, is 
implementing some formatting changes for material for all full 
Committee and Subcommittee hearings. Therefore, it would be appreciated 
if you could provide your answers consecutively on letter size paper, 
single-spaced. In addition, please restate the question in its entirety 
before the answer.
    Due to the delay in receiving mail, please provide your response to 
Ms. Orfa Torres by fax at (202) 225-
2034. If you have any questions, please call (202) 225-9756.

            Sincerely,

                                                    Bruce L. Braley
                                                     Ranking Member
JL/ot

                               __________

Questions for the Record from the House Committee on Veterans' Affairs,
                  Subcommittee on Economic Opportunity
                               Hearing on
              Veterans' Employment and Training Service's
                     Budget and State Grant Program

    1.  In your opinion how effective is the DVOP/LVER program?
    2.  Do you think that the staffing and funding level for Disabled 
Veterans' Outreach Program Specialists and Local Veterans' Employment 
Representatives is adequate to properly address the employment needs of 
our veteran population?
    3.  Does VETS have enough DVOPs/LVERs?
    4.  What is your opinion of the part time DVOPs and LVERs?
    5.  Do you believe DVOPs and LVERs are properly trained to provide 
employment services?
    6.  Is the Veterans' Employment and Training Service program 
meeting its goal of assisting veterans with employment?

    [NO RESPONSE WAS RECEIVED.]

                                 <all>

</pre></body></html>
